No.

In the Supreme Court of the United States
DEPARTMENT OF HEALTH AND HUMAN SERVICES, ET AL.,
PETITIONERS

v.
STATE OF CALIFORNIA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
CHRISTOPHER G. MICHEL
BENJAMIN W. SNYDER
Assistants to the Solicitor
General
SHARON SWINGLE
LOWELL V. STURGILL JR.
KAREN SCHOEN
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

The Patient Protection and Affordable Care Act
(ACA), 42 U.S.C. 18001 et seq., requires many group
health plans and health-insurance issuers that offer
group or individual health coverage to provide coverage
for preventive services, including women’s preventive
care, without cost-sharing. See 42 U.S.C. 300gg-13(a).
Guidelines and regulations implementing that requirement promulgated in 2011 by the Departments of Health
and Human Services, Labor, and the Treasury mandated that such entities cover contraceptives approved
by the Food and Drug Administration. The mandate
exempted churches, and subsequent rulemaking established an accommodation for certain other entities with
religious objections to providing contraceptive coverage. In October 2017, the agencies promulgated interim
final rules expanding the exemption to a broad range of
entities with sincere religious or moral objections to
providing contraceptive coverage. In November 2018,
after considering comments solicited on the interim rules,
the agencies promulgated final rules expanding the exemption. The question presented is as follows:
Whether the agencies had statutory authority under
the ACA and the Religious Freedom Restoration Act of
1993, 42 U.S.C. 2000bb et seq., to expand the conscience
exemption to the contraceptive-coverage mandate.

(I)

PARTIES TO THE PROCEEDING

Petitioners are the U.S. Department of Health and
Human Services; the U.S. Department of Labor; Eugene Scalia, in his official capacity as Secretary of Labor; Alex M. Azar II, in his official capacity as Secretary
of Health and Human Services; the U.S. Department of
the Treasury; and Steven Terner Mnuchin, in his official
capacity as Secretary of the Treasury.
Respondents are the State of California; the State of
Delaware; the Commonwealth of Virginia; the State of
Maryland; the State of New York; the State of Illinois;
the State of Washington; the State of Minnesota; the
State of Connecticut; the District of Columbia; the State
of North Carolina; the State of Vermont; the State of
Rhode Island; the State of Hawaii; the Little Sisters of
the Poor Jeanne Jugan Residence; and March for Life
Education and Defense Fund.
RELATED PROCEEDINGS

United States District Court (N.D. Cal.):
State of California v. Health & Human Services,
No. 17-cv-5783 (Jan. 13, 2019)
United States Court of Appeals (9th Cir.):
State of California v. U.S. Department of Health &
Human Services, No. 19-15072 (Oct. 22, 2019)
(affirming preliminary injunction)
Supreme Court of the United States:
Little Sisters of the Poor Jeanne Jugan Residence
v. State of California, No. 18-1192 (June 17,
2019)
Little Sisters of the Poor Jeanne Jugan Residence
v. State of California, No. 19A705 (Dec. 23, 2019)
(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 2
Statutory and regulatory provisions involved ........................... 2
Statement ...................................................................................... 2
Reasons for granting the petition ............................................. 14
Conclusion ................................................................................... 15
Appendix A — Court of appeals opinion (Oct. 22, 2019) ....... 1a
Appendix B — District court order (Jan. 13, 2019)............. 40a
Appendix C — Court of appeals opinion
(Dec. 13, 2018) ......................................... 105a
Appendix D — District court order (Dec. 21, 2017) .......... 154a
Appendix E — Statutory and regulatory provisions ........ 197a
TABLE OF AUTHORITIES

Cases:
Advocate Health Care Network v. Stapleton,
137 S. Ct. 1652 (2017) .................................................... 4, 5
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014)............................................................ 5, 6
Pennsylvania v. President, United States,
930 F.3d 543 (3d Cir. 2019), cert. granted,
No. 19-454 (Jan. 17, 2020) ................................................ 14
Pennsylvania v. Trump, 351 F. Supp. 3d 791
(E.D. Pa. 2019) ................................................................ 14
Zubik v. Burwell:
136 S. Ct. 444 (2015) ....................................................... 7
136 S. Ct. 1557 (2016) ..................................................... 7

(III)

IV
Statutes and regulations:

Page

Administrative Procedure Act,
5 U.S.C. 551 et seq., 701 et seq. ............................................ 8
5 U.S.C. 553(b) ......................................................... 8, 197a
5 U.S.C. 553(b)(B) ................................................... 8, 197a
5 U.S.C. 553(c) ......................................................... 8, 197a
5 U.S.C. 706(2)(A) .......................................................... 9
Employee Retirement Income Security Act of 1974,
Pub. L. No. 93-406, 88 Stat. 829
(29 U.S.C. 1001 et seq.) ......................................................... 2
29 U.S.C. 1002(33)(C)(i) .................................................... 4
29 U.S.C. 1003(b)(2) .......................................................... 4
29 U.S.C. 1185d.................................................................. 2
29 U.S.C. 1191c .............................................................. 2, 8
Internal Revenue Code (26 U.S.C.):
26 U.S.C. 4980H(c)(2)........................................................ 5
26 U.S.C. 9815(a)(1) ........................................................... 2
26 U.S.C. 9833 ................................................................ 2, 8
Patient Protection and Affordable Care Act,
42 U.S.C. 18001 et seq. .......................................................... 2
42 U.S.C. 18011 .................................................................. 5
Public Health Service Act, 42 U.S.C. 201 et seq. .................. 2
42 U.S.C. 300gg-13(a)........................................ 2, 12, 198a
42 U.S.C. 300gg-13(a)(1) ....................................... 3, 198a
42 U.S.C. 300gg-13(a)(2) ....................................... 3, 198a
42 U.S.C. 300gg-13(a)(3) ....................................... 3, 198a
42 U.S.C. 300gg-13(a)(4) ................................. 3, 11, 199a
42 U.S.C. 300gg-92 ........................................................ 2, 8
Religious Freedom Restoration Act of 1993,
42 U.S.C. 2000bb et seq. ...........................................................5

V
Regulations—Continued:

Page

45 C.F.R. (2018):
Section 147.131-147.133 .................................................... 8
Section 147.132(a) ............................................................ 10
Section 147.132(b) ............................................................ 11
Section 147.133(a) ......................................................... 10
Section 147.133(b) ............................................................ 11
Miscellaneous:
47 Fed. Reg. 38,409 (Aug. 31, 1982) .................................... 3
76 Fed. Reg. 46,621 (Aug. 3, 2011) ...................................... 3
77 Fed. Reg. 8725 (Feb. 15, 2012) .......................................... 3
78 Fed. Reg. 8456 (Feb. 6, 2013) ............................................ 4
78 Fed. Reg. 39,870 (July 2, 2013) .......................................... 4
79 Fed. Reg. 51,092 (Aug. 27, 2014) ....................................... 5
80 Fed. Reg. 41,318 (July 14, 2015) ........................................ 6
81 Fed. Reg. 47,741 (July 22, 2016) ..................................... 7
82 Fed. Reg. 47,792 (Oct. 13, 2017) ........................ 5, 6, 7, 8, 9
83 Fed. Reg. 57,536 (Nov. 15, 2018) ......................... 10, 11, 12
83 Fed. Reg. 57,592 (Nov. 15, 2018) ..................................... 10

In the Supreme Court of the United States
No.
DEPARTMENT OF HEALTH AND HUMAN SERVICES, ET AL.,
PETITIONERS

v.
STATE OF CALIFORNIA, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Solicitor General, on behalf of the Department
of Health and Human Services, et al., respectfully petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW

The opinion of the court of appeals (App., infra,
1a-39a) is reported at 941 F.3d 410. The order of the
district court granting a preliminary injunction (App.,
infra, 40a-104a) is reported at 351 F. Supp. 3d 1267. An
earlier opinion of the court of appeals affirming a preliminary injunction but narrowing its scope (App., infra,
105a-153a) is reported at 911 F.3d 558. An earlier order
of the district court granting a preliminary injunction
(App., infra, 154a-196a) is reported at 281 F. Supp. 3d 806.

(1)

2
JURISDICTION

The judgment of the court of appeals was entered on
October 22, 2019. On January 8, 2020, Justice Kagan
extended the time within which to file a petition for a
writ of certiorari to and including February 19, 2020.
The jurisdiction of this court is invoked under 28 U.S.C.
1254(1).
STATUTORY AND REGULATORY
PROVISIONS INVOLVED

Pertinent statutory and regulatory provisions are
reproduced in the appendix to this petition. App., infra,
197a-219a.
STATEMENT

1. a. The preventive-services provision of the Patient Protection and Affordable Care Act (ACA or Act),
42 U.S.C. 18001 et seq., requires many group health
plans and health-insurance issuers that offer group or
individual health coverage to provide coverage for
certain preventive services without “any cost sharing
requirements.” 42 U.S.C. 300gg-13(a). The preventiveservices provision is part of the Public Health Service
Act, 42 U.S.C. 201 et seq., and it is also incorporated into
the Employee Retirement Income Security Act of 1974
(ERISA), Pub. L. No. 93-406, 88 Stat. 829 (29 U.S.C.
1001 et seq.), see 29 U.S.C. 1185d, and the Internal Revenue Code, see 26 U.S.C. 9815(a)(1). The Departments
of Health and Human Services (HHS), Labor, and the
Treasury, respectively, enforce and have authority to
promulgate regulations implementing the relevant portions of those statutes. E.g., 42 U.S.C. 300gg-92; 29 U.S.C.
1191c; 26 U.S.C. 9833.
The ACA’s preventive-services provision requires
covered plans to provide coverage for “evidence-based
items or services” that are recommended by the United

3
States Preventive Services Task Force, an independent
panel of experts, 42 U.S.C. 300gg-13(a)(1); immunizations recommended by an advisory committee of the
Centers for Disease Control and Prevention (CDC),
42 U.S.C. 300gg-13(a)(2); and, “with respect to infants,
children, and adolescents, evidence-informed preventive care and screenings provided for” in already-existing
“comprehensive guidelines supported by the” Health
Resources and Services Administration (HRSA), a component of HHS. 42 U.S.C. 300gg-13(a)(3); see 47 Fed.
Reg. 38,409 (Aug. 31, 1982). In addition, as relevant
here, Section 300gg-13(a)(4) requires covered plans to
provide, “with respect to women, such additional preventive care and screenings not described in paragraph
(1) as provided for in comprehensive guidelines supported by [HRSA] for purposes of this paragraph.”
42 U.S.C. 300gg-13(a)(4).
b. In August 2011, HRSA issued guidelines that
adopted the recommendation of the Institute of Medicine to require coverage for women of (among other
things) all contraceptive methods approved by the Food
and Drug Administration (FDA). See 77 Fed. Reg. 8725,
8725 (Feb. 15, 2012). Coverage for such contraceptive
methods was required for plan years beginning on or
after August 1, 2012. See 76 Fed. Reg. 46,621, 46,623
(Aug. 3, 2011). At the same time, the agencies that administer the ACA—HHS, the Department of Labor,
and the Department of the Treasury—invoked their authority under 42 U.S.C. 300gg-13(a)(4) to promulgate
interim final rules authorizing HRSA to exempt churches
and their integrated auxiliaries from the contraceptivecoverage mandate. See 76 Fed. Reg. at 46,623. Those
interim rules were finalized in February 2012. 77 Fed.
Reg. at 8725.

4
Various religious groups urged the agencies to expand
the church exemption to cover all organizations that had
religious or moral objections to providing contraceptive
coverage. See 78 Fed. Reg. 8456, 8459-8460 (Feb. 6,
2013). Instead, in a subsequent rulemaking, the agencies made available what they termed an “accommodation,” which was limited to religious not-for-profit organizations that had religious objections to providing contraceptive coverage. See 78 Fed. Reg. 39,870, 39,874-39,882
(July 2, 2013). The accommodation purported to allow
a group health plan established or maintained by an eligible objecting employer to opt out of any requirement that
the plan “contract, arrange, pay, or refer for contraceptive coverage” by notifying its insurer—or, in the case
of self-insured plans, the plan’s third-party administrator
—of its objection. Id. at 39,874. The insurer or administrator would then be required to provide or arrange
contraceptive coverage for plan participants. See id. at
39,875-39,880.
For certain self-insured plans, however, coverage by
the plan’s third-party administrator under the accommodation was effectively voluntary. The authority to
enforce a third-party administrator’s obligation to provide separate contraceptive coverage derives solely
from ERISA. But ERISA does not apply to so-called
“church plan[s],” 29 U.S.C. 1003(b)(2), which it defines
to “include[ ] a plan maintained by an organization” that
has as its “principal purpose or function” the “administration or funding of a plan or program for the provision of retirement benefits or welfare benefits, or both,
for the employees of a church or a convention or association of churches” and that “is controlled by or associated with a church or a convention or association of
churches.” 29 U.S.C. 1002(33)(C)(i); see Advocate

5
Health Care Network v. Stapleton, 137 S. Ct. 1652, 1656
(2017). Thus, in addition to exempting churches and
their integrated auxiliaries from the contraceptivecoverage mandate, the agencies in effect also exempted
self-insured plans for church-affiliated not-for-profit
organizations—such as hospitals and universities—
because the agencies could not require the third-party
administrators of those plans to provide or arrange for
contraceptive coverage, nor impose fines or penalties
for failing to do so. See 79 Fed. Reg. 51,092, 51,095 n.8
(Aug. 27, 2014).
The ACA itself also exempted certain other employers from the contraceptive-coverage mandate. The Act
exempts from many of its requirements, including the
preventive-services requirement, so-called grandfathered health plans—generally, those plans that have
not made certain specified changes since the Act’s enactment. See 42 U.S.C. 18011. Grandfathered plans
cover tens of millions of people. See 82 Fed. Reg.
47,792, 47,794 & n.5 (Oct. 13, 2017). Employers with
fewer than 50 employees also are not subject to the tax
imposed on employers that fail to offer health coverage,
see 26 U.S.C. 4980H(c)(2), although small employers
that do provide non-grandfathered coverage must comply with the preventive-services requirement.
2. a. Many employers objected to the contraceptive-coverage mandate on religious grounds and filed
suits challenging it. They principally contended that it
violated the Religious Freedom Restoration Act of 1993
(RFRA), 42 U.S.C. 2000bb et seq. See 82 Fed. Reg. at
47,796-47,797. A circuit conflict developed, and this
Court granted certiorari to resolve it in Burwell v.
Hobby Lobby Stores, Inc., 573 U.S. 682 (2014).

6
Hobby Lobby held that RFRA prohibited applying
the mandate to closely held for-profit corporations with
religious objections to providing contraceptive coverage. See 573 U.S. at 705-736. The Court determined
that the mandate “impose[d] a substantial burden on
the exercise of religion” for such employers. Id. at 726;
see id. at 719-726. The Court further concluded that,
even assuming a compelling governmental interest in
“guaranteeing cost-free access to the four challenged
contraceptive methods,” applying the mandate was not
the least restrictive means of furthering that interest
and therefore was prohibited by RFRA. Id. at 728; see
id. at 726-732. The Court observed that the agencies
had already established an accommodation available to
not-for-profit employers and that, at a minimum, this
less restrictive alternative could be extended to closely
held for-profit corporations that have religious objections to the mandate but not to the accommodation. See
id. at 730-731. The Court “d[id] not decide * * * whether
an approach of this type complies with RFRA for purposes of all religious claims.” Id. at 731 (emphasis added).
b. Following Hobby Lobby, the agencies promulgated rules that extended the accommodation to closely
held for-profit entities that have religious objections to
providing contraceptive coverage. 80 Fed. Reg. 41,318,
41,323-42,328 (July 14, 2015); see 82 Fed. Reg. at
47,797-47,798. Numerous entities, however, continued
to challenge the mandate even with the extended accommodation. Such entities principally asserted that
the accommodation made them complicit in providing
coverage for contraceptives “because it utilized the
plans the [entities] themselves sponsored to provide
services to which they objected on religious grounds.”
82 Fed. Reg. at 47,798. Another circuit split developed,

7
and this Court granted certiorari in several of the cases,
which it consolidated. Ibid.; see, e.g., Zubik v. Burwell,
136 S. Ct. 444 (2015).
After briefing and argument in Zubik and the consolidated cases, the Court vacated all of the judgments
and remanded the cases to the respective courts of appeals without resolving the underlying merits. Zubik v.
Burwell, 136 S. Ct. 1557 (2016) (per curiam). The Court
“d[id] not decide whether [the plaintiffs’] religious
exercise ha[d] been substantially burdened, whether
the Government ha[d] a compelling interest, or whether
the current regulations [we]re the least restrictive
means of serving that interest.” Id. at 1560. Instead,
the Court directed that, on remand, the parties be given
an opportunity to resolve the dispute. See ibid. In the
meantime, the Court precluded the government from
“impos[ing] taxes or penalties on [the plaintiffs] for failure to provide” the notice required under the accommodation. Id. at 1561.
c. In response to this Court’s decision in Zubik, the
agencies sought public comment on whether further
modifications to the accommodation could resolve the
religious objections asserted by various organizations
while providing a mechanism for contraceptive coverage for their employees. See 81 Fed. Reg. 47,741 (July
22, 2016). The agencies received over 54,000 comments
but could not identify a way to amend the accommodation that would both satisfy objecting organizations and
ensure that women covered by those organizations’
plans receive seamless contraceptive coverage. 82 Fed.
Reg. at 47,798-47,799, 47,814.
As a result, as of January 2017, the pending litigation
concerning the mandate and extended accommodation—
consisting of more than three dozen cases, brought by

8
more than 100 separate plaintiffs—remained unresolved.
In addition, some nonreligious organizations with moral
objections to providing contraceptive coverage had filed
suits challenging the mandate. That litigation also led
to conflicting decisions by the courts. See 82 Fed. Reg.
at 47,838.
3. a. In an effort “to resolve the pending litigation
and prevent future litigation,” the agencies subsequently “reexamine[d]” the contraceptive-coverage mandate’s “exemption and accommodation scheme.” 82 Fed.
Reg. at 47,799. In October 2017, the agencies jointly issued two interim final rules that expanded the exemption to a broad range of entities that have either sincere
religious objections or sincere moral objections to
providing contraceptive coverage, while continuing to
offer the existing accommodation as an optional alternative. See id. at 47,792 (religious exemption); id. at
47,838 (moral exemption); 45 C.F.R. 147.131-147.133.
The agencies explained that their statutory authority
to issue “interim final rules,” 26 U.S.C. 9833; 29 U.S.C.
1191c; 42 U.S.C. 300gg-92, permitted the issuance of immediately effective interim rules without the prior notice and opportunity for public comment that is ordinarily required by the Administrative Procedure Act (APA),
5 U.S.C. 551 et seq., 701 et seq.; see 5 U.S.C. 553(b) and
(c); 82 Fed. Reg. at 47,813-47,815, 47,854-47,856. The
agencies additionally concluded that the “good cause”
exception to the APA’s notice-and-comment requirement, 5 U.S.C. 553(b)(B), permitted them to issue interim rules without notice and comment in order to protect religious liberty and end the litigation that had beset the prior rules. 82 Fed. Reg. at 47,813-47,815,
47,854-47,856. The agencies did, however, solicit public

9
comments for 60 days following promulgation of the interim rules in anticipation of final rulemaking. See id.
at 47,792, 47,838.
California and four other States (Delaware, Maryland, New York, and Virginia) brought this suit in the
Northern District of California challenging the interim
rules. The States alleged (as relevant here) that the
rules (1) did not comply with the APA’s notice-andcomment requirements; and (2) were arbitrary and capricious, an abuse of discretion, or otherwise contrary
to law, 5 U.S.C. 706(2)(A), because they violated the
ACA and were not justified by RFRA. 18-15144 C.A.
E.R. 278-279. The district court granted the States’ motion for a nationwide preliminary injunction. App., infra,
154a-196a. The court rejected the government’s objection to the States’ standing and held that the agencies
lacked statutory authority or good cause to issue the
rules without notice and comment. See id. at 170a-176a,
178a-189a.
The government appealed the preliminary injunction. The Little Sisters of the Poor Jeanne Jugan Residence (Little Sisters) and March for Life Education
and Defense Fund (March for Life), which had intervened in the district court to defend the interim rules,
also appealed, and the appeals were consolidated.
18-15144 C.A. Order 1-2 (Mar. 7, 2018).
A divided panel of the court of appeals affirmed in
part and vacated in part the preliminary injunction.
App., infra, 105a-153a. The panel majority held that the
plaintiff States had standing to challenge the interim
rules. Id. at 116a-125a. On the merits, the majority held
that the interim rules likely failed to comply with the
APA’s notice-and-comment requirements. Id. at 125a138a. And the majority concluded that the district court

10
had not abused its discretion in finding that the equities
warranted a preliminary injunction. Id. at 138a-140a.
The majority thus affirmed the preliminary injunction,
but only insofar as it barred implementation of the interim rules in the plaintiff States. Id. at 146a. The majority held that the nationwide scope of the injunction
was overbroad and vacated the portion of the injunction
barring implementation of the rules in other States. Id.
at 141a-146a.
Judge Kleinfeld dissented on the ground that the
States lacked standing, without reaching the other issues in the case. App., infra, 147a-153a.
b. Meanwhile, in November 2018, while the government’s appeal of the preliminary injunction against implementation of the interim rules was pending, and after considering the public comments received on the interim rules, the agencies promulgated final rules that
superseded the interim rules. See 83 Fed. Reg. 57,536
(Nov. 15, 2018) (religious exemption); 83 Fed. Reg. 57,592
(Nov. 15, 2018) (moral exemption).
i. Like the interim rules, the final rules expanded
the existing religious exemption to cover nongovernmental plan sponsors and institutions of higher education that arrange student health plans, to the extent
that those entities have sincere religious objections to
providing contraceptive coverage. See 83 Fed. Reg. at
57,558-57,565, 57,590 (45 C.F.R. 147.132(a)). The agencies also finalized an exemption for entities (except for
publicly traded companies) that have sincere moral
objections to such coverage. See id. at 57,614-57,621,
57,630-57,631 (45 C.F.R. 147.133(a)). Both rules retained
the accommodation as a voluntary option. See, e.g., id.
at 57,537-57,538. And both rules finalized an individual
exemption that allowed—but did not require—willing

11
employers and insurers to offer plans that omit contraceptive coverage to individuals who have religious or
moral objections to such coverage. See id. at 57,590,
57,631 (45 C.F.R. 147.132(b), 147.133(b)).
The agencies concluded that Congress had granted
HRSA discretion to determine the content and scope
of any preventive-services guidelines adopted under
42 U.S.C. 300gg-13(a)(4). 83 Fed. Reg. at 57,540-57,542.
The agencies observed that, “[s]ince the[ir] first rulemaking on this subject in 2011,” they “ha[d] consistently
interpreted the broad discretion granted to HRSA in
section [300gg-13(a)(4)] as including the power to reconcile the ACA’s preventive-services requirement with
sincerely held views of conscience on the sensitive subject of contraceptive coverage—namely, by exempting
churches and their integrated auxiliaries from the contraceptive [m]andate.” Id. at 57,541. The agencies concluded that, “[b]ecause of the importance of the religious liberty values being accommodated” and “the limited impact of these rules,” the expanded exemptions
“are good policy.” Id. at 57,552. The agencies also took
into account “Congress’s long history of providing
exemptions for moral convictions, especially in certain
health care contexts,” id. at 57,598, state “conscience
protections,” id. at 57,601, and “the litigation surrounding the [m]andate,” id. at 57,602.
The agencies additionally determined that the religious exemption was independently authorized by RFRA.
See 83 Fed. Reg. at 57,544-57,548. They concluded that,
“even if RFRA does not compel” the religious exemption, “an expanded exemption rather than the existing
accommodation is the most appropriate administrative
response to the substantial burden identified by the
Supreme Court in Hobby Lobby.” Id. at 57,544-57,545.

12
They further concluded that RFRA in fact required the
exemption. See id. at 57,546-57,548.
ii. Following the issuance of the two final rules, the
original plaintiff States—along with eight additional
States and the District of Columbia—filed an amended
complaint challenging the final rules, and also sought a
preliminary injunction against implementation of the final
rules. App., infra, 59a-60a. The district court granted
a preliminary injunction barring the implementation of
both rules in the plaintiff jurisdictions. Id. at 40a-104a.
The district court again held that the plaintiffs had
standing. App., infra, 62a-69a. On the merits, the court
concluded that the plaintiffs were likely to succeed on,
or at a minimum had raised serious questions regarding, their claims that the final rules are not in accordance with the ACA and are neither authorized nor required by RFRA. Id. at 70a-93a. In passing, the court
also concluded that the plaintiffs were likely to prevail
on their claim that the agencies had failed to provide a
reasoned explanation for their change in policy. Id. at
93a-94a. And the court held that the balance of harms
favored injunctive relief. Id. at 96a-101a.
4. The government, as well as Little Sisters and
March for Life, appealed. A divided panel of the court
of appeals affirmed. App., infra, 1a-39a.
The panel majority again held that the plaintiffs had
standing. App., infra, 10a-11a. On the merits, the court
of appeals held that the district court had not abused its
discretion in concluding that the agencies likely lacked
authority to issue the final rules. Id. at 17a-31a. The
court of appeals concluded that Section 300gg-13(a)
does not confer authority to establish any exemptions to
the contraceptive-coverage mandate. Id. at 18a-22a.

13
The court declined to address the government’s contention that, if the ACA did not authorize the final rules’
religious and moral exemptions, then it also did not authorize the already-existing exemption for churches.
Id. at 21a-22a.
Turning to the question whether RFRA authorized
the religious exemption, the panel majority expressed
uncertainty about whether RFRA gives agencies authority to issue rules addressing alleged violations of
the statute. App., infra, 22a-23a. Assuming arguendo
that RFRA does provide such authority, the court of appeals held that RFRA likely did not authorize the religious exemption for two reasons: first, the court concluded that the exemption contradicts congressional intent that all women have access to appropriate preventive care; second, the court held that the exemption operates in a manner at odds with “the careful, individualized, and searching review mandate[d] by RFRA.” Id.
at 23a-25a. The court further concluded that the existing accommodation likely satisfies RFRA and that
RFRA therefore did not require the agencies to provide
the religious exemption. Id. at 25a-30a.
Having concluded that it was likely that the agencies
lacked statutory authority for the religious and moral
exemptions, the court of appeals found it unnecessary
to reach the district court’s holding that the plaintiffs
were likely to prevail on their claim that the agencies
failed to provide a reasoned explanation for their
change in policy. App., infra, 30a-31a.
Finally, the court of appeals held that the district
court did not abuse its discretion in concluding that the
balance of equities supported injunctive relief. App.,
infra, 31a-32a.

14
Judge Kleinfeld dissented. App., infra, 33a-39a. In
his view, the nationwide preliminary injunction issued
by a federal district court in the Eastern District of
Pennsylvania in a parallel case challenging the same
rules (discussed below) rendered the case moot. Id. at
36a-38a. He also disagreed with the majority with respect to standing and the merits, concluding that the
agencies’ interpretation of the ACA as authorizing the
exemptions was reasonable and entitled to judicial deference. Id. at 38a-39a.
5. As noted, Pennsylvania and New Jersey brought
a separate challenge to the final rules in the Eastern
District of Pennsylvania, and the district court in that
case granted the motion of those States for a preliminary injunction, enjoining the final rules on a nationwide basis. See Pennsylvania v. Trump, 351 F. Supp.
3d 791 (2019). The Third Circuit affirmed. See Pennsylvania v. President, United States, 930 F.3d 543 (2019).
This Court granted both the government’s and intervenor Little Sisters’ petitions for writs of certiorari. See
Little Sisters of the Poor Saints Peter & Paul Home v.
Pennsylvania, No. 19-431 (Jan. 17, 2020); Trump v.
Pennsylvania, No. 19-454 (Jan. 17, 2020).
REASONS FOR GRANTING THE PETITION

The court of appeals held that neither the ACA nor
RFRA authorizes the agencies to recognize conscience
exemptions to the contraceptive-coverage mandate. As
the government explained in its petition for a writ of
certiorari in Trump v. Pennsylvania, cert. granted, No.
19-454 (Jan. 17, 2020), that conclusion is incorrect. The
same question, however, is already presented in Pennsylvania. And the court of appeals in this case did not
address any other questions not presented in Pennsyl-

15
vania. Accordingly, the government respectfully requests that the Court hold this petition pending the
Court’s decision in Pennsylvania and then dispose of
the petition as appropriate in light of that decision.
CONCLUSION

The Court should hold the petition for a writ of certiorari pending disposition of Trump v. Pennsylvania,
cert. granted, No. 19-454, and then dispose of the petition as appropriate in light of the Court’s decision in
that case.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
JOSEPH H. HUNT
Assistant Attorney General
JEFFREY B. WALL
Deputy Solicitor General
HASHIM M. MOOPPAN
Deputy Assistant Attorney
General
CHRISTOPHER G. MICHEL
BENJAMIN W. SNYDER
Assistants to the Solicitor
General
SHARON SWINGLE
LOWELL V. STURGILL JR.
KAREN SCHOEN
Attorneys

FEBRUARY 2020

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-15072
D.C. No. 4:17-cv-05783-HSG
STATE OF CALIFORNIA; STATE OF DELAWARE;
COMMONWEALTH OF VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK; STATE OF ILLINOIS;
STATE OF WASHINGTON; STATE OF MINNESOTA;
STATE OF CONNECTICUT; DISTRICT OF COLUMBIA;
STATE OF NORTH CAROLINA; STATE OF VERMONT;
STATE OF RHODE ISLAND; STATE OF HAWAII,
PLAINTIFFS -APPELLEES
v.
U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES;
U.S. DEPARTMENT OF LABOR; R. ALEXANDER ACOSTA,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
U.S. DEPARTMENT OF LABOR; ALEX M. AZAR II,
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; U.S. DEPARTMENT
OF THE TREASURY; STEVEN TERNER MNUCHIN,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
U.S. DEPARTMENT OF THE TREASURY, DEFENDANTS
AND

THE LITTLE SISTERS OF THE POOR JEANNE JUGAN
RESIDENCE, INTERVENOR-DEFENDANT-APPELLANT

(1a)

2a
No. 19-15118
D.C. No. 4:17-cv-05783-HSG
STATE OF CALIFORNIA; STATE OF DELAWARE;
COMMONWEALTH OF VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK; STATE OF ILLINOIS;
STATE OF WASHINGTON; STATE OF MINNESOTA;
STATE OF CONNECTICUT; DISTRICT OF COLUMBIA;
STATE OF NORTH CAROLINA; STATE OF VERMONT;
STATE OF RHODE ISLAND; STATE OF HAWAII,
PLAINTIFFS -APPELLEES
v.
U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES;
U.S. DEPARTMENT OF LABOR; R. ALEXANDER ACOSTA,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
U.S. DEPARTMENT OF LABOR; ALEX M. AZAR II,
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; U.S. DEPARTMENT
OF THE TREASURY; STEVEN TERNER MNUCHIN,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
U.S. DEPARTMENT OF THE TREASURY,
DEFENDANTS-APPELLANTS
AND

THE LITTLE SISTERS OF THE POOR JEANNE JUGAN
RESIDENCE, INTERVENOR-DEFENDANT
No. 19-15150
D.C. No. 4:17-cv-05783-HSG
STATE OF CALIFORNIA; STATE OF DELAWARE;
COMMONWEALTH OF VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK; STATE OF ILLINOIS;
STATE OF WASHINGTON; STATE OF MINNESOTA;
STATE OF CONNECTICUT; DISTRICT OF COLUMBIA;
STATE OF NORTH CAROLINA; STATE OF VERMONT;
STATE OF RHODE ISLAND; STATE OF HAWAII,
PLAINTIFFS -APPELLEES

3a
v.
U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES;
U.S. DEPARTMENT OF LABOR; R. ALEXANDER ACOSTA,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
U.S. DEPARTMENT OF LABOR; ALEX M. AZAR II,
SECRETARY OF THE UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES; U.S. DEPARTMENT
OF THE TREASURY; STEVEN TERNER MNUCHIN,
IN HIS OFFICIAL CAPACITY AS SECRETARY OF THE
U.S. DEPARTMENT OF THE TREASURY, DEFENDANTS
AND

MARCH FOR LIFE EDUCATION AND DEFENSE FUND,
INTERVENOR-DEFENDANT-APPELLANT
Appeals from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding
Argued and Submitted: June 6, 2019
San Francisco, California
Filed: Oct. 22, 2019
OPINION

Before: J. CLIFFORD WALLACE, ANDREW J. KLEINFELD,
and SUSAN P. GRABER, Circuit Judges.

4a
WALLACE, Circuit Judge:
The Affordable Care Act (ACA) and the regulations
implementing it require group health plans to cover contraceptive care without cost sharing. Federal agencies
issued final rules exempting employers with religious
and moral objections from this requirement. The district
court issued a preliminary injunction barring the enforcement of the rules in several states. We have jurisdiction under 28 U.S.C. § 1292, and we affirm.
I.
We recounted the relevant background in a prior
opinion. See California v. Azar, 911 F.3d 558, 566-68
(9th Cir. 2018). We reiterate it here as necessary to resolve this appeal.
The ACA provides:
A group health plan and a health insurance issuer offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall
not impose any cost sharing requirements for . . .
with respect to women, such additional preventive
care and screenings . . . as provided for in comprehensive guidelines supported by the Health Resources and Services Administration [HRSA]. . . .
42 U.S.C. § 300gg-13(a)(4) (also known as the Women’s
Health Amendment). HRSA established guidelines for
women’s preventive care that include any “[FDA] approved contraceptive methods, sterilization procedures,
and patient education and counseling.” Group Health
Plans and Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection
and Affordable Care Act, 77 Fed. Reg. 8,725-01, 8,725

5a
(Feb. 15, 2012). The three agencies responsible for implementing the ACA—the Department of Health and Human Services, the Department of Labor, and the Department of the Treasury (collectively, agencies)—issued
regulations requiring coverage of all preventive care
contained in HRSA’s guidelines. 1 See, e.g., 45 C.F.R.
§ 147.130(a)(1)(iv).
The agencies also recognized that religious organizations may object to the use of contraceptive care and to
the requirement to offer insurance that covers such care.
For those organizations, the agencies provide two avenues for alleviating those objections. First, group health
plans of certain religious employers, such as churches,
are categorically exempt from the contraceptive care requirement. See Coverage of Certain Preventive Services Under the Affordable Care Act, 78 Fed. Reg.
39,870, 39,874 (July 2, 2013). Second, nonprofit “eligible organizations” that are not categorically exempt can
opt out of having to “contract, arrange, pay, or refer for
contraceptive coverage.” Id. To be eligible, the organization must file a self-certification form stating (1) that
it “opposes providing coverage for some or all of any
contraceptive services required to be covered under [the
regulation] on account of religious objections,” (2) that
it “is organized and operates as a nonprofit entity,” and
(3) that it “holds itself out as a religious organization.”
Id. at 39,893. The organization sends a copy of the
Certain types of plans, called “grandfathered” plans, were statutorily exempt from the contraceptive care requirement. See generally Final Rules for Grandfathered Plans, Preexisting Condition
Exclusions, Lifetime and Annual Limits, Rescissions, Dependent
Coverage, Appeals, and Patient Protections Under the Affordable
Care Act, 80 Fed. Reg. 72,192-01 (Nov. 18, 2015).
1

6a
form to its insurance issuer or third-party administrator
(TPA), which must then provide contraceptive care for
the organization’s employees without any further involvement by the organization. Id. at 39,875-76. The
regulations refer to this second avenue as the “accommodation,” and it was designed to avoid imposing on organizations’ beliefs that paying for or facilitating coverage for contraceptive care violates their religion. Id. at
39,874.
The agencies later amended the accommodation process in response to legal challenges. First, certain
closely-held for-profit organizations became eligible for
the accommodation. See Coverage of Certain Preventive
Services Under the Affordable Care Act, 80 Fed. Reg.
41,318-01, 41,343 (July 14, 2015); see also Burwell v. Hobby
Lobby Stores, Inc., 573 U.S. 682, 736 (2014). Second,
instead of directly sending a copy of the self-certification
form to the issuer or TPA, an eligible organization could
simply notify the Department of Health and Human
Services in writing, which then would inform the issuer
or TPA of its regulatory obligations. 80 Fed. Reg. at
41,323; see also Wheaton Coll. v. Burwell, 134 S. Ct.
2806, 2807 (2014).
Various organizations then challenged the amended
accommodation process as a violation of the Religious
Freedom Restoration Act (RFRA). The actions reached
the Supreme Court, and the Supreme Court vacated and
remanded to afford the parties “an opportunity to arrive
at an approach going forward that accommodates petitioners’ religious exercise while at the same time ensuring that women covered by petitioners’ health plans receive full and equal health coverage, including contraceptive coverage.” Zubik v. Burwell, 136 S. Ct. 1557,

7a
1560 (2016) (internal quotation marks and citation omitted). The Court “express[ed] no view on the merits of
the cases,” and did not decide “whether petitioners’ religious exercise has been substantially burdened, whether
the [g]overnment has a compelling interest, or whether
the current regulations are the least restrictive means
of serving that interest.” Id.
The agencies solicited comments on the accommodation process in light of Zubik, but ultimately declined
to make further changes. See Dep’t of Labor, FAQs
About Affordable Care Act Implementation Part 36,
at 4, www.dol.gov/sites/default/files/ebsa/about-ebsa/ouractivities/resource-center/faqs/aca-part-36.pdf. The
agencies concluded, in part, that “the existing accommodation regulations are consistent with RFRA” because
“the contraceptive-coverage requirement [when viewed
in light of the accommodation] does not substantially
burden the[] exercise of religion.” Id.
On May 4, 2017, the President issued an executive
order directing the secretaries of the agencies to “consider issuing amended regulations, consistent with applicable law, to address conscience-based objections to”
the ACA’s contraceptive care requirement. Promoting
Free Speech and Religious Liberty, Exec. Order No.
13,798, 82 Fed. Reg. 21,675, 21,675 (May 4, 2017). Thereafter, effective October 6, 2017, the agencies effectuated
two interim final rules (IFRs) which categorically exempted certain entities from the contraceptive care requirement. See Religious Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 82 Fed. Reg. 47,792, 47,792
(Oct. 13, 2017); Moral Exemptions and Accommodations
for Coverage of Certain Preventive Services Under the

8a
Affordable Care Act, 82 Fed. Reg. 47,838-01, 47,838 (Oct.
13, 2017). The first exempted all entities “with sincerely
held religious beliefs objecting to contraceptive or sterilization coverage” and made the accommodation optional for them. 82 Fed. Reg. at 47,808. The second
exempted “additional entities and persons that object
based on sincerely held moral convictions,” “expand[ed]
eligibility for the accommodation to include organizations with sincerely held moral convictions concerning
contraceptive coverage,” and made the accommodation
optional for those entities. 82 Fed. Reg. at 47,849.
California, Delaware, Maryland, New York, and Virginia sued the agencies and their secretaries, seeking to
enjoin the enforcement of the IFRs and alleging that
they are invalid under the Administrative Procedure
Act (APA). The district court, in relevant part, held
that the plaintiff states had standing to challenge the
IFRs and issued a nationwide preliminary injunction
based on the states’ likelihood of success on their procedural APA claim—that the IFRs were invalid for failing
to follow notice and comment rulemaking. After issuing the injunction, the district court allowed Little Sisters of the Poor, Jeanne Jugan Residence (Little Sisters) and March for Life Education and Defense Fund
(March for Life) to intervene.
We affirmed the district court except as to the nationwide scope of the injunction. See California, 911 F.3d
at 585. We limited the geographic scope of the injunction to the states that were plaintiffs in the case. See
id. Shortly after the panel issued the opinion, the final
rules became effective on January 14, 2019, superseding
the IFRs. See Religious Exemptions and Accommoda-

9a
tions for Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg. 57,536-01,
57,536 (Nov. 15, 2018); Moral Exemptions and Accommodations for Coverage of Certain Preventive Services
Under the Affordable Care Act, 83 Fed. Reg. 57,592-01,
57,592 (Nov. 15, 2018). The final rules made “various
changes . . . to clarify the intended scope of the language” in “response to public comments,” 83 Fed. Reg.
at 57,537, 57,593. However, the parties agree that the
final rules are materially identical to the IFRs for the
purposes of this appeal.
The plaintiff states then amended their complaint to
enjoin the enforcement of the final rules. They alleged
a number of claims, including that the rules are substantively invalid under the APA. The amended complaint
joined as plaintiffs the states of Connecticut, Hawaii, Illinois, Minnesota, North Carolina, Rhode Island, Vermont, and Washington, and the District of Columbia.
The district court determined that the final rules were
likely invalid as “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law,” and
issued a preliminary injunction. In light of the concerns articulated in our prior opinion, see California,
911 F.3d at 582-84, the geographic scope of the injunction was limited to the plaintiff states. The district
court then proceeded to ready the case for trial. The
agencies, Little Sisters, and March for Life appeal from
the preliminary injunction.
II.
We review standing de novo. See Navajo Nation v.
Dep’t of the Interior, 876 F.3d 1144, 1160 (9th Cir. 2017).
We review a preliminary injunction for abuse of discretion. See Network Automation, Inc. v. Advanced Sys.

10a
Concepts, Inc., 638 F.3d 1137, 1144 (9th Cir. 2011). “In
deciding whether the district court has abused its discretion, we employ a two-part test: first, we ‘determine
de novo whether the trial court identified the correct legal rule to apply to the relief requested’; second, we determine ‘if the district court’s application of the correct legal standard was (1) illogical, (2) implausible, or (3) without support in inferences that may be drawn from the
facts in the record.’ ” Pimentel v. Dreyfus, 670 F.3d
1096, 1105 (9th Cir. 2012) (quoting Cal. Pharmacists
Ass’n v. Maxwell-Jolly, 596 F.3d 1098, 1104 (9th Cir.
2010)). The review is highly deferential: we must
“uphold a district court determination that falls within a
broad range of permissible conclusions in the absence of
an erroneous application of law,” and we reverse “only
when” we are “convinced firmly that the reviewed decision lies beyond the pale of reasonable justification under the circumstances.” Microsoft Corp. v. Motorola,
Inc., 696 F.3d 872, 881 (9th Cir. 2012) (first quoting
Grant v. City of Long Beach, 715 F.3d 1081, 1091 (9th
Cir. 2002); then quoting Harman v. Apfel, 211 F.3d 1172,
1175 (9th Cir. 2000)).
III.
We again hold that the plaintiff states have standing
to sue. As the agencies properly recognize, our prior
decision and its underlying reasoning foreclose any arguments otherwise. See California, 911 F.3d at 57074; Nordstrom v. Ryan, 856 F.3d 1265, 1270-71 (9th Cir.
2017) (holding that, where a panel previously held in a
published opinion that the plaintiff has standing, that
ruling is binding under “both the law-of-the-case doctrine and our law-of-the-circuit rules”); see also Rocky
Mountain Farmers Union v. Corey, 913 F.3d 940, 951

11a
(9th Cir. 2019) (“[L]aw of the case doctrine generally
precludes reconsideration of an issue that has already
been decided by the same court, or a higher court in the
identical case”); Miranda v. Selig, 860 F.3d 1237, 1243
(9th Cir. 2017) (“[U]nder the law-of-the-circuit rule, we
are bound by decisions of prior panels[] unless an en
banc decision, Supreme Court decision, or subsequent
legislation undermines those decisions” (internal quotation marks and alterations omitted)).
Little Sisters and March for Life have not identified
any new factual or legal developments since our prior
decision that require us to reconsider standing here.
To the contrary, a recent decision by the Supreme Court
strongly supports our previous holding that the plaintiff
states have standing. In Department of Commerce v.
New York, 139 S. Ct. 2551, 2566 (2019), the Supreme
Court held that the plaintiff states had standing, even
though their claims of harm depended on unlawful conduct of third parties, because their theory of standing
“relies . . . on the predictable effect of Government
action on the decisions of third parties.” See also id.
(“Article III requires no more than de facto causality”
(internal quotation marks omitted)). Here, the plaintiff
states’ theory of causation depends on wholly lawful conduct and on the federal government’s own prediction
about the decisions of third parties. See California,
911 F.3d at 571-73.
IV.
The thoughtful dissent suggests that this appeal is
moot because, the day after the district court issued its
injunction of limited scope, covering the territory of the
thirteen plaintiff states plus the District of Columbia, a
district court in Pennsylvania issued a similar nationwide

12a
injunction. See Pennsylvania v. Trump, 351 F. Supp.
3d 791, 835 (E.D. Pa.), aff ’d 930 F.3d 543 (3d Cir.), petition for cert. filed, __ U.S.L.W. __ (U.S. Oct. 1, 2019)
(No. 19-431). According to the dissent, the nationwide
injunction prevents us from giving effective relief to the
parties here and, accordingly, moots this appeal. We
ordered supplemental briefing on whether this appeal is
moot, and the parties unanimously agreed that this appeal is not moot despite the nationwide injunction from
Pennsylvania. We agree.
As an initial matter, to our knowledge, no court has
adopted the view that an injunction imposed by one district court against a defendant deprives every other federal court of subject matter jurisdiction over a dispute
in which a plaintiff seeks similar equitable relief against
the same defendant. Instead, “in practice, nationwide
injunctions do not always foreclose percolation.” Spencer E. Amdur & David Hausman, Nationwide Injunctions and Nationwide Harm, 131 Harv. L. Rev. F. 49,
53 (2017). For example, both this court and the Fourth
Circuit recently “reviewed the travel bans, despite nationwide injunctions in both.” Id. at n.27.
The dissent appears to raise the “potentially serious
problem” of “conflicting injunctions” that arise from the
“forum shopping and decisionmaking effects of the national injunction.” Samuel L. Bray, Multiple Chancellors: Reforming the National Injunction, 131 Harv. L.
Rev. 417, 462-63 (2017). Although courts have addressed
this problem in the past, no court has done so based on
justiciability principles.
For example, we have held that, “[w]hen an injunction sought in one proceeding would interfere with an-

13a
other federal proceeding, considerations of comity require more than the usual measure of restraint, and such
injunctions should be granted only in the most unusual
cases.” Bergh v. Washington, 535 F.2d 505, 507 (9th Cir.
1976). Significantly, however, the attempt “to avoid
the waste of duplication, to avoid rulings which may
trench upon the authority of sister courts, and to avoid
piecemeal resolution of issues that call for a uniform result” has always been a prudential concern, not a jurisdictional one. W. Gulf Mar. Ass’n v. ILA Deep Sea Local 24, S. Atl. & Gulf Coast Dist. of ILA, 751 F.2d 721,
729 (5th Cir. 1985).
The dissent claims that the majority is “making the
same mistake today that we made in Yniguez v. Arizonans for Official English, when in our zeal to correct
what we thought was a wrong, we issued an injunction
on behalf of an individual regarding her workplace.”
Dissent at 43 (footnote omitted). Yniguez is inapposite.
There, the United States Supreme Court reversed
our decision, holding that the plaintiff ’s “changed
circumstances—her resignation from public sector employment to pursue work in the private sector—mooted
the case stated in her complaint.” Arizonans for Official English v. Arizona, 520 U.S. 43, 72 (1997). Here,
by contrast, the facts and circumstances supporting the
preliminary injunction have not materially changed such
that we are unable to affirm the relief that the plaintiff
states seek to have affirmed. This is therefore not a
case in which “the activities sought to be enjoined already
have occurred, and the appellate courts cannot undo what
has already been done” such that “the action is moot,
and must be dismissed.” Foster v. Carson, 347 F.3d 742,

14a
746 (9th Cir. 2003) (quoting Bernhardt v. Cty. of Los Angeles, 279 F.3d 862, 871 (9th Cir. 2002)). Article III
simply requires that our review provide redress for the
asserted injuries, which the district court’s preliminary
injunction achieves.
The dissent’s logic also proves too much. If a court
lacks jurisdiction to consider the propriety of an injunction over territory that is already covered by a different
injunction, then the Pennsylvania district court lacked
jurisdiction to issue an injunction beyond the territory
of the thirty-seven states not parties to this case. After
all, when the Pennsylvania district court issued its injunction, the district court here had issued its injunction
of limited geographic scope. We hesitate to apply a
rule that means that the Pennsylvania district court
plainly acted beyond its jurisdiction. At most, then,
the dissent’s reasoning would lead us to conclude that
the Pennsylvania injunction is limited in scope to the territory of those thirty-seven non-party states. Under
that interpretation, the two injunctions complement
each other and do not conflict.
In any event, even if the Pennsylvania injunction has
a fully nationwide scope, we nevertheless retain jurisdiction under the exception to mootness for cases capable of repetition, yet evading review. “A dispute qualifies for that exception only if (1) the challenged action
is in its duration too short to be fully litigated prior to
its cessation or expiration, and (2) there is a reasonable
expectation that the same complaining party will be
subjected to the same action again.” United States v.
Sanchez-Gomez, 138 S. Ct. 1532, 1540 (2018) (internal
quotation marks and citation omitted). The first part
is indisputably met here because the interval between

15a
the limited injunction and the nationwide injunction was
one day—clearly “too short [for the preliminary injunction] to be fully litigated prior to its cessation or expiration.” Id. (quoting Turner v. Rogers, 564 U.S. 431, 43940 (2011)).
The second part, too, is met because there is a reasonable expectation that the federal defendants will,
again, be subjected to the injunction in this case. See
Enyart v. Nat’l Conf. of Bar Exam’rs, Inc., 630 F.3d
1153, 1159 (9th Cir. 2011) (applying the “capable of repetition” exception on appeal from a preliminary injunction and querying whether the defendant would again be
subjected to a preliminary injunction). In the Pennsylvania case, a petition for certiorari challenges, among
other things, the nationwide scope of the Pennsylvania
injunction. See Petition for Writ of Certiorari, Little
Sisters v. Pennsylvania, at 31-33 (No. 19-431). Given the
recent prominence of the issue of nationwide injunctions, the Supreme Court very well may vacate the nationwide scope of the injunction. See Amanda Frost, In
Defense of Nationwide Injunctions, 93 N.Y.U. L. Rev.
1065, 1119 (2018) (collecting arguments for and against
nationwide injunctions against the backdrop of “the recent surge in nationwide injunctions”).
But no matter what action, if any, the Supreme Court
takes, the preliminary injunction in the Pennsylvania
case is, like all preliminary injunctions, of limited duration. Once the Pennsylvania district court rules on the
merits of that case, the preliminary injunction will expire. At that point, the federal defendants will once
again be subjected to the injunction in this case.
One possibility is to the contrary: the Pennsylvania
district court could rule in favor of the plaintiffs, choose

16a
to exercise its discretion to issue a permanent injunction, and choose to exercise its discretion to give the permanent injunction nationwide effect despite the existence of an injunction in this case. That mere possibility
does not, however, undermine our conclusion that, given
the many other possible outcomes in the Pennsylvania
case, there remains a “reasonable expectation” that the
federal defendants will be subjected to the injunction in
this case. A “reasonable expectation” does not demand
certainty.
We acknowledge that we are in uncharted waters.
The Supreme Court has yet to address the effect of a
nationwide preliminary injunction on an appeal involving a preliminary injunction of limited scope. Our approach to mootness in this case is consistent with the
Supreme Court’s interest in allowing the law to develop
across multiple circuits. If, of course, our assessment
of jurisdiction is incorrect such that, for example, we
should stay this appeal pending the outcome in Pennsylvania, then we welcome guidance from the Supreme
Court. Under existing precedent, however, we conclude that this appeal is not moot.
V.
A preliminary injunction is a matter of equitable discretion and is “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v. NRDC, 555 U.S. 7, 22
(2008) (citing Mazurek v. Armstrong, 520 U.S. 968, 972
(1997)). “A party can obtain a preliminary injunction
by showing that (1) it is ‘likely to succeed on the merits,’
(2) it is ‘likely to suffer irreparable harm in the absence
of preliminary relief,’ (3) ‘the balance of equities tips in

17a
[its] favor,’ and (4) ‘an injunction is in the public interest.’ ” Disney Enters., Inc. v. VidAngel, Inc., 869 F.3d
848, 856 (9th Cir. 2017) (quoting Winter, 555 U.S. at 20).
Alternatively, an injunction may issue where the likelihood of success is such that “serious questions going to
the merits” were raised and the balance of hardships “tips
sharply toward the plaintiff,” provided that the plaintiff
can also demonstrate the other two Winter factors. Alliance for the Wild Rockies v. Cottrell, 632 F.3d 1127,
1131-32 (9th Cir. 2011).
The district court issued its injunction after concluding that all four factors were met here. We address
each factor in turn.
A.
The APA requires that an agency action be held “unlawful and [be] set aside” where it is “arbitrary, capricious,” “not in accordance with the law,” or “in excess of
statutory jurisdiction.” 5 U.S.C. § 706(2). The district court concluded that the plaintiff states are likely
to succeed on the merits of their APA claim or, at the
very least, raised serious questions going to the merits.
In particular, the district court determined that the
agencies likely lacked the authority to issue the final
rules and that the rules likely are arbitrary and capricious. The district court did not abuse its discretion in
so concluding.
1.
“[A]n agency literally has no power to act . . . unless and until Congress confers power upon it.” Louisiana Pub. Serv. Comm’n v. FCC, 476 U.S. 355, 374
(1986). In reviewing the scope of an agency’s authority
to act, “the question . . . is always whether the agency

18a
has gone beyond what Congress has permitted it to do.”
City of Arlington v. FCC, 569 U.S. 290, 297-98 (2013).
The agencies have determined that the ACA gives them
“significant discretion to shape the content, scope, and
enforcement of any preventative-services guidelines
adopted” pursuant to the Women’s Health Amendment.
Specifically, the agencies highlight that “nothing in the
statute mandated that the guidelines include contraception, let alone for all types of employers with covered
plans.”
We examine the “plain terms” and “core purposes” of
the Women’s Health Amendment to determine whether
the agencies have authority to issue the final rules.
FERC v. Elec. Power Supply Ass’n, 136 S. Ct. 760, 773
(2016). The statute requires that group health plans
and insurance issuers “shall, at a minimum provide coverage for and shall not impose any cost sharing requirements for . . . with respect to women, such additional
preventive care and screenings . . . as provided for
in the comprehensive guidelines supported by [HRSA].”
42 U.S.C. § 300gg-13(a)(4). First, “shall” is a mandatory term that “normally creates an obligation impervious
to . . . discretion.” Lexecon Inc. v. Milberg Weiss
Bershad Hynes & Lerach, 523 U.S. 26, 35 (1998). By
its plain language, the statute states that group health
plans and insurance issuers must cover preventative
care without cost sharing. See BP Am. Prod. Co. v.
Burton, 549 U.S. 84, 91 (2006) (“[S]tatutory terms are
generally interpreted in accordance with their ordinary
meaning”).
The statute grants HRSA the limited authority to determine which, among the different types of preventative care, are to be covered. See Hobby Lobby, 573 U.S.

19a
at 697 (“Congress itself, however, did not specify what
types of preventive care must be covered. . . . Congress authorized [HRSA] . . . to make that important
and sensitive decision”). But nothing in the statute
permits the agencies to determine exemptions from the
requirement. In other words, the statute delegates to
HRSA the discretion to determine which types of preventative care are covered, but the statute does not delegate to HRSA or any other agency the discretion to exempt who must meet the obligation. To interpret the
statute’s limited delegation more broadly would contradict the plain language of the statute. See Arlington,
569 U.S. at 296 (“Congress knows to speak in plain
terms when it wishes to circumscribe, and in capacious
terms when it wishes to enlarge, agency discretion”).
Although the agencies argue otherwise, “an agency’s interpretation of a statute is not entitled to deference
when it goes beyond the meaning that the statute can
bear.” MCI Telecomms Corp. v. Am. Tel. & Tel. Co.,
512 U.S. 218, 229 (1994).
Our interpretation is consistent with the ACA’s statutory scheme. When enacting the ACA, Congress did
provide for religious and moral protections in certain
contexts. See, e.g., 42 U.S.C. § 18113 (assisted suicide
procedures). It did not provide for similar protections
regarding the preventative care requirement. Instead,
Congress chose to provide for other exceptions to that
requirement, such as for grandfathered plans. See
42 U.S.C. § 18011. “[W]hen Congress provides exceptions in a statute, . . . [t]he proper inference . . .
is that Congress considered the issue of exceptions and,
in the end, limited that statute to the ones set forth.”
United States v. Johnson, 529 U.S. 53, 58 (2000). In
fact, after the ACA’s passage, the Senate considered and

20a
rejected a “conscience amendment,” 158 Cong. Rec. S53839 (Feb. 9, 2012); id. at S1162-73 (Mar. 1, 2012), that
would have allowed health plans to decline to provide
contraceptive coverage contrary to asserted religious or
moral convictions. See Doe v. Chao, 540 U.S. 614, 622
(2004) (reversing award of damages, in part, because of
“drafting history showing that Congress cut out the
very language in the bill that would have authorized
[them]”). While Congress’s failure to adopt a proposal
is often a “particularly dangerous ground on which to
rest an interpretation” of a statute, Interstate Bank of
Denver, N.A. v. First Interstate Bank of Denver, N.A.,
511 U.S. 164, 187 (1994), the conscience amendment’s
failure combined with the existence of other exceptions
suggests that Congress did not contemplate a conscience
exception when it passed the ACA.
The “core purpose[]” of the Women’s Health Amendment further confirms our interpretation.
FERC,
136 S. Ct. at 773; see also Sec. Indus. Ass’n v. Bd. of Governors of Fed. Reserve Sys., 468 U.S. 137, 143 (1984) (“A
reviewing court ‘must reject administrative constructions of [a] statute, whether reached by adjudication or
by rulemaking, that are inconsistent with the statutory
mandate or that frustrate the policy that Congress sought
to implement’ ” (quoting FEC v. Democratic Senatorial
Campaign Comm’n, 454 U.S. 27, 32 (1981))). The legislative history indicates that the Amendment sought to
“requir[e] that all health plans cover comprehensive
women’s preventative care and screenings—and cover
these recommended services at little or no cost to women.”
155 Cong. Rec. S12025 (Dec. 1, 2009) (Sen. Boxer); id. at
S12028 (Sen. Murray highlighting that a “comprehensive
list of women’s preventive services will be covered”); id. at
S12042 (Sen. Harkin stating that “[b]y voting for this

21a
amendment . . . we can ensure that all women will
have access to the same baseline set of comprehensive
preventive benefits”). While legislators’ individual comments do not necessarily prove intent of the majority of
the legislature, here the Amendment’s supporters and
sponsors delineated that the types of “preventive services covered . . . would be determined by [HRSA]
to meet the unique preventative health needs of women.”
Id. at S12025 (Sen. Boxer); see also id. at S12027 (Sen.
Gillibrand stating that “[t]his amendment will ensure
that the coverage of women’s preventive services is based
on a set of guidelines developed by women’s health experts”); id. at S12026 (Sen. Mikulski stating that “[i]n
my amendment we expand the key preventive services
for women, and we do it in a way that is based on recommendations . . . from HRSA”). In this case, at the
preliminary injunction stage, the evidence is sufficient
for us to hold that providing free contraceptive services
was a core purpose of the Women’s Health Amendment.
In response, the appellants highlight that they have
already issued rules exempting churches from the contraceptive care requirement, invoking the same statutory provision. See Group Health Plans and Health Insurance Issuers Relating to Coverage of Preventive Services under the Patient Protection and Affordable Care
Act, 76 Fed. Reg. 46621-01, 46,623 (Aug. 3, 2011). The
legality of the church exemption rules is not before us,
and we will not render an advisory opinion on that issue.
See Alameda Conservation Ass’n v. California, 437 F.2d
1087, 1093 (9th Cir. 1971). Moreover, the existence of
one exemption does not necessarily justify the authority
to issue a different exemption or any other exemption
that the agencies decide. Cf. California, 911 F.3d at
575-76 (stating that “prior invocations of good cause to

22a
justify different IFRs—the legality of which are not
challenged here—have no relevance”).
Given the text, purpose, and history of the Women’s
Health Amendment, the district court did not err in concluding that the agencies likely lacked statutory authority under the ACA to issue the final rules.
2.
Under RFRA, the government “shall not substantially
burden a person’s exercise of religion even if the burden
results from a rule of general applicability” unless “it
demonstrates that application of the burden to the person
—(1) is in furtherance of a compelling governmental interest; and (2) is the least restrictive means of furthering that compelling governmental interest.” 42 U.S.C.
§ 2000bb-1(a)-(b). The appellants argue that the regulatory regime that existed before the rules’ issuance—i.e.,
the accommodation process—violated RFRA. They argue that RFRA requires, or at least authorizes, them to
eliminate the violation by issuing the religious exemption2 and “not simply wait for the inevitable lawsuit and
judicial order to comply with RFRA.”
As a threshold matter, we question whether RFRA
delegates to any government agency the authority to determine violations and to issue rules addressing alleged
violations. At the very least, RFRA does not make
such authority explicit. Compare 42 U.S.C. § 2000bb-1,
with 47 U.S.C. § 201(b) (delegating agency authority to

RFRA pertains only to the exercise of religion; it does not concern moral convictions. For that reason, the appellants’ RFRA argument is limited to the religious exemption only. RFRA plainly
does not authorize the moral exemption.
2

23a
“prescribe such rules and regulations as may be necessary in the public interest to carry out the provisions of
the Act”), and 15 U.S.C. § 77s(a) (“The Commission shall
have authority from time to time to make, amend, and
rescind such rules and regulations as may be necessary
to carry out the provisions of this subchapter”). Instead, RFRA appears to charge the courts with determining violations. See 42 U.S.C. § 2000bb-1(c) (providing that a person whose religious exercise has been burdened “may assert that violation . . . in a judicial proceeding” (emphasis added)); Gonzales v. O Centro
Espirita Beneficente Uniao do Vegetal, 546 U.S. 418,
434 (2006) (“RFRA makes clear that it is the obligation
of the courts to consider whether exceptions are required under the test set forth by Congress”).
Moreover, even assuming that agencies are authorized to provide a mechanism for resolving perceived
RFRA violations, RFRA likely does not authorize the
religious exemption at issue in this case, for two independent reasons. First, the religious exemption contradicts congressional intent that all women have access
to appropriate preventative care. The religious exemption is thus notably distinct from the accommodation, which attempts to accommodate religious objectors
while still meeting the ACA’s mandate that women have
access to preventative care. The religious exemption
here chooses winners and losers between the competing
interests of two groups, a quintessentially legislative
task. Strikingly, Congress already chose a balance between those competing interests and chose both to mandate preventative care and to reject religious and moral
exemptions. The agencies cannot reverse that legislatively chosen balance through rulemaking.

24a
Second, the religious exemption operates in a manner
fully at odds with the careful, individualized, and searching review mandate by RFRA. Federal courts accept
neither self-certifications that a law substantially burdens a plaintiff ’s exercise of religion nor blanket assertions that a law furthers a compelling governmental
interest. Instead, before reaching those conclusions,
courts make individualized determinations dependent
on the facts of the case, by “careful[ly]” considering the
nature of the plaintiff ’s beliefs and “searchingly” examining the governmental interest. Wisconsin v. Yoder,
406 U.S. 205, 215, 221 (1972). “[C]ontext matters.”
Cutter v. Wilkinson, 544 U.S. 709, 723 (2005); see O Centro, 546 U.S. at 430-31 (“RFRA requires the Government to demonstrate that the compelling interest test is
satisfied through application of the challenged law ‘to
the person’—the particular claimant whose sincere exercise of religion is being substantially burdened” (quoting 42 U.S.C. § 2000bb-1(b)); Oklevueha Native Am.
Church of Haw., Inc. v. Lynch, 828 F.3d 1012, 1015-17
(9th Cir. 2016) (holding that, although plaintiffs in other
cases had established that a prohibition on the use of
certain drugs was a substantial burden on those plaintiffs’ exercise of religion, the plaintiffs in this case had
not met their burden of establishing that the prohibition
on cannabis use imposed a substantial burden on the
plaintiffs’ exercise of religion). In sum, the agencies
here claim an authority under RFRA—to impose a blanket exemption for self-certifying religious objectors—
that far exceeds what RFRA in fact authorizes. 3 See

The religious exemption’s automatic acceptance of a selfcertification is particularly troublesome given that it has an immedi3

25a
Hobby Lobby, 573 U.S. at 719 n.30 (noting that a proposed “blanket exemption” for religious objectors “extended more broadly than the . . . protections of
RFRA” because it “would not have subjected religiousbased objections to the judicial scrutiny called for by
RFRA, in which a court must consider not only the burden of a requirement on religious adherents, but also the
government’s interest and how narrowly tailored the requirement is”).
Regardless of our questioning of the agencies’ authority pursuant to RFRA, however, it is of no moment
in this appeal because the accommodation process likely
does not substantially burden the exercise of religion
and hence does not violate RFRA. “[A] ‘substantial
burden’ is imposed only when individuals are forced to
choose between following the tenets of their religion and
receiving a governmental benefit . . . or coerced to
act contrary to their religious beliefs by the threat of
civil or criminal sanctions.” Navajo Nation v. United
States Forest Serv., 535 F.3d 1058, 1070 (9th Cir. 2008);
see also Kaemmerling v. Lappin, 553 F.3d 669, 678
(D.C. Cir. 2008) (“An inconsequential or de minimis burden on religious practice” is not a substantial burden).
Whether a government action imposes a substantial
ate detrimental effect on the employer’s female employees. The religious exemption fails to “take adequate account of the burdens . . .
impose[d] on nonbeneficiaries.” Cutter, 544 U.S. at 720. Similarly,
the exemption is not “measured so that it does not override other
significant interests.” Id. at 722; see also Estate of Thornton v. Caldor, Inc., 472 U.S. 703, 709-10 (1985) (invalidating a law that “arm[ed]”
one type of religious objector “with an absolute and unqualified
right” to violate otherwise applicable laws, holding that “[t]his unyielding weighting in favor of [a religious objector] over all other interests” violates the Religion Clauses).

26a
burden on sincerely-held religious beliefs is a question
of law. Guam v. Guerrero, 290 F.3d 1210, 1222 n.20
(9th Cir. 2002).
The Supreme Court has not yet decided whether the
accommodation violates RFRA. In Hobby Lobby, the
Court suggested that it did not. The Court described
the accommodation as “effectively exempt[ing] certain
religious nonprofit organizations . . . from the contraceptive mandate.” 573 U.S. at 698. The Court characterized the accommodation as “an approach that is less
restrictive than requiring employers to fund contraceptive methods that violate their religious beliefs.” Id. at
730. It observed that, “[a]t a minimum, [the accommodation did] not impinge on the plaintiffs’ religious belief
that providing insurance coverage for the contraceptives
at issue here violates their religion, and it serves HHS’s
stated interests equally well.” Id. at 731. Specifically, it
highlighted that, “[u]nder the accommodation, the plaintiffs’ female employees would continue to receive contraceptive coverage without cost sharing for all FDAapproved contraceptives, and they would continue to ‘face
minimal logistical and administrative obstacles . . .
because their employers’ insurers would be responsible
for providing information and coverage.” Id. at 732
(citing 45 CFR §§ 147.131(c)-(d)).
Indeed, before Zubik, eight courts of appeals (of the
nine to have considered the issue) had concluded that
the accommodation process did not impose a substantial
burden on religious exercise under RFRA. 4 The Su-

See Priests for Life v. U.S. Dep’t of Health & Human Servs.,
772 F.3d 229 (D.C. Cir. 2014), vacated, Zubik, 136 S. Ct. at 1561;
4

27a
preme Court then vacated the nine circuit cases addressing the issue without discussing the merits. See,
e.g., Zubik, 136 S. Ct. at 1560. After Zubik, the Third
Circuit has reiterated that the accommodation process
did not impose a substantial burden under RFRA. See
Real Alternatives, Inc. v. Sec’y Dep't of Health & Human
Servs., 867 F.3d 338, 356 n.18 (3d Cir. 2017) (“Although
our judgment in Geneva was vacated by the Supreme
Court, it nonetheless sets forth the view of our [c]ourt,
which was based on Supreme Court precedent, that we
continue to believe to be correct regarding . . . our
conclusion that the regulation at issue there did not impose a substantial burden”).

Catholic Health Care Sys. v. Burwell, 796 F.3d 207 (2d Cir. 2015),
vacated, 136 S. Ct. 2450 (2016); Geneva Coll. v. Sec’y U.S. Dep’t of
Health & Human Servs., 778 F.3d 422 (3d Cir. 2015), vacated, Zubik,
136 S. Ct. at 1561; E. Tex. Baptist Univ. v. Burwell, 793 F.3d 449
(5th Cir. 2015), vacated, Zubik, 136 S. Ct. at 1561; Mich. Catholic
Conference & Catholic Family Servs. v. Burwell, 807 F.3d 738
(6th Cir. 2015), vacated, 136 S. Ct. 2450 (2016); Grace Schs. v. Burwell, 801 F.3d 788 (7th Cir. 2015), vacated, 136 S. Ct. 2011 (2016);
Little Sisters of the Poor Home for the Aged, Denver, Colo. v. Burwell, 794 F.3d 1151 (10th Cir. 2015), vacated, Zubik, 136 S. Ct. at
1561; Eternal Word Television Network v. Sec’y of U.S. Dep’t Health
& Human Servs., 818 F.3d 1122 (11th Cir. 2016), vacated, 2016 WL
11503064 (11th Cir. May 31, 2016) (No. 14-12696-CC), as modified by
2016 WL 11504187 (11th Cir. Oct. 3, 2016).
Only the Eighth Circuit has concluded otherwise. See Sharpe
Holdings, Inc. v. U.S. Dep’t of Health & Human Servs., 801 F.3d
927, 945 (8th Cir. 2015) (affirming grant of preliminary injunction to
religious objectors because “they [were] likely to succeed on the
merits of their RFRA challenge to the contraceptive mandate and
the accommodation regulations”), vacated sub nom. Dep’t of Health
& Human Servs. v. CNS Int’l Ministries, No. 15-775, 2016 WL
2842448, at *1 (U.S. May 16, 2016).

28a
We have not previously expressed any views on the
matter, whether before or after Zubik. We now hold that
the accommodation process likely does not substantially
burden the exercise of religion. An organization with a
sincere religious objection to arranging contraceptive
coverage need only send a self-certification form to the
insurance issuer or the TPA, or send a written notice to
DHHS. See 29 C.F.R. § 2590.715-2713A(b)(1)(ii). Once
the organization has taken the simple step of objecting,
all actions taken to pay for or provide the organization’s
employees with contraceptive care is carried out by a third
party, i.e., insurance issuer or TPA. See, e.g., 45 C.F.R.
§ 147.131(d) (requiring that the issuer or third-party administrator notify the employees in separate mailing
that that it will be providing contraceptive care separate
from the employer, with the mailing specifying that employer is in no way “administer[ing] or fund[ing]” the
contraceptive care); 45 C.F.R. § 147.131(d) (prohibiting
third parties from directly or indirectly charging objecting organizations for the cost of contraceptive coverage
and obligating the third parties to pay for the contraceptive care).
Once it has opted out, the organization’s obligation to
contract, arrange, pay, or refer for access to contraception is completely shifted to third parties. The organization may then freely express its opposition to contraceptive care. Viewed objectively, completing a form
stating that one has a religious objection is not a substantial burden—it is at most a de minimis burden.
The burden is simply a notification, after which the organization is relieved of any role whatsoever in providing objectionable care. By contrast, cases involving
substantial burden under RFRA have involved more

29a
significant burdens on religious objectors. See O Centro, 546 U.S. at 425-26 (substantial burden where the
Controlled Substances Act prevented the religious objector plaintiffs from ever again engaging in a sacramental ritual); Hobby Lobby, 573 U.S. at 719-26 (substantial burden, in the absence of the accommodation,
where the contraceptive care requirement required forprofit corporations to pay out-of-pocket for the use of
religiously-objectionable contraceptives by employees).
Appellants further argue that religious organizations
are forced to be complicit in the provision of contraceptive care, even with the accommodation. But even in
the context of a self-insured plan subject to ERISA, an
objecting organization’s only act—and the only act required by the government—is opting out by form or notice. The objector need not separately contract to provide or fund contraceptive care. The accommodation,
in fact, is designed to ensure such organizations are not
complicit and to minimize their involvement. To the
extent that appellants object to third parties acting in
ways contrary to an organization’s religious beliefs, they
have no recourse. See Lyng v. Nw. Indian Cemetery
Protective Ass’n, 485 U.S. 439, 449 (1988) (government
action does not constitute a substantial burden, even if
the challenged action “would interfere significantly with
private persons’ ability to pursue spiritual fulfillment
according to their own religious beliefs,” if the government action does not coerce the individuals to violate
their religious beliefs or deny them “the rights, benefits,
and privileges enjoyed by other citizens”). RFRA does
not entitle organizations to control their employees’ relationships with third parties that are willing and obligated to provide contraceptive care.

30a
Because appellants likely have failed to demonstrate
a substantial burden on religious exercise, we need not
address whether the government has shown a compelling interest or whether it has adopted the least restrictive means of advancing that interest. See Forest Serv.,
535 F.3d at 1069. Because the accommodation process
likely does not violate RFRA, the final rules are neither
required by, nor authorized under, RFRA. 5 The district court did not err in so concluding.
3.
“Unexplained inconsistency” between an agency’s actions is “a reason for holding an interpretation to be an
arbitrary and capricious change.” Nat’l Cable & Telecomms. Ass’n v. Brand X Internet Servs., 545 U.S. 967,
981 (2005). A rule change complies with the APA if the
agency (1) displays “awareness that it is changing position,” (2) shows that “the new policy is permissible under the statute,” (3) “believes” the new policy is better,
and (4) provides “good reasons” for the new policy,
which, if the “new policy rests upon factual findings that
contradict those which underlay its prior policy,” must
include “a reasoned explanation . . . for disregarding
facts and circumstances that underlay or were engendered
by the prior policy.” FCC v. Fox Television Stations,
Inc., 556 U.S. 502, 515-16 (2009) (emphasis omitted); see
also Encino Motorcars, LLC v. Navarro, 136 S. Ct.
2117, 2124-26 (2016) (describing these principles).

Little Sisters also points to 42 U.S.C. § 2000bb-4, but that provision merely provides that exemptions that otherwise comply with
the Establishment Clause “shall not constitute a violation” of RFRA.
It does not address whether federal agencies have the authority affirmatively to create exemptions in the first instance.
5

31a
The district court held that the states are also likely
to prevail on their claim that the agencies failed to provide “a reasoned explanation . . . for disregarding
facts and circumstances that underlay or were engendered by the prior policy.” We need not reach this issue, having already concluded that no statute likely authorized the agencies to issue the final rules and that the
rules were thus impermissible. We will reach the full
merits of this issue, if necessary, upon review of the district court’s decision on the permanent injunction.
B.
A plaintiff seeking preliminary relief must “demonstrate that irreparable injury is likely in the absence of
an injunction.” Winter, 555 U.S. at 22 (emphasis omitted). The analysis focuses on irreparability, “irrespective of the magnitude of the injury.” Simula, Inc. v.
Autoliv, Inc., 175 F.3d 716, 725 (9th Cir. 1999).
The district court concluded that the states are likely
to suffer irreparable harm absent an injunction. This
decision was not an abuse of discretion. As discussed
in our prior opinion, the plaintiff states will likely suffer
economic harm from the final rules, and such harm is
irreparable because the states will not be able to recover
monetary damages flowing from the final rules. California, 911 F.3d at 581. This harm is not speculative; it is
sufficiently concrete and supported by the record. Id.
C.
Because the government is a party, we consider the
balance of equities and the public interest together.
Drakes Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092
(9th Cir. 2014). The district court concluded that the
balance of equities tips sharply in favor of the plaintiff

32a
states and that the public interest tip in favor of granting the preliminary injunction. We have considered
the district court’s analysis carefully, and we hold there
is no basis to conclude that its decision was illogical, implausible, or without support in the record. Finalizing
that issue must await any appeal from the district court’s
permanent injunction.
VI.
We affirm the preliminary injunction, but we emphasize that our review here is limited to abuse of discretion. Because of the limited scope of our review and
“because the fully developed factual record may be materially different from that initially before the district
court,” our disposition is only preliminary. Melendres
v. Arpaio, 695 F.3d 990, 1003 (9th Cir. 2012) (quoting
Sports Form, Inc. v. United Press Int’l, Inc., 686 F.2d
750, 753 (9th Cir. 1982)). At this stage, “[m]ere disagreement with the district court’s conclusions is not sufficient reason for us to reverse the district court’s decision regarding a preliminary injunction.” Nat’l Wildlife Fed’n v. Nat’l Marine Fisheries Serv., 422 F.3d 782,
793 (9th Cir. 2005). The injunction only preserves the
status quo until the district court renders judgment on
the merits based on a fully developed record.
AFFIRMED.

33a
KLEINFELD , Senior Circuit Judge, dissenting
I respectfully dissent. This case is moot, so we lack
jurisdiction to address the merits.
The casual reader may imagine that the dispute is
about provision of contraception and abortion services
to women. It is not. No woman sued for an injunction
in this case, and no affidavits have been submitted from
any women establishing any question in this case about
whether they will be deprived of reproductive services
or harmed in any way by the modification of the regulation.
This case is a claim by several states to prevent a
modification of a regulation from going into effect,
claiming that it will cost them money. Two federal
statutes are at issue, the Affordable Care Act1 and the
Religious Freedom Restoration Act, 2 as well as the
Trump Administration’s modification of an Obama Administration regulation implementing the Affordable Care
Act. But the injunction before us no longer matters,
because a national injunction is already in effect, and has
been since January 14 of this year, preventing the modification from going into effect. 3 Nothing we say or do
in today’s decision has any practical effect on the challenged regulation. We are racing to shut a door that
has already been shut. We are precluded, by the caseor-controversy requirement of Article III, section 2,
from opining on whether the door ought to be shut. We
42 U.S.C. §§ 18001 et seq.
42 U.S.C. §§ 2000bb et seq.
3
Pennsylvania v. Trump, 351 F. Supp. 3d 791, 835 (E.D. Pa.),
aff ’d sub nom. Pennsylvania v. President United States, 930 F.3d
543 (3d Cir. 2019), as amended (July 18, 2019).
1
2

34a
are making the same mistake today that we made in
Yniguez v. Arizonans for Official English,4 when in our
zeal to correct what we thought was a wrong, we issued
an injunction on behalf of an individual regarding her
workplace. She no longer worked there, so the Supreme
Court promptly corrected our error because the case
was moot.
The case arises from the difficulty of working out the
relationship between the two statutes, the regulations
under the Affordable Care Act, and a sequence of Supreme Court decisions bearing on how the tensions between the two statutes ought to be relieved. The Affordable Care Act does not say a word about contraceptive or sterilization services for women. Congress delegated to the executive branch the entire matter of
“such additional preventive care and screenings” as the
executive agencies might choose to provide for.
Executive branch agencies, within the Department of
Health and Human Services, created from this wideopen congressional delegation what is called “the contraceptive mandate.” Here is the statutory language:
A group health plan and a health insurance issuer offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall
not impose any cost sharing requirements for—
. . .

Yniguez v. Arizonans for Official English, 69 F.3d 920 (9th Cir.
1995), vacated sub nom. Arizonans for Official English v. Arizona,
520 U.S. 43 (1997).
4

35a
with respect to women, such additional preventive
care and screenings . . . as provided for in comprehensive guidelines supported by the Health Resources and Services Administration for purposes of
this paragraph. 5
In 2011, the agencies (not Congress) issued the guideline applying the no-cost-sharing statutory provision to
contraceptive and sterilization services. And since
then, the public fervor and litigation has never stopped.
The agencies decided that an exemption ought to be
created for certain religious organizations. An interim
rule doing so was promulgated in 2011, after the agencies “received considerable feedback” from the public, 6
then in 2012, after hundreds of thousands more comments, the agencies modified the rule. The Supreme
Court weighed in on the ongoing controversy about the
religious accommodation exemption to the contraceptives mandate three times, in Burwell v. Hobby Lobby,7
Wheaton College v. Burwell,8 and Zubik v. Burwell,9 in
2014 and 2016. None of the decisions entirely resolved
the tension between the Religious Freedom Restoration
Act and the Affordable Care Act as extended by the contraceptive mandate regulations. The Court instead gave
the parties “an opportunity to arrive at an approach going forward that accommodate petitioners’ religious exercise while at the same time ensuring that women covered by petitioners’ health plans receive full and equal
5
6
7
8
9

42 U.S.C. § 300gg-13(a)(4) (emphasis added).
76 Fed. Reg. 46,623.
Burwell v. Hobby Lobby Stores, Inc., 573 U.S. 682, 735 (2014).
Wheaton Coll. v. Burwell, 573 U.S. 958 (2014).
Zubik v. Burwell, 136 S. Ct. 1557, 1559 (2016) (per curiam).

36a
health coverage, including contraceptive coverage.” 10
Thousands of comments kept coming to the agencies.
After Zubik, the agencies basically said they could not
do what the Supreme Court said to do: “no feasible approach . . . would resolve the concerns of religious
objectors, while still ensuring that the affected women
receive full and equal health coverage.” 11 But in 2017,
after an executive order directing the agencies to try
again, the agencies did so, issuing the interim final rules
at issue in our previous decision 12 and the final rule at
issue now.
The reason why the case before us is moot is that operation of the new modification to the regulation has itself already been enjoined. The District Court for the
Eastern District of Pennsylvania issued a nationwide injunction on January 14 of this year, enjoining enforcement of the regulation before us. 13 The Third Circuit
affirmed that nationwide injunction on July 12 of this
year.14 That nationwide injunction means that the preliminary injunction before us is entirely without effect.
If we affirm, as the majority does, nothing is stopped
that the Pennsylvania injunction has not already
Id. at 1560 (internal quotation marks omitted).
Dep’t of Labor, FAQs About Affordable Care Act Implementation Part 36, at 4, available at https://www.dol.gov/sites/default/
files/ebsa/about-ebsa/our-activities/resource-center/faqs/aca-part36.pdf.
12
82 Fed. Reg. 47,792, 47,807-08 (Oct. 13, 2017); 82 Fed. Reg.
47,838, 47,849 (Oct. 13, 2017); California v. Azar, 911 F.3d 558
(9th Cir. 2018), cert. denied sub nom. Little Sisters of the Poor
Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019).
13
Pennsylvania v. Trump, 351 F. Supp. 3d 791 (E.D. Pa. 2019).
14
Pennsylvania v. President United States, 930 F.3d 543, 556
(3d Cir. 2019), as amended (July 18, 2019).
10
11

37a
stopped. Were we to reverse, and direct that the district court injunction be vacated, the rule would still not
go into effect, because of the Pennsylvania injunction.
Nothing the district court in our case did, or that we do,
matters. We are talking to the air, without practical
consequence. Whatever differences there may be in
the reasoning for our decision and the Third Circuit’s
have no material significance, because they do not change
the outcome at all; the new regulation cannot come into
effect.
When an appeal becomes moot while pending, as ours
has, the court in which it is being litigated must dismiss
it.15 The Supreme Court has repeatedly held that “[t]o
qualify as a case for federal-court adjudication, ‘an actual controversy must be extant at all stages of review,
not merely at the time the complaint is filed.’ ”16 “It is
true, of course, that mootness can arise at any stage of
litigation, . . . that federal courts may not give opinions upon moot questions or or abstract propositions.” 17
“Many cases announce the basic rule that a case must
remain alive throughout the course of appellate review.”18

Murphy v. Hunt, 455 U.S. 478, 481 (1982).
Arizonans for Official English, 520 U.S. at 67 (quoting Preiser
v. Newkirk, 422 U.S. 395, 401 (1975)).
17
Calderon v. Moore, 518 U.S. 149, 150 (1996) (internal quotation
marks omitted).
18
13C C. Wright, A. Miller, & E. Cooper, Federal Practice and Procedure § 3533.10, pp. 555 (3d ed.); see also U.S. v. Sanchez-Gomez,
138 S. Ct. 1532, 1537 (2018), Kingdomware Technologies, Inc. v.
U.S., 136 S. Ct. 1969, 1975 (2016), Campbell-Ewald Co. v. Gomez,
136 S. Ct. 663, 669 (2016), Genesis Healthcare Corp. v. Symczyk,
569 U.S. 66, 71 (2013), Decker v. Northwest Environmental Defense
Center, 568 U.S. 597, 609 (2013), Chafin v. Chafin, 568 U.S. 165, 17115
16

38a
The states will not spend a penny more with the district court injunction before us now than they would
spend without it, because the new regulation that they
claim will cost them money cannot come into effect.
Because of the Pennsylvania nationwide injunction, we
have no case or controversy before us.
I disagree with the majority as well on standing and
on the merits. The standing issue before us now is
new. It is not the self-inflicted harm issue we resolved
(incorrectly, as I explained in my previous dissent 19 ), but
the new question of whether there is any concrete injury
affording standing to the states in light of the nationwide injunction. And on the merits, Chevron20 deference ought to be applied, since Congress delegated the
material issue, what “additional preventive care and
screenings” for women ought to be without cost sharing
requirements, to the Executive Branch, and that branch
resolved it in a reasonable way not contrary to the statute. But it does not matter which of us is correct. Either view could prevail here, without any concrete consequence. The regulation we address cannot come into
effect.

72 (2013), Federal Election Com’n v. Wisconsin Right To Life, Inc.,
551 U.S. 449, 461 (2007), Spencer v. Kemna, 523 U.S. 1, 7 (1998),
Arizonans for Official English, 520 U.S. at 67, Calderon, 518 U.S.
at 150.
19
California v. Azar, 911 F.3d 558, 585 (9th Cir. 2018) (Kleinfeld,
J., dissenting), cert. denied sub nom. Little Sisters of the Poor
Jeanne Jugan Residence v. California, 139 S. Ct. 2716 (2019).
20
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc., 467 U.S. 837,
843-44 (1984) (“If Congress has explicitly left a gap for the agency to
fill, there is an express delegation of authority to the agency to elucidate a specific provision of the statute by regulation.”).

39a
Of course I agree with the majority that the circumstances that mooted the case in Arizonans for Official
English differ from the circumstances that moot the
case before us. I cited it because there, as here, in our
zeal to correct what we thought was wrong, we acted
without jurisdiction because the case had become moot.
As for the proposition that we ought to act under the exception for “cases capable of repetition, yet evading review,” neither branch of the exception applies. Most
obviously, the changes in the regulations, which are
what matter, far from “evading review,” have been reviewed to a fare-thee-well all over the country. 21 As for
the likelihood of repetition, so far the hundreds of thousands of comments about the regulation, and the continual changes in the regulation, suggest a likelihood that
if the case comes before us again in one form or another,
it is fairly likely to be at least somewhat different. Nor
do I think that comity is well-served by our presuming
to review whether the Eastern District of Pennsylvania,
as affirmed by the Third Circuit, had jurisdiction to issue an injunction covering the Ninth Circuit.
We need not and should not reach the merits of
this preliminary injunction. This case is resolved by
mootness.

Pennsylvania v. President United States, 930 F.3d 543, 555
(3d Cir. 2019), as amended (July 18, 2019); Massachusetts v. United
States Dep't of Health & Human Servs., 923 F.3d 209, 228 (1st Cir.
2019); California v. Azar, 911 F.3d 558, 566 (9th Cir. 2018), cert. denied sub nom. Little Sisters of the Poor Jeanne Jugan Residence v.
California, 139 S. Ct. 2716 (2019).
21

40a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 17-cv-05783-HSG
Re: Dkt. No. 174
STATE OF CALIFORNIA, ET AL., PLAINTIFFS
v.
HEALTH AND HUMAN SERVICES, ET AL., DEFENDANTS
Filed: Jan. 13, 2019
ORDER GRANTING PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION

Pending before the Court is Plaintiffs’ motion for a
preliminary injunction. See Dkt. No. 174. In short,
Plaintiffs seek to prevent the implementation of rules
creating a religious exemption (the “Religious Exemption”) and a moral exemption (the “Moral Exemption”)
to the contraceptive mandate contained within the Affordable Care Act (“ACA”). See id. at 1; Religious Exemptions and Accommodations for Coverage of Certain
Preventive Services Under the Affordable Care Act,
83 Fed. Reg. 57,536 (Nov. 15, 2018) (“Religious Exemption”); Moral Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg. 57,592 (Nov. 15, 2018) (“Moral
Exemption”) (collectively, “the 2019 Final Rules” or

41a
“Final Rules”). Plaintiffs are the States of California,
Connecticut, Delaware, Hawaii, Illinois, Maryland, Minnesota (by and through its Department of Human Services), New York, North Carolina, Rhode Island, Vermont, and Washington, the Commonwealth of Virginia,
and the District of Columbia. 1 Federal Defendants are
Alex M. Azar, II, in his official capacity as Secretary of
the Department of Health and Human Services; the Department of Health and Human Services (“HHS”); Alexander Acosta, in his official capacity as Secretary of
the Department of Labor; the Department of Labor;
Steven Mnuchin, in his official capacity as Secretary of
the Department of the Treasury; and the Department of
the Treasury. Two additional parties were previously
granted the right to enter this case as permissive intervenors: Little Sisters of the Poor, Jeanne Jugan Residence (“Little Sisters”) and March for Life Education
and Defense Fund (“March for Life”). See Dkt. Nos.
115, 134. Little Sisters is “a religious nonprofit corporation operated by an order of Catholic nuns whose faith
inspires them to spend their lives serving the sick and
elderly poor.” Motion to Intervene, Dkt. No. 38 at 2.
March for Life is a “non-religious non-profit advocacy
organization” founded in response to the Supreme Court’s
1973 decision in Roe v. Wade. Motion to Intervene, Dkt.
No. 87 at 3. Its stated purpose is “to oppose the destruction of human life at any stage before birth, including by abortifacient methods that may act after the union of a sperm and ovum.” Id.

The Court will refer to Plaintiffs collectively as “States,” notwithstanding the District of Columbia’s participation in the case.
1

42a
For the reasons set out below, the motion is granted
to maintain the status quo pending resolution of Plaintiffs’ claims, and the enforcement of the Final Rules in
the Plaintiff States is preliminarily enjoined.
I.

BACKGROUND

Before turning to the Plaintiffs’ challenge to the Final Rules, the Court begins by recounting the sequence
of relevant events, beginning with the enactment of the
Affordable Care Act in 2010. Although much of this
background was already recounted in the Court’s prior
order, the Court reiterates it here for the sake of clarity.
See California v. Health & Human Servs., 281 F. Supp.
3d 806 (N.D. Cal. 2017), aff ’d in part, vacated in part,
remanded sub nom. California v. Azar, 911 F.3d 558
(9th Cir. 2018).
A.

The Affordable Care Act

In March 2010, Congress enacted the Affordable
Care Act. The ACA included a provision known as the
Women’s Health Amendment, which states:
A group health plan and a health insurance issuer offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall
not impose any cost sharing requirements for . . .
with respect to women, such additional preventive
care and screenings . . . as provided for in comprehensive guidelines supported by the Health Resources and Services Administration for purposes of
this paragraph.
42 U.S.C. § 300gg-13(a)(4).

43a
About two years later, the Senate rejected a so-called
“conscience amendment” to the Women’s Health Amendment that would have allowed health plans to decline to
provide coverage “contrary to” an insurer or employer’s
asserted “religious beliefs or moral convictions.” See
158 Cong. Rec. S538-39 (Feb. 9, 2012) (text of proposed
bill); id. S1162-73 (Mar. 1, 2012) (debate and vote); see
also Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct.
2751, 2789-90 (2014) (Ginsburg, J., dissenting) (recognizing that rejection of the “conscience amendment” meant
that “Congress left health care decisions—including the
choice among contraceptive methods—in the hands of
women, with the aid of their health care providers”).
B.

The 2010 IFR and Subsequent Regulations

On July 19, 2010, under the authority of the Women’s
Health Amendment, several federal agencies (including
HHS, the Department of Labor, and the Department of
the Treasury) issued an interim final rule (“the 2010
IFR”). See 75 Fed. Reg. 41,726. It required, in part,
that health plans provide “evidence-informed preventive care” to women, without cost sharing and in compliance with “comprehensive guidelines” to be provided by
HHS’s Health Resources and Services Administration
(“HRSA”). Id. at 41,728.
The agencies found they had statutory authority “to
promulgate any interim final rules that they determine[d
were] appropriate to carry out the” relevant statutory
provisions. Id. at 41,729-30. The agencies also determined they had good cause to forgo the general notice
of proposed rulemaking required under the Administrative Procedure Act (“APA”), 5 U.S.C. § 553. Id. at
41,730. Specifically, the agencies determined that issuing such notice would be “impracticable and contrary

44a
to the public interest” because it would not allow sufficient time for health plans to be timely designed to incorporate the new requirements under the ACA, which
were set to go into effect approximately two months
later. Id. The agencies requested that comments be
submitted by September 17, 2010, the date the IFR was
scheduled to go into effect.
On September 17, 2010, the agencies first promulgated
regulations pursuant to the 2010 IFR. See 45 C.F.R.
§ 147.310(a)(1)(iv) (HHS); 29 C.F.R. § 2590.715-2713
(Department of Labor); 26 C.F.R. § 54.9815-2713 (Department of the Treasury). 2 As relevant here, the regulations were substantively identical to the 2010 IFR,
stating that HRSA was to provide “binding, comprehensive health plan coverage guidelines.”
C.

The 2011 HRSA Guidelines

From November 2010 to May 2011, a committee convened by the Institute of Medicine met in response to
the charge of HHS’s Office of the Assistant Secretary
for Planning and Evaluation: to “convene a diverse committee of experts” related to, as relevant here, women’s
health issues. Inst. of Med., Clinical Preventive Services
for Women: Closing the Gaps, 1, 23 (2011), https://www.
nap.edu/read/13181/chapter/1. In July 2011, the committee issued a report recommending that private health
insurance plans be required to cover all contraceptive
methods approved by the Food and Drug Administration (“FDA”), without cost sharing. Id. at 102-10.

The Department of the Treasury’s regulations were first promulgated in 2012, two years after those of HHS and the Department
of Labor.
2

45a
On August 1, 2011, HRSA issued its preventive care
guidelines (“2011 Guidelines”), defining preventive care
coverage to include all FDA-approved contraceptive
methods. See Health Res. & Servs. Admin., Women’s
Preventive Services Guidelines, https://www.hrsa.gov/
womens-guidelines/index.html. 3
D.

The 2011 IFR and the Original Religious Exemption

On August 3, 2011, the agencies issued an IFR amending the 2010 IFR. See 76 Fed. Reg. 46,621 (“the 2011
IFR”). Based on the “considerable feedback” they received regarding contraceptive coverage for women, the
agencies stated that it was “appropriate that HRSA, in
issuing [its 2011] Guidelines, take[] into account the effect on the religious beliefs of certain religious employers if coverage of contraceptive services were required.”
Id. at 46,623. As such, the agencies provided HRSA
with the “additional discretion to exempt certain religious employers from the [2011] Guidelines where contraceptive services are concerned.” Id. They defined
a “religious employer” as one that:
(1) [h]as the inculcation of religious values as its purpose; (2) primarily employs persons who share its religious tenets; (3) primarily serves persons who share
its religious tenets; and (4) is a non-profit organization under [the relevant statutory provisions, which]
refer to churches, their integrated auxiliaries, and
On December 20, 2016, HRSA updated the guidelines (“2016
Guidelines”), clarifying that “[c]ontraceptive care should include contraceptive counseling, initiation of contraceptive use, and follow-up
care,” as well as “enumerating the full range of contraceptive methods for women” as identified by the FDA. See Health Res. & Servs.
Admin., Women’s Preventive Services Guidelines, https://www.
hrsa.gov/womens-guidelines-2016/index.html (last updated Oct. 2017).
3

46a
conventions or associations of churches, as well as
to the exclusively religious activities of any religious
order.
Id.
The 2011 IFR went into effect on August 1, 2011.
The agencies again found that they had both statutory
authority and good cause to forgo the APA’s advance notice and comment requirement. Id. at 46,624. Specifically, they found that “providing for an additional opportunity for public comment [was] unnecessary, as the
[2010 IFR] . . . provided the public with an opportunity to comment on the implementation of the preventive services requirement in this provision, and the
amendments made in [the 2011 IFR were] in fact based
on such public comments.” Id. The agencies also
found that notice and comment would be “impractical
and contrary to the public interest,” because that process would result in a delay of implementation of the
2011 Guidelines. See id. The agencies further stated
that they were issuing the rule as an IFR in order to
provide the public with some opportunity to comment.
Id. They requested comments by September 30, 2011.
On February 15, 2012, after considering more than
200,000 responses, the agencies issued a final rule
adopting the definition of “religious employer” set forth
in the 2011 IFR. See 77 Fed. Reg. 8,725. The final
rule also established a temporary safe harbor, during
which the agencies
plan[ned] to develop and propose changes to these final regulations that would meet two goals—providing
contraceptive coverage without cost-sharing to individuals who want it and accommodating non-exempted,

47a
non-profit organizations’ religious objections to covering contraceptive services. . . .
Id. at 8,727.
E.

The Religious Accommodation

On March 21, 2012, the agencies issued an advance
notice of proposed rulemaking (“ANPR”) requesting
comments on “alternative ways of providing contraceptive coverage without cost sharing in order to accommodate non-exempt, non-profit religious organizations with
religious objections to such coverage.” 77 Fed. Reg.
16,501, 16,503. They specifically sought to “require issuers to offer group health insurance coverage without
contraceptive coverage to such an organization (or its
plan sponsor),” while also “provid[ing] contraceptive coverage directly to the participants and beneficiaries covered under the organization’s plan with no cost sharing.”
Id. The agencies requested comment by June 19, 2012.
On February 6, 2013, after reviewing more than
200,000 comments, the agencies issued proposed rules
that (1) simplified the criteria for the religious employer
exemption; and (2) established an accommodation for eligible organizations with religious objections to providing contraceptive coverage. See 78 Fed. Reg. 8,456,
8,458-59. The proposed rule defined an “eligible organization” as one that (1) “opposes providing coverage
for some or all of the contraceptive services required to
be covered”; (2) “is organized and operates as a nonprofit entity”; (3) “holds itself out as a religious organization”; and (4) self-certifies that it satisfies these criteria. Id. at 8,462. Comments on the proposed rule
were due April 5, 2013.

48a
On July 2, 2013, after reviewing more than 400,000
comments, the agencies issued final rules simplifying
the religious employer exemption and establishing the
religious accommodation. 78 Fed. Reg. 39,870.4 With
respect to the latter, the final rule retained the definition of “eligible organization” set forth in the proposed
rule. Id. at 39,874. Under the accommodation, an eligible organization that met a “self-certification standard” was “not required to contract, arrange, pay, or refer for contraceptive coverage,” but its “plan participants
and beneficiaries . . . [would] still benefit from separate payments for contraceptive services without cost
sharing or other charge,” as required by law. Id. The
final rules were effective August 1, 2013.
F.

The Hobby Lobby and Wheaton College Decisions

On June 30, 2014, the Supreme Court issued its opinion
in Burwell v. Hobby Lobby Stores, Inc., in which three
closely-held corporations challenged the requirement
that they “provide health-insurance coverage for methods of contraception that violate[d] the sincerely held religious beliefs of the companies’ owners.” 134 S. Ct. at
2759. The Court held that this requirement violated the
Religious Freedom Restoration Act of 1993 (“RFRA”),
42 U.S.C. § 2000bb et seq., because it was not the “least
restrictive means” of serving the government’s prof-

As to the definition of a religious employer, the final rule “eliminate[ed] the first three prongs and clarif [ied] the fourth prong of the
definition” adopted in 2012. 78 Fed. Reg. 39,874. Under this new
definition, “an employer that [was] organized and operate[d] as a
nonprofit entity and [was] referred to in section 6033(a)(3)(A)(i) or
(iii) of the Code [was] considered a religious employer for purposes
of the religious employer exemption.” Id.
4

49a
fered compelling interest in guaranteeing cost-free access to certain methods of contraception. See Hobby
Lobby, 134 S. Ct. at 2781-82.5 The Court pointed to the
religious accommodation as support for this conclusion:
“HHS itself has demonstrated that it has at its disposal
an approach that is less restrictive than requiring employers to fund contraceptive methods that violate their
religious beliefs. . . . HHS has already established
an accommodation for nonprofit organizations with religious objections.” Id. at 2782. The Court stated that
the Hobby Lobby ruling “[did] not decide whether an approach of this type complies with RFRA for purposes of
all religious claims,” and said its opinion “should not be
understood to hold that an insurance-coverage mandate
must necessarily fall if it conflicts with an employer’s religious beliefs.” Id. at 2782-83.
Several days later, the Court issued its opinion in
Wheaton College v. Burwell, 134 S. Ct. 2806 (2014). The
plaintiff was a nonprofit college in Illinois that was eligible for the accommodation. Id. at 2808 (Sotomayor,
J., dissenting). Wheaton College sought an injunction,
however, “on the theory that its filing of a self-certification
form [would] make it complicit in the provision of contraceptives by triggering the obligation for someone else
to provide the services to which it objects.” Id. The
Court granted the application for an injunction, ordering that it was sufficient for the college to “inform[] the
Secretary of Health and Human Services in writing that
it is a nonprofit organization that holds itself out as religious and has religious objections to providing coverage
The Court assumed without deciding that such an interest was
compelling within the meaning of RFRA. Hobby Lobby, 134 S. Ct.
at 2780.
5

50a
for contraceptive services.” Id. at 2807. In other words,
the college was not required to “use the form prescribed
by the [g]overnment,” nor did it need to “send copies to
health insurance issuers or third-party administrators.”
Id. The Court stated that its order “should not be construed as an expression of the Court’s views on the merits.” Id.
G.

Post-Hobby Lobby and -Wheaton Regulatory Actions

Shortly thereafter, on August 27, 2014, the agencies
initiated two regulatory actions. First, in light of Hobby
Lobby, they issued proposed rules “amend[ing] the definition of an eligible organization [for purposes of the religious accommodation] to include a closely held forprofit entity that has a religious objection to providing
coverage for some or all of the contraceptive services
otherwise required to be covered.” 79 Fed. Reg. 51,118,
51,121. Comments were due on October 21, 2014.
Second, in light of Wheaton, the agencies issued
IFRs (“the 2014 IFRs”) providing “an alternative process for the sponsor of a group health plan or an institution of higher education to provide notice of its religious
objection to coverage of all or a subset of contraceptive
services, as an alternative to the EBSA Form 700 [i.e.,
the standard] method of self-certification.” 79 Fed. Reg.
51,092, 51,095. The agencies asserted they had both
statutory authority and good cause to forgo the notice
and comment period, stating that such a process would
be “impracticable and contrary to the public interest,”
particularly in light of Wheaton. Id. at 51,095-96. The
IFRs were effective immediately, and comments were
due October 27, 2014.

51a
After considering more than 75,000 comments on the
proposed rule, the agencies issued final rules “extend[ing]
the accommodation to a for-profit entity that is not publicly traded, is majority-owned by a relatively small
number of individuals, and objects to providing contraceptive coverage based on its owners’ religious beliefs”—
i.e., to closely-held entities. 80 Fed. Reg. 41,318, 41,324.
The agencies also issued a final rule “continu[ing] to allow eligible organizations to choose between using EBSA
Form 700 or the alternative process consistent with the
Wheaton interim order.” Id. at 41,323.
H.

The Zubik Opinion and Subsequent Impasse

On May 16, 2016, the Supreme Court issued its opinion in Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per curiam). The petitioners, primarily non-profit organizations, were eligible for the religious accommodation, but
challenged the requirement that they submit notice to
either their insurer or the federal government as a violation of RFRA. Zubik, 136 S. Ct. at 1558. “Following oral argument, the Court requested supplemental
briefing from the parties addressing ‘whether contraceptive coverage could be provided to petitioners’ employees, through petitioners’ insurance companies, without any such notice from petitioners.’ ” Id. at 1558-59.
After the parties stated that “such an option [was] feasible,” the Court remanded to afford them “an opportunity to arrive at an approach going forward that accommodates petitioners’ religious exercise while at the
same time ensuring that women covered by petitioners’
health plans ‘receive full and equal health coverage, including contraceptive coverage.’ ” Id. at 1559 (emphasis added). As in Wheaton, “[t]he Court express[ed] no
view on the merits of the cases,” and did not decide

52a
“whether petitioners’ religious exercise has been substantially burdened, whether the [g]overnment has a
compelling interest, or whether the current regulations
are the least restrictive means of serving that interest.”
Id. at 1560.
On July 22, 2016, the agencies issued a request for
information (“RFI”) on whether, in light of Zubik,
there are alternative ways (other than those offered
in current regulations) for eligible organizations that
object to providing coverage for contraceptive services on religious grounds to obtain an accommodation, while still ensuring that women enrolled in the
organizations’ health plans have access to seamless
coverage of the full range of [FDA]-approved contraceptives without cost sharing.
81 Fed. Reg. 47,741, 47,741 (July 22, 2016). Comments
were due September 20, 2016. On January 9, 2017, the
agencies issued a document titled “FAQs About Affordable Care Act Implementation Part 36” (“FAQs”). See
Dep’t of Labor, FAQs About Affordable Care Act Implementation Part 36 (Jan. 9, 2017), https://www.dol.gov/
sites/default/files/ebsa/about-ebsa/our-activities/resourcecenter/faqs/aca-part-36.pdf.
The FAQs stated that, based on the 54,000 comments
received in response to the July 2016 RFI, there was “no
feasible approach . . . at this time that would resolve
the concerns of religious objectors, while still ensuring
that the affected women receive full and equal health
coverage, including contraceptive coverage.” Id. at 4.

53a
I.

The 2017 IFRs

On May 4, 2017, the President issued Executive Order No. 13,798, directing the secretaries of the Departments of the Treasury, Labor, and HHS to “consider issuing amended regulations, consistent with applicable
law, to address conscience-based objections to the preventive care mandate.” 82 Fed. Reg. 21,675, 21,675.
Subsequently, on October 6, 2017, the agencies issued
the Religious Exemption IFR and the Moral Exemption
IFR (collectively, “the 2017 IFRs”), which were effective immediately. The 2017 IFRs departed from the
previous regulations in several important ways.
1.

The Religious Exemption IFR

First, with the Religious Exemption IFR, the agencies substantially broadened the scope of the religious
exemption, extending it “to encompass entities, and individuals, with sincerely held religious beliefs objecting
to contraceptive or sterilization coverage,” and “making
the accommodation process optional for eligible organizations.” 82 Fed. Reg. 47,792, 47,807-08. Such entities “will not be required to comply with a self-certification
process.” Id. at 47,808. Just as the IFR expanded eligibility for the exemption, it “likewise” expanded eligibility for the optional accommodation. Id. at 47,812-13.
In introducing these changes, the agencies stated
they “recently exercised [their] discretion to reevaluate
these exemptions and accommodations,” and considered
factors including: “the interests served by the existing
Guidelines, regulations, and accommodation process”;
the “extensive litigation”; the President’s executive order; the interest in protecting the free exercise of reli-

54a
gion under the First Amendment and RFRA; the discretion afforded under the relevant statutory provisions;
and “the regulatory process and comments submitted in
various requests for public comments.” Id. at 47,793.
The agencies advanced several arguments they claimed
justified the lack of an advance notice and comment process for the Religious Exemption IFR, which became effective immediately.
First, the agencies cited 26 U.S.C. § 9833, 29 U.S.C.
§ 1191c, and 42 U.S.C. § 300gg-92, asserting that those
statutes authorized the agencies “to promulgate any interim final rules that they determine are appropriate to
carry out” the relevant statutory provisions. Id. at
47,813. Second, the agencies asserted that even if the
APA did apply, they had good cause to forgo notice and
comment because implementing that process “would be
impracticable and contrary to the public interest.” Id.
Third, the agencies noted that “[i]n response to several
of the previous rules on this issue—including three issued as [IFRs] under the statutory authority cited
above—the Departments received more than 100,000
public comments on multiple occasions,” which included
“extensive discussion about whether and by what extent
to expand the exemption.” Id. at 47,814. For all of
these reasons, the agencies asserted, “it would be impracticable and contrary to the public interest to engage
in full notice and comment rulemaking before putting
these interim final rules into effect.” Id. at 47,815.
Comments were due on December 5, 2017.
2.

The Moral Exemption IFR

Also on October 6, 2017, the agencies issued the
Moral Exemption IFR, “expand[ing] the exemption[] to
include additional entities and persons that object based

55a
on sincerely held moral convictions.” 82 Fed. Reg. 47,838,
47,849. Additionally, “consistent with [their] expansion of the exemption, [the agencies] expand[ed] eligibility for the accommodation to include organizations with
sincerely held moral convictions concerning contraceptive coverage,” while also making the accommodation
process optional for those entities. Id. The agencies
included in the IFR a section called “Congress’ History
of Providing Exemptions for Moral Convictions,” referencing statutes and legislative history, case law, executive orders, and state analogues. See id. at 47,844-48.
The agencies justified the immediate issuance of the
Moral Exemption IFR without an advance notice and
comment process on grounds similar to those offered
regarding the Religious Exemption IFR, stating that
“[o]therwise, our regulations would simultaneously provide and deny relief to entities and individuals that are,
in the [agencies’] view, similarly deserving of exemptions and accommodations consistent[] with similar protections in other federal laws.” Id. at 47,855. Comments were due on December 5, 2017.
3.

Preliminary Injunction Against the 2017 IFRs

On October 6, 2017, the States of California, Delaware, Maryland, and New York, and the Commonwealth
of Virginia filed a complaint, see Dkt. No. 1, which was
followed by a First Amended Complaint on November 1,
see Dkt. No. 24 (“FAC”). Plaintiffs alleged that the 2017
IFRs violated Sections 553 and 706 of the Administrative Procedure Act, the Establishment Clause, and the
Equal Protection Clause. FAC ¶¶ 8-12, 116-37. Plaintiffs filed a motion for a preliminary injunction on November 9, 2017. See Dkt. No. 28.

56a
a.

The Court’s Nationwide Injunction

On December 21, 2017, the Court granted Plaintiffs’
motion for a preliminary injunction. See Dkt. No. 105.
The Court held that Plaintiffs had “shown that, at a minimum, they are likely to succeed on their claim that Defendants violated the APA by issuing the 2017 IFRs
without advance notice and comment.” Id. at 17. In
addition, the Court held that Plaintiffs were likely to suffer
irreparable harm, that the balance of equities tipped in
Plaintiffs’ favor, and that the public interest favored
granting an injunction. Id. Accordingly, the Court
issued a nationwide preliminary injunction enjoining implementation of the 2017 IFRs. See id. at 28. The
Court’s order reinstated the “state of affairs” that existed prior to October 6, 2017, including the exemption
and accommodation as they existed following the Zubik
remand as well as any court orders enjoining the Federal Defendants from enforcing the rules against specific parties. See id. at 29.6
b.

Intervenors Little Sisters and March for
Life Enter the Case

On December 29, 2017, the Court granted the Little
Sisters’ motion to intervene. See Dkt. No. 115. And
on January 26, 2018, the Court granted March for Life’s
motion to intervene. See Dkt. No. 134.

A federal district court in the Eastern District of Pennsylvania
also entered a preliminary injunction against the IFRs to “maintain
the status quo” pending the outcome of a trial on the merits. See
Pennsylvania v. Trump, 281 F. Supp. 3d 553, 585 (E.D. Pa. 2017).
6

57a
c.

Ninth Circuit Appeal and Decision Limiting
Scope of Injunction

Following the Court’s order granting Plaintiffs’ motion for a preliminary injunction, the agencies, Little
Sisters, and March for Life appealed. See Dkt. Nos.
135-38, 142-43.
On December 13, 2018, the Ninth Circuit issued an
opinion largely affirming this Court’s prior order, but
shrinking the geographic scope of the injunction to encompass only the states that were plaintiffs at that time.
See California, 911 F.3d at 584. First, the court held
(on an issue of first impression) that venue was proper
in the Northern District of California because “common
sense” dictated that “a state with multiple judicial districts ‘resides’ in every district within its borders.” Id.
at 570. Second, the court held that the States had
standing to bring their procedural APA claim because
the States had shown “with reasonable probability[]
that the IFRs will first lead to women losing employersponsored contraceptive coverage, which will then result in economic harm to the states.” Id. at 571-72.
The court noted that the States had no obligation to
identify a specific woman who would lose coverage, particularly given that the agencies’ regulatory impact analysis estimated that between 31,700 and 120,000 women
would lose contraceptive coverage, and that “state and
local governments will bear additional economic costs.”
Id. at 571-72. Third, the court held that the Plaintiffs
were likely to succeed on the merits of their APA claim
because the agencies had neither good cause nor statutory authority for bypassing the usual notice and comment procedure, and that the procedural violation was

58a
likely not harmless. Id. at 578-81. Fourth, the court affirmed this Court’s ruling that the Plaintiffs had established the other requirements to entitle them to injunctive relief because they were likely to suffer irreparable
harm absent an injunction, and the balance of the equities and public interest tilted in favor of granting an injunction. Id. at 581-82. Fifth, the court concluded that
the scope of the preliminary injunction was overbroad
because an injunction applying only to the Plaintiff-States
would “provide complete relief to them.” Id. at 584.
J.

The 2019 Final Rules

The 2017 IFRs included a call for comments, due by
December 5, 2017. See 82 Fed. Reg. at 47,792; 82 Fed.
Reg. at 47,838. Over the 60-day comment period, the
agencies received over 56,000 public comments on the
religious exemption rules, 83 Fed. Reg. at 57,540, and
over 54,000 public comments on the moral exemption
rules, 83 Fed. Reg. at 57,596.
On November 15, 2018, the agencies promulgated the
Religious Exemption and Moral Exemption Final Rules.
See 83 Fed. Reg. 57,536; 83 Fed. Reg. 57,592. The 2019
Final Rules are scheduled to take effect, superseding
the enjoined IFRs, on January 14, 2019.
In substance, the Final Rules are nearly identical to the
2017 IFRs. See Defendants’ Opposition, Dkt. No. 198
(“Federal Opp.”) at 8 (noting that the “fundamental substance of the exemptions was finalized as set forth in the
IFRs”); see also Supplemental Brief for the Federal Appellants at 1, California v. Azar, 911 F.3d 558 (9th Cir.
2018) (Nos. 18-15144, 18-15166, 18-15255), 2018 WL
6044850, at *1 (“The substance of the rules remains
largely unchanged . . . and none of the changes is

59a
material to the States’ substantive claims in this case.”).
The Religious Exemption made “various changes . . .
to clarify the intended scope of the language” in “response to public comments.” 83 Fed. Reg. at 57,537.
Likewise, the Moral Exemption Final Rule made “various changes . . . to clarify the intended scope of the
language” in “response to public comments.” 83 Fed.
Reg. at 57,593.
At least three changes in the Final Rules bear mentioning. First, the Final Rules estimate that “no more
than 126,400 women of childbearing age will be affected
by the expanded exemptions,” which is an increase from
the previous estimate of up to 120,000 women.
Compare 83 Fed. Reg. at 57,551 n.26 with 82 Fed. Reg. at
47,823. Second, the Final Rules increase their estimate
of the expense of the exemptions to $67.3 million nationwide annually. See 83 Fed. Reg. at 57,581. Third, the
Final Rules place increased emphasis on the availability
of contraceptives at Title X family-planning clinics as an
alternative to contraceptives provided by women’s health
insurers. See 83 Fed. Reg. at 57,551; 83 Fed. Reg. at
57,608; see also 83 Fed. Reg. at 25,502, 25,514 (proposed
rule rendering women who lose contraceptive coverage
because of religious or moral exemptions eligible for Title X services).
K.

Plaintiffs Challenge the Final Rules

On December 18, 2018, Plaintiffs filed a Second
Amended Complaint, alleging that the IFRs and Final
Rules violate Section 553 of the APA, and that the Final
Rules violate Section 706 of the APA, the Establishment
Clause, and the Equal Protection Clause. See Dkt. No.
170 (“SAC”) ¶¶ 235-60. Original Plaintiffs—the States
of California, Delaware, Maryland, and New York, and

60a
the Commonwealth of Virginia—were joined by the
States of Connecticut, Hawaii, Illinois, Minnesota,
North Carolina, Rhode Island, Vermont, and Washington, and the District of Columbia. Id. at 13-26.
On December 19, Plaintiffs filed a motion for a preliminary injunction, seeking to enjoin the implementation of the Final Rules. See Dkt. No. 174 (“Mot.”) at
25. The Federal Defendants filed an opposition on
January 3, 2019. See Federal Opp. That same day,
both the Little Sisters, see Dkt. No. 197 (“Little Sisters
Opp.”), and March for Life, see Dkt. No. 199 (“March for
Life Opp.”), filed oppositions. 7 The States replied on
January 8. See Dkt. No. 218 (“Reply”). 8

The Little Sisters filed a corrected opposition brief on January
See Dkt. No. 174.
8
Numerous amici curiae also filed briefs to present their views on
the case. See Dkt. Nos. 212 (American Nurses Association; American College of Obstetricians and Gynecologists; American Academy
of Nursing; American Academy of Pediatricians; Physicians for Reproductive Health; California Medical Association); 230 (California
Women Lawyers; Girls Inc., If/When/How: Lawyering for Reproductive Justice; Lawyers Club of San Diego; American Association
of University Women; American Federation of State, County, and
Municipal Employees; American Federation of Teachers; Colorado
Women’s Bar Association; National Association of Social Workers;
National Association of Women Lawyers; Service Employees International Union; Women’s Bar Association of Massachusetts; Women’s
Bar Association of the District of Columbia; Women Lawyers on
Guard, Inc.; Women’s Bar Association of the State of New York);
231 (National Association for Female Executives; U.S. Women’s
Chamber of Commerce); 232 (National Asian Pacific American
Women’s Forum; National Latina Institute for Reproductive Health;
National Women’s Law Center; SisterLove, Inc.); 233 (Commonwealth of Massachusetts; States of Iowa, Maine, Michigan, Nevada,
New Jersey, New Mexico, Pennsylvania, and Oregon). The Court
7

10.

61a
The Court held a hearing on January 11, after which
it took the motion under submission.
II.

LEGAL STANDARD

A preliminary injunction is a matter of equitable discretion and is “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 22 (2008). “A plaintiff seeking preliminary injunctive relief must establish that [it] is likely
to succeed on the merits, that [it] is likely to suffer irreparable harm in the absence of preliminary relief, that the
balance of equities tips in [its] favor, and that an injunction is in the public interest.” Id. at 20. Alternatively,
an injunction may issue where “the likelihood of success
is such that serious questions going to the merits were
raised and the balance of hardships tips sharply in [the
plaintiff ’s] favor,” provided that the plaintiff can also
demonstrate the other two Winter factors. Alliance
for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1131-32
(9th Cir. 2011) (citation and internal quotation marks
omitted). Under either standard, Plaintiffs bear the burden of making a clear showing that they are entitled to
this extraordinary remedy. Earth Island Inst. v. Carlton, 626 F.3d 462, 469 (9th Cir. 2010). The most important Winter factor is likelihood of success on the merits. See Disney Enters., Inc. v. VidAngel, Inc., 869 F.3d
848, 856 (9th Cir. 2017).

has reviewed their filings and considered them in assessing this
motion.

62a
III.

ANALYSIS

A.

Venue Is Proper in the Northern District of
California.

Despite a clear holding from the Ninth Circuit, Federal Defendants continue to press their argument that
venue is not proper in the Northern District because the
State of California resides for venue purposes only in
the Eastern District, “where Sacramento, the seat of
state government, is located.” Federal Opp. at 10. But
the Ninth Circuit held that 28 U.S.C. 1391 “dictates that
a state with multiple judicial districts ‘resides’ in every
district within its borders.” California, 911 F.3d at
570. An “interpretation limiting residency to a single
district in the state would defy common sense.” Id.
Given the clear precedent from the Ninth Circuit on this
issue, the Court need not dwell on it: venue is proper
in the Northern District.
B.

Plaintiffs Have Standing to Sue.

The Little Sisters contend that the States lack standing to sue, see Little Sisters Opp. at 9, and the agencies
“reserve the right to object” to relief for any plaintiff
that has not established standing, see Federal Opp. at 10
n.4. The Court finds that Plaintiffs have established
both Article III and statutory standing.
1.

Plaintiffs Have Article III Standing.

A plaintiff seeking relief in federal court bears the
burden of establishing “the irreducible constitutional
minimum” of standing. Spokeo, Inc. v. Robins, 136 S. Ct.
1540, 1547 (2016) (quoting Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992)). First, the plaintiff must
have “suffered an injury in fact.” Spokeo, 136 S. Ct. at
1547. This requires “an invasion of a legally protected

63a
interest” that is concrete, particularized, and actual
or imminent, rather than conjectural or hypothetical.
Lujan, 504 U.S. at 560 (internal quotation marks omitted). Second, the plaintiff ’s injury must be “fairly traceable to the challenged conduct of the defendant.”
Spokeo, 136 S. Ct. at 1547. Third, the injury must be
“likely to be redressed by a favorable judicial decision.”
Id. (citing Lujan, 504 U.S. at 560-61).
“States are not normal litigants for the purposes of
invoking federal jurisdiction,” Massachusetts v. EPA,
549 U.S. 497, 518 (2007), and are “entitled to special solicitude in [the] standing analysis,” id. at 520. For instance, states may sue to assert their “quasi-sovereign
interest in the health and well-being—both physical and
economic—of [their] residents in general.” Alfred L.
Snapp & Son, Inc. v. Puerto Rico, 458 U.S. 592, 607
(1982). In that case, however, the “interest must be
sufficiently concrete to create an actual controversy between the State and the defendant” such that the state
is more than a nominal party. Id. at 602.
Here, the Court need not rely on the special solicitude afforded to states, or their power to litigate their
quasi-sovereign interests on behalf of their citizens.
Much more simply, a state may establish standing by
showing a reasonably probable threat to its economic interests. See California, 911 F.3d at 573; see also Texas
v. United States, 809 F.3d 134, 155 (5th Cir. 2015) (State
of Texas had standing to mount APA challenge to Deferred Action for Parents of Americans and Lawful Permanent Residents program because Texas would “incur
significant costs in issuing driver’s licenses to [program]
beneficiaries”), aff ’d by equally divided Court, 136 S. Ct.
2271, 2272 (2016). Plaintiffs have demonstrated at least

64a
two ways in which implementation of the Final Rules will
damage their States’ fiscs: through increased reliance
on state-funded family-planning programs and through
the state-borne costs of unintended pregnancies.
First, Plaintiffs have shown that the Final Rules will
“lead to women losing employer-sponsored contraceptive coverage, which will then result in economic harm
to the states” as these women “turn to state-based programs or programs reimbursed by the state.” California, 911 F.3d at 571-72. The Little Sisters take issue
with the Ninth Circuit’s reasoning because “the States
have still failed to identify anyone who will actually be
harmed by the Mandate.” Little Sisters Opp. at 9. But
the Ninth Circuit was clear that the States need not identify a specific woman likely to lose contraceptive coverage to establish standing. California, 911 F.3d at 572.
Even if the States have not identified specific women
who will be impacted by the Final Rules, Federal Defendants themselves have done much of the work to establish
that Plaintiffs have standing. The Religious Exemption states that up to approximately 126,400 “women of
childbearing age will be affected by the expanded exemptions.” 83 Fed. Reg. at 57,551 n.26. At an estimated expense of $584 per year per woman impacted,
this amounts to $67.3 million nationwide annually. See
id. at 57,581.9 Further, the Final Rules explicitly rely
on Title X clinics as a backstop for women who lose contraceptive coverage as a result of the Final Rules. See
id. at 57,551; 83 Fed. Reg. at 57,608; see also 83 Fed.
The Moral Exemption estimates that approximately 15 women
of childbearing age will lose their access to cost-free contraceptives.
See 83 Fed. Reg. at 57,627. At an average cost of $584 annually,
this amounts to $8,760 each year. See id. at 57,628.
9

65a
Reg. at 25,502. But Plaintiffs have shown that in many
of their States, these already cash-strapped Title X clinics are operated in conjunction with state family planning services, meaning that any increase in enrollment
will likely increase costs to the state. See Declaration
of Kathryn Kost (“Kost Decl.”), Dkt. No. 174-19 ¶ 48
(“Title X is able to serve only one-fifth of the nationwide
need for publicly funded contraceptive care” and “cannot sustain additional beneficiaries as a result of the Final Rules”); Declaration of Mari Cantwell (“Cantwell
Decl.”), Dkt. No. 174-4 ¶ 18 (all California Title X clinics
are also California Family Planning, Access, Care, and
Treatment program providers); Declaration of Lauren
J. Tobias (“Tobias Decl.”), Dkt. No. 174-33 ¶ 5 (New
York Title X clinics are same as state family planning
program clinics). Or the States will be forced to shoulder the costs of the Final Rules more directly, as Federal Defendants refer women to Title X clinics funded
directly by the state. See Declaration of Karen Nelson
(“Nelson Decl.”), Dkt. No. 174-25 ¶ 20 ($6 million of Maryland’s Title X budget comes from state, $3 million from
federal government).
In addition, the States have submitted voluminous
and detailed evidence documenting how their female
residents are predicted to lose access to contraceptive
coverage because of the Final Rules—and how those
women likely will turn to state programs to obtain nocost contraceptives, at significant cost to the States.
See, e.g., Cantwell Decl., Dkt. No. 174-4 ¶¶ 16-18 (Final
Rules will result in more women becoming eligible for
California’s Family Planning, Access, Care, and Treatment program, meaning that “state dollars may be diverted to provide” contraceptive coverage); Nelson Decl.,
Dkt. No. 174-25 ¶ 20 (“it will be difficult for the current

66a
[State of Maryland] budget levels to accommodate the
increase in women seeking [Title X services] after losing
contraception coverage in their insurance plans”); Tobias
Decl., Dkt. No. 174-33 ¶ 5 (exemptions in Final Rules
“will result in more women receiving” New York Family
Planning Program services, thus putting program at “risk
[of ] being overwhelmed by the increase in patients”);
Declaration of Jonathan Werberg, Dkt. No. 174-36 ¶¶ 5-8
(identifying New York employers that are likely to
invoke exemptions “because of their involvement in previous litigation”: Hobby Lobby, with 720 New York
employees; Nyack College, with 3,000 students and
1,100 employees in New York; and Charles Feinberg
Center for Messianic Jewish Studies, whose parent university has 1,000 students nationwide). Of course, under the status quo, these women have a statutory entitlement to free contraceptives through their regular
health insurance and thus impose no cost on the States.
The States have established a causal chain linking them
to harm if the Final Rules were implemented. See California, 911 F.3d at 571-72.
Second, the States have shown that the Final Rules
are likely to result in a decrease in the use of effective
contraception, thus leading to unintended pregnancies
which would impose significant costs on the States.
Some of the most effective contraceptive methods are
also among the most expensive. See Kost Decl. ¶¶ 1518, 24. For example, long-acting reversible contraceptives are among the most effective methods, but may
cost a woman over $1,000. See id. ¶ 25. Women who
lose their entitlement to cost-free contraceptives are
less likely to use an effective method, or any method at
all—resulting in unintended pregnancies. See id. ¶ 27,
36-42; Declaration of Lisa M. Hollier (“Hollier Decl.”),

67a
Dkt. No. 174-15 ¶ 6; Declaration of Walker A. Wilson
(“Wilson Decl.”), Dkt. No. 174-38 ¶ 5 (Final Rules may
cause women in North Carolina to “forgo coverage and
experience an unintended pregnancy”); Nelson Decl., Dkt.
No. 174-25 ¶ 30 (unintended pregnancy rate of women
not using contraception is 45% and loss of coverage will
result in more unintended pregnancies); Declaration of
Karyl T. Rattay (“Rattay Decl.”), Dkt. No. 174-30 (Final
Rules “will contribute to an increase in Delaware’s nationally high unintended pregnancy rate as women forego
needed contraception and other services”). Much of
the financial burden of these unintended pregnancies
will be borne by the States. See, e.g., Rattay Decl., Dkt.
No. 174-30 (in 2010, 71.3% of unplanned births in Delaware were publicly funded, costing Delaware $36 million); Declaration of Nicole Alexander-Scott (“AlexanderScott Decl.”), Dkt. No. 174-7 ¶ 3 (unintended pregnancies likely to result from Final Rules will impose costs
on state of Rhode Island); Wilson Decl., Dkt. No. 174-38
¶ 5 (unintended pregnancies likely to result from Final
Rules will impose costs on State of North Carolina);
Declaration of Nathan Moracco (“Moracco Decl.”), Dkt.
No. 174-23 ¶ 5 (State of Minnesota “may bear a financial
risk when women lose contraceptive coverage” because
State is obligated to pay for child delivery and newborn
care for children born to low-income mothers).10
Of course, these financial costs to the States do not capture the
additional substantial costs—whether they be financial, professional,
or personal—to women who unintendedly become pregnant after
losing access to the cost-free contraceptives to which they are entitled. See, e.g., Planned Parenthood of Se. Pa. v. Casey, 505 U.S.
833, 856 (1992) (“The ability of women to participate equally in the
economic and social life of the Nation has been facilitated by their
ability to control their reproductive lives.”); Brief of Amici Curiae
10

68a
In sum, Plaintiffs have shown that the challenged Final Rules pose a reasonably probable threat to their economic interests because they will be forced to pay for
contraceptives that are no longer provided cost-free to
women as guaranteed by the Affordable Care Act, as the
Ninth Circuit found with respect to the five original
Plaintiff States. See California, 911 F.3d at 570. The
States also have established a reasonable probability
that they will suffer economic harm from the consequences of unintended pregnancies resulting from the
reduced availability of contraceptives. These injuries
are directly traceable to the exemptions created by the
Final Rules. As the Ninth Circuit noted, under the
APA, the States “will not be able to recover monetary
damages.” Id. at 581 (citing 5 U.S.C. § 702 (permitting
“relief other than money damages”)); see also Haines v.
Fed. Motor Carrier Safety Admin., 814 F.3d 417, 426
(6th Cir. 2016) (federal courts do not have jurisdiction to
adjudicate suits seeking monetary damages under the
APA). Thus, granting a preliminary injunction is the
only effective way to redress the potential harm to the
States until the Court can fully assess the merits. The
States have established the requirements of Article III
standing.

U.S. Women’s Chamber of Commerce and National Association for
Female Executives, Dkt. No. 231 at 12 (58% of women paid out-ofpocket costs for intrauterine devices prior to Women’s Health
Amendment, but only 13% by March 2014); Brief of Amici Curiae
American Association of University Women, et al., Dkt. No. 230 at
16-17 (explaining the “tremendous and adverse personal, professional, social, and economic effects” of reducing women’s access to
contraceptives).

69a
2.

Plaintiffs Have Statutory Standing.

In addition to establishing Article III standing, a
plaintiff must show that it “has a cause of action under
the statute.” Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 128 (2014). The APA
provides that a “person . . . adversely affected or
aggrieved by agency action within the meaning of a relevant statute, is entitled to judicial review thereof.”
5 U.S.C. § 702. Courts have interpreted this provision
to mean that a plaintiff must “establish (1) that there has
been final agency action adversely affecting the plaintiff, and (2) that, as a result, it suffers legal wrong or
that its injury falls within the zone of interests of the
statutory provision the plaintiff claims was violated.”
Citizens for Better Forestry v. U.S. Dep’t of Agric.,
341 F.3d 961, 976 (9th Cir. 2003) (internal quotation
omitted).
First, a final rule is, as the name suggests, a final
agency action. See id. Second, Plaintiffs’ alleged injury
—increased costs from providing contraceptives and
from the consequences of unintended pregnancies—is
within the zone of interests of the Women’s Health
Amendment, which was enacted to ensure that women
would have access to cost-free contraceptives through
their health insurance. Cf. City of Sausalito v. O’Neill,
386 F.3d 1186, 1204-05 (9th Cir. 2004) (plaintiff city within
zone of interests of Concessions Management Improvement Act because it “assert[ed] injury to its ‘proprietary
interest’ ”); Citizens for Better Forestry, 341 F.3d at 976
(plaintiffs had statutory standing because “trying to
protect the environment” was within zone of interests of
National Environmental Policy Act). Thus, Plaintiffs
have established statutory standing.

70a
C.

Plaintiffs Have Shown They Are Entitled to a
Preliminary Injunction.

Plaintiffs are entitled to a preliminary injunction as
to the Final Rules. As to both rules, Plaintiffs have
shown that they are likely to succeed, or at a minimum
have raised serious questions going to the merits, on
their claim that the Religious Exemption and the Moral
Exemption are inconsistent with the Women’s Health
Amendment, and thus violate the APA. Plaintiffs also
have shown that they are likely to suffer irreparable
harm as a result of this violation, that the balance of
hardships tips sharply in their favor, and that the public
interest favors granting the injunction.
1.

Plaintiffs are likely to succeed in, or have at
a minimum raised serious questions regarding,
their argument that the Religious Exemption
is “not in accordance with” the ACA, and thus
violates the APA.

Under the APA, “agency decisions may be set aside
only if ‘arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.’ ” Snoqualmie
Indian Tribe v. FERC, 545 F.3d 1207, 1212 (9th Cir.
2008) (quoting 5 U.S.C. § 706(2)(A). Plaintiffs argue
that “[t]he Rules cannot be reconciled with the text and
purpose of the ACA—which seeks to promote access to
women’s healthcare, not limit it.” Mot. at 10. The
Court agrees that Plaintiffs are likely correct, or have,
at a minimum, raised serious questions going to the merits of this claim. To explain why, the Court must address three contentions made by the Federal Defendants and the Intervenors: (1) the Contraceptive Mandate is not actually a “mandate” at all, but rather a pol-

71a
icy determination wholly subject to the agencies’ discretion; (2) the changes codified in the Religious Exemption
were mandated by RFRA; and (3) even if the agencies
were not required under RFRA to adopt the Religious
Exemption, they nonetheless had discretion to do so.
a.

The “Contraceptive Mandate” in the
Women’s Health Amendment is in fact
a statutory mandate.

Echoing the Final Rules, the Federal Defendants initially argue that “the ACA grants HRSA, and in turn
the Agencies, significant discretion to shape the content
and scope of any preventive-services guidelines adopted
pursuant to § 300gg-13(a)(4).” Federal Opp. at 17; see
also Little Sisters Opp. at 12 (“The ACA did not mandate contraceptive coverage. Instead, Congress delegated to HRSA discretion to determine the contours of
the preventive services guidelines.”). Federal Defendants thus contend that this section of the statute “must
be understood as a positive grant of authority for HRSA
to develop the women’s preventive-service guidelines
and for the Agencies, as the administering Agencies of
the applicable statutes, to shape that development.”
Federal Opp. at 18. Federal Defendants’ conclusion is
that Section 300gg-13(a)(4) “thus authorized HRSA to
adopt guidelines for coverage that include an exemption
for certain employers, and nothing in the ACA prevents
HHS from supervising HRSA in the development of
those guidelines.” Id.
The Court rejects the Federal Defendants’ claim that
the ACA delegated total authority to the agencies to exempt anyone they wish from the contraceptive mandate.
The Federal Defendants never appear to have denied

72a
that the statutory mandate is a mandate until the issuance of the IFRs (and the ensuing litigation in this district and in the Eastern District of Pennsylvania challenging the IFRs and now the Final Rules). They cite
no case in which a court has accepted this claim. To the
contrary, this Court knows of no Supreme Court, court
of appeal or district court decision that did not presume
that the ACA requires specified categories of health insurance plans and issuers to provide contraceptive coverage at no cost to women. See, e.g., Zubik, 136 S. Ct.
at 1559 (“Federal regulations require petitioners to cover
certain contraceptives as part of their health plans”);
Hobby Lobby, 134 S. Ct. at 2762; California, 911 F.3d at
566 (ACA and its regulations “require group health
plans to cover contraceptive care without cost sharing”).
The United States government also has admitted as
much in its consistent prior representations to the Supreme Court. See Brief for Respondents at 25, Zubik,
136 S. Ct. at 1557 (2016) (Nos. 14-1418, 14-1453, 14-1505,
15-35, 15-105, 15-119, 15-191) (recognizing “the generally applicable requirement to provide contraceptive
coverage”); id. at 37-38 (recognizing that “[t]he Affordable Care Act itself imposes an obligation on insurers to
provide contraceptive coverage, 42 U.S.C. 300gg-13”).
Federal Defendants’ argument that the statute’s language requiring coverage “as provided” by the regulations confers unbridled discretion on the agencies to exempt anyone they see fit from providing coverage, Federal Opp. at 18-19, is inconsistent with the ACA’s mandate that women’s contraceptive coverage “shall” be
provided by covered plans and issuers without cost sharing. The statute’s use of the phrase “as provided for in
comprehensive guidelines” simply cannot reasonably be

73a
read as a Congressional delegation of the plenary authority claimed by the Federal Defendants. Instead,
Congress permitted HRSA, a health agency, to determine what “additional preventive care and screenings”
in those guidelines must be covered with respect to
women. See Catholic Health Care Sys. v. Burwell,
796 F.3d 207, 210 (2d Cir. 2015) (“The ACA does not
specify what types of preventive care must be covered
for female plan participants and beneficiaries. Instead,
Congress left that issue to be determined via regulation
by the [HRSA].”) (emphasis added), vacated and remanded, 136 S. Ct. 2450 (2016). Without dispute, the
guidelines continue to identify contraceptive services as
among those for which health plans and insurers “shall,
at a minimum provide coverage . . . and shall not impose any cost sharing requirements.” See Health Res.
& Serv. Admin., Women’s Preventive Services Guidelines,
https://www.hrsa.gov/womens-guidelines-2016/index.html
(last updated Oct. 2017). Moreover, in 2012, “[t]he Senate voted down the so-called conscience amendment,
which would have enabled any employer or insurance provider to deny coverage based on its asserted ‘religious
beliefs or moral convictions.’ ” Hobby Lobby, 134 S. Ct.
at 2789 (Ginsburg, J., dissenting) (citing 158 Cong. Rec.
S539 (Feb. 9, 2012) and S1162-73 (Mar. 1, 2012)).
Accordingly, the Court rejects the Federal Defendants’
claim that the ACA delegates to the agencies complete discretion to implement any exemptions they choose, including those at issue here. See Pennsylvania, 281 F. Supp.
3d at 579 (rejecting government’s argument that “HRSA
may determine not only the services covered by the ACA,
but also the manner or reach of that coverage,” because
“the ACA contains no statutory language allowing the

74a
Agencies to create such sweeping exemptions to the requirements to cover ‘preventive services,’ which, as interpreted by those same agencies, include mandatory
no-cost coverage of contraceptive services”).
To the extent the Federal Defendants rely on the existence of the church exemption instituted in 2013 to
support their position, Federal Opp. at 18-19, the legality of that exemption is not before the Court. The
Court notes, however, that the church exemption was
rooted in provisions of the Internal Revenue Code that
apply to churches, their integrated auxiliaries, and conventions or associations of churches, as well as to the exclusively religious activities of any religious order. See
78 Fed. Reg. at 39,874 (classifying “an employer that
[was] organized and operate[d] as a nonprofit entity and
[was] referred to in section 6033(a)(3)(A)(i) or (iii) of the
Code [as] a religious employer for purposes of the religious employer exemption.”). While a court could someday be presented with the question of whether the church
exemption is uniquely required by law given the special
legal status afforded to churches and their integrated
auxiliaries, the existence of that exemption simply does
not mean that the agencies have boundless authority to
implement any other exemptions they choose.
b.

The Religious Exemption likely is not required
by RFRA.

Because the Women’s Health Amendment, including
the requirement to cover the preventive care and
screenings identified in the guidelines, is a law of general applicability, the next question is whether RFRA
requires the government to relieve qualifying entities of
the obligation to comply by providing the Religious Exemption, as opposed to the accommodation provided for

75a
under the pre-IFR version of the rules currently in
force. The Court finds that the Religious Exemption
likely is not required by RFRA.
“RFRA suspends generally applicable federal laws
that ‘substantially burden a person’s exercise of religion’ unless the laws are ‘the least restrictive means of
furthering a compelling governmental interest.’ ” Oklevueha Native Amer. Church of Hawaii v. Lynch, 828 F.3d
1012, 1015 (9th Cir. 2016) (internal quotation and citation omitted). The Ninth Circuit has held that “[u]nder
RFRA, a ‘substantial burden’ is imposed only when individuals are forced to choose between following the tenets of their religion and receiving a governmental benefit . . . or coerced to act contrary to their religious
beliefs by the threat of civil or criminal sanctions. . . .”
Navajo Nation v. United States Forest Serv., 535 F.3d
1058, 1070 (9th Cir. 2008). The government “is not required to prove a compelling interest for its action or
that its action involves the least restrictive means to
achieve its purpose, unless the plaintiff first proves the
government action substantially burdens his exercise of
religion.” Id. at 1069.
The Federal Defendants and the Little Sisters argue
that the current accommodation, under which eligible
organizations are not required to contract, arrange, pay,
or refer for contraceptive coverage, substantially burdens religious objectors’ exercise of religion. Federal
Opp. at 22; Little Sisters Opp. at 15 (contending that
“RFRA mandates a broad religious exemption” from the
contraceptive coverage requirement). Federal Defendants and the Little Sisters argue that even requiring objectors to notify the government that they are opting out

76a
of the otherwise-applicable obligation to cover contraceptive services for their female employees, students, or
beneficiaries makes them complicit in the provision of
products incompatible with their religious beliefs. Federal Opp. at 22 (“The accommodation, like the Mandate,
imposes a substantial burden because it requires some
religious objectors to ‘act in a manner that they sincerely believe would make them complicit in a grave
moral wrong as the price of avoiding a ruinous financial
penalty.’ ”) (quoting Sharpe Holdings, Inc. v. Dep’t of
Health & Human Serv., 801 F.3d 927, 941 (8th Cir.
2015), vacated sub nom. Dep’t of Health & Human
Servs. v. CNS Int’l Ministries, 84 U.S.L.W. 3630, 2016
WL 2842448, at *1 (2016); Little Sisters Opp. at 16 (“The
Little Sisters cannot, in good conscience, provide these
services on their health benefits plan or authorize others
to do so for them.”).
While the Ninth Circuit has not considered this question, nine other courts of appeal have. Of those courts,
all other than the Eighth Circuit (in the Sharpe Holdings decision on which the Federal Defendants exclusively rely) concluded that the accommodation does not
impose a substantial burden on objectors’ exercise of religion.11 This Court agrees with the eight courts that

See Priests for Life v. U.S. Dep’t of Health & Human Servs.,
772 F.3d 229 (D.C. Cir. 2014), vacated sub nom. Zubik, 136 S. Ct. at
1561; Catholic Health Care Sys. v. Burwell, 796 F.3d 207 (2d Cir.
2015), vacated, 136 S. Ct. 2450 (2016); Geneva Coll. v. Sec’y U.S. Dep’t
of Health & Human Servs., 778 F.3d 422 (3d Cir. 2015), vacated sub
nom. Zubik, 136 S. Ct. at 1561; E. Tex. Baptist Univ. v. Burwell,
793 F.3d 449 (5th Cir. 2015), vacated sub nom. Zubik, 136 S. Ct. at
1561; Mich. Catholic Conference & Catholic Family Servs. v. Burwell, 807 F.3d 738 (6th Cir. 2015), vacated, 136 S. Ct. 2450 (2016);
11

77a
so held, and finds that Plaintiffs are likely to prevail on
this argument.
First, whether a burden is substantial is an objective
question: a court “must assess the nature of a claimed
burden on religious exercise to determine whether, as
an objective legal matter, that burden is ‘substantial’ under RFRA.” Catholic Health Care Sys., 796 F.3d at
217. 12 In other words, “[w]hether a law substantially
burdens religious exercise under RFRA is a question of
law for courts to decide, not a question of fact.” Priests
for Life, 772 F.3d at 247. Importantly, the Court may
not, and does not here, question the “sincerity of [a
Univ. of Notre Dame v. Burwell, 786 F.3d 606 (7th Cir. 2015), vacated, 136 S. Ct. 2007 (2016); Grace Schs. v. Burwell, 801 F.3d 788
(7th Cir. 2015), vacated, 136 S. Ct. 2011 (2016); Little Sisters of the
Poor Home for the Aged, Denver, Colo. v. Burwell, 794 F.3d 1151
(10th Cir. 2015), vacated sub nom. Zubik, 136 S. Ct. at 1561; Eternal
Word Television Network v. Sec’y of U.S. Dep’t Health & Human
Servs., 818 F.3d 1122 (11th Cir. 2016), vacated No. 14-12696, 2016 WL
11503064 (11th Cir. May 31, 2016). Only the Eighth Circuit has
found that the religious accommodation as it existed before the
promulgation of the 2017 IFRs imposed a substantial burden on religious exercise under RFRA. See Sharpe Holdings, 801 F.3d at
945 (affirming grant of preliminary injunction to religious objectors
because “they [were] likely to succeed on the merits of their RFRA
challenge to the contraceptive mandate and the accommodation regulations”), vacated sub nom. Dep’t of Health & Human Servs. v.
CNS Int’l Ministries, 84 U.S.L.W. 3630, 2016 WL 2842448, at *1
(2016); Dordt Coll. v. Burwell, 801 F.3d 946 (8th Cir. 2015) (applying
reasoning of Sharpe Holdings to similar facts), vacated, 136 S. Ct.
2006 (2016).
12
While all eight of the decisions finding no substantial burden
were vacated by Zubik or other Supreme Court decisions, the Court
finds the analysis and reasoning of those cases highly persuasive.
The Eighth Circuit’s decision in Sharpe Holdings has been vacated
as well.

78a
party’s] belief that providing, paying for, or facilitating
access to contraceptive services is contrary to [its]
faith,” or its judgment that “participation in the accommodation violates this belief.” Catholic Health Care
Sys., 796 F.3d at 217. But “[w]hether the regulation
objected to imposes a substantial burden is an altogether different inquiry.” Id. at 218.
As several courts have noted, the Supreme Court’s
decision in Hobby Lobby “did not collapse the distinction
between beliefs and substantial burden, such that the
latter could be established simply through the sincerity
of the former.” Catholic Health Care Sys., 796 F.3d at
218; see also Eternal Word, 818 F.3d at 1145 (noting that
“nothing in RFRA or case law . . . allows a religious
adherent to dictate to the courts what the law requires,”
and explaining that “questions about what a law means
are not the type of ‘difficult and important questions
of religion and moral philosophy’ for which courts must
defer to religious adherents”) (citing Hobby Lobby,
134 S. Ct. at 2778).
Both before and after the Supreme Court’s decision
in Wheaton College, all courts of appeal to consider the
question, with the exception of the Eighth Circuit, have
concluded that requiring religious objectors to notify
the government of their objection to providing contraceptive coverage, so that the government can ensure
that the responsible insurer or third-party administrator steps in to meet the ACA’s requirements, does not
impose a substantial burden on religious exercise. As
the Eleventh Circuit explained post-Wheaton in Eternal
Word, under the accommodation “the only action required
of the eligible organization is opting out: literally, the
organization’s notification of its objection,” at which point

79a
all responsibilities related to contraceptive coverage fall
upon its insurer or TPA. 818 F.3d at 1149. The Eleventh Circuit noted that “such an opt out requirement is
‘typical of religious objection accommodations that shift
responsibility to non-objecting entities only after an objector declines to perform a task on religious grounds.’ ”
Id. (citing Little Sisters of the Poor, 794 F.3d at 1183).
The eight courts of appeal also found that an objector’s “complicity” argument does not establish a substantial burden, because it is the ACA and the guidelines
that entitle plan participants and beneficiaries to contraceptive coverage, not any action taken by the objector. As the Eternal Word court explained:
The ACA and the HRSA guidelines—not the opt out
—are . . . the ‘linchpins’ of the contraceptive
mandate because they entitle women who are plan
participants and beneficiaries covered by group health
insurance plans to contraceptive coverage without
cost sharing. In other words, women are entitled
to contraceptive coverage regardless of their employer’s action (or lack of action) with respect to
seeking an accommodation. Because a woman’s entitlement to contraceptive benefits does not turn on
whether her eligible organization employer chooses
to comply with the law (by providing contraceptive
coverage or seeking an accommodation) or pay a substantial penalty (in the form of a tax) for noncompliance, we cannot say that the act of opting out imposes
a substantial burden.
818 F.3d at 1149. See also, e.g., Little Sisters of the
Poor, 794 F.3d at 1174 (“[S]hifting legal responsibility
to provide coverage away from the plaintiffs relieves rather than burdens their religious exercise. The ACA

80a
and its implementing regulations entitle plan participants and beneficiaries to coverage whether or not the
plaintiffs opt out.”); East Texas Baptist Univ. v. Burwell, 793 F.3d 449, 459 (5th Cir. 2015) (“[T]he plaintiffs
claim that their completion of Form 700 or submission
of a notice to HHS will authorize or trigger payments
for contraceptives. Not so. The ACA already requires
contraceptive coverage. . . .”).
The Eleventh Circuit in Eternal Word summarized
its analysis by holding that it “simply [could] not say
that RFRA affords the plaintiffs the right to prevent
women from obtaining contraceptive coverage to which
federal law entitles them based on the de minimis burden that the plaintiffs face in notifying the government
that they have a religious objection.” 818 F.3d at 1150.
This Court agrees.
Moreover, as several courts have noted, in Hobby
Lobby the Supreme Court at least suggested (without
deciding) that the accommodation likely was not precluded by RFRA. See, e.g., Catholic Health Care Sys.,
796 F.3d at 217 (“Indeed, in Hobby Lobby, the Supreme
Court identified this accommodation as a way to alleviate a substantial burden on the religious exercise of forprofit corporations. . . .”), East Texas Baptist Univ.,
793 F.3d at 462 (“The Hobby Lobby Court . . . actually suggested in dictum that the accommodation does
not burden religious exercise. . . .”). Hobby Lobby
described the accommodation as “effectively exempt[ing]
certain religious nonprofit organizations . . . from the
contraceptive mandate.” 134 S. Ct. at 2763. The Court
characterized the accommodation as “an approach that
is less restrictive than requiring employers to fund contraceptive methods that violate their religious beliefs.”

81a
Id. at 2782. While making clear that it did not “decide
today whether an approach of this type complies with
RFRA for purposes of all religious claims,” the Court
said that “[a]t a minimum, [the accommodation did] not
impinge on the plaintiffs’ religious belief that providing
insurance coverage for the contraceptives at issue here
violates their religion, and it serves HHS’s stated interests equally well.” Id. Specifically, the Court said that
“[u]nder the accommodation, the plaintiffs’ female employees would continue to receive contraceptive coverage without cost sharing for all FDA-approved contraceptives, and they would continue to ‘face minimal logistical and administrative obstacles . . . because their
employers’ insurers would be responsible for providing
information and coverage. . . .” Id. (citation omitted).
The Little Sisters raise two arguments to suggest
that the reasoning referenced above should not control.
First, they contend that in the Zubik case, the government made factual concessions that “removed any basis
for lower courts’ prior holding that the Mandate did not
impose a substantial burden on the religious exercise of
objecting employers because the provision of contraceptives was separate from their plans.” Little Sisters Opp.
at 6. Second, they point to what they characterize as
“unanimous rulings” post-Zubik entering “permanent injunctions against the Mandate as a violation of RFRA.”
Id. at 16.13 The Court does not find either argument
persuasive at this stage.

The Court notes that the district court in Pennsylvania found,
post-Zubik, that the IFRs “are not required under RFRA because
the Third Circuit—twice now—has foreclosed the Agencies’ legal
conclusion that the Accommodation Process imposes a substantial
13

82a
With regard to the government’s Zubik “concession,”
the Court cannot in the limited time available before the
Final Rules are scheduled to take effect review the entirety of the Zubik record to place the statements identified in context. But even assessing on their face the
handful of facts proffered, it is not self-evident that the
representations have the definitive effect posited by the
Little Sisters. See id. at 6 (citing following exchange
during the Zubik oral argument: “Chief Justice Roberts:
‘You want the coverage for contraceptive services to be
provided, I think as you said, seamlessly. You want it
to be in one insurance package. . . . Is that a fair understanding of the case?’ Solicitor General Verrilli: “I
think it is one fair understanding of the case.’ ”) (ellipses
as in Little Sisters Opp.). On the present record, the
Court cannot conclude that the “one fair understanding”
comment, or the other few representations cited, fatally
undermined the core conclusion of the eight courts of
appeal that requiring a religious objector simply to notify
the government of its objection, consistent with Wheaton
College, does not substantially burden religious exercise. The Court thus believes it likely that the answer
to the legal question posed in that on-point authority is
not altered by the position taken by the government in
Zubik. This conclusion, like all of the Court’s preliminary analysis in this order, is subject to re-evaluation
once a fuller record is developed. See California,
911 F.3d at 584 (noting that “the fully developed factual
record may be materially different from that initially before the district court”).

burden.” 281 F. Supp. 3d at 581.
tle Sisters’ unanimity claim.

This decision undercuts the Lit-

83a
Relatedly, the Court finds that nothing in the postZubik district court decisions cited by the Little Sisters
compels the conclusion that the Religious Exemption
was mandated by RFRA. The Zubik remand order gave
the parties the “opportunity to arrive at an approach going forward that accommodates petitioners’ religious exercise while at the same time ensuring that women covered by petitioners’ health plans ‘receive full and equal
health coverage, including contraceptive coverage.’ ”
136 S. Ct. at 1560 (emphasis added). While expressing
“no view on the merits of the cases,” id., the Supreme
Court said that “[n]othing in this opinion, or in the opinions or orders of the courts below, is to affect the ability
of the Government to ensure that women covered by petitioners’ health plans ‘obtain, without cost, the full range
of FDA approved contraceptives.’ ” Id. at 1560-61 (quoting Wheaton College, 134 S. Ct. at 2807) (emphasis added).
In her concurrence, Justice Sotomayor stressed her understanding that the majority opinion “allows the lower
courts to consider only whether existing or modified
regulations could provide seamless contraceptive coverage to petitioners’ employees, through petitioners’ insurance companies, without any notice from petitioners.” Zubik, 136 S. Ct. at 1561 (Sotomayor, J., concurring) (internal quotations and ellipses omitted).
Following remand, however, as reflected in the IFRs
and now the Final Rules, the Federal Defendants simply
reversed their position and stopped defending the accommodation, and now seemingly disavow any obligation to ensure coverage under the ACA. As a result,
the post-Zubik orders were entered without objection
by the government, based on the agencies’ new position
that the accommodation violates RFRA.
See, e.g.,
Wheaton Coll. v. Azar, No. 1:13-cv-08910, Dkt. 119 at 2

84a
(N.D. Ill. Feb. 22, 2018) (noting that “[a]fter reconsideration of their position, Defendants now agree that enforcement of the currently operative rules regarding the
‘contraceptive mandate’ against employers with sincerely held religious objections would violate RFRA,
and thus do not oppose Wheaton’s renewed motion for
injunctive and declaratory relief ”). In other words, it
appears to the Court that no party in these cases purported to represent, or even consider the substantial interests of, the women who now will be deprived of “full
and equal health coverage, including contraceptive coverage.” Cf. Zubik, 136 S. Ct. at 1560. Counsel for the
Little Sisters confirmed at oral argument that none of
those decisions have been appealed (presumably for the
same reason). So the eight appellate courts upon whose
reasoning this Court relies have not had the opportunity
to decide whether any subsequent developments would
change their conclusions. For all of these reasons, the
Court finds that nothing about the post-Zubik orders
cited by the Little Sisters changes its conclusion that
Plaintiffs are likely to succeed in their argument that
the Final Rules are not mandated by RFRA.
c.

There are serious questions going to the merits
as to whether the Religious Exemption is
otherwise permissible.

The Federal Defendants and the Little Sisters further argue that even if the Religious Exemption is not
required by RFRA, the agencies have discretion under
RFRA to implement it. Federal Opp. at 21 (“[N]othing
in RFRA prohibits the Agencies from now employing
the more straightforward choice of an exemption—
much like the existing and unchallenged exemption for

85a
churches.”); Little Sisters Opp. at 17 (“RFRA thus contemplates that the government may choose to grant discretionary benefits or exemptions to religious groups
over and above those which are strictly required by
RFRA.”). As accurately summarized by the Little Sisters, the question is thus whether Congress has “delegated authority to the agencies to create exemptions to
protect religious exercise,” such that RFRA “operates
as a floor on religious accommodation, not a ceiling.”
Little Sisters Opp. at 17. While addressed only relatively briefly by the parties, this argument raises what
appears to be a complex issue at the intersection of
RFRA, Free Exercise, and Establishment Clause jurisprudence.
The Court begins with a foundational premise: what
the government is permitted to do under a statute or the
Constitution presents a pure question of law for the
courts, and the agencies’ views on this legal question are
entitled to no deference (except to the extent required
by Chevron as to statutory interpretation). See Hobby
Lobby, 134 S. Ct. at 2775 n.30 (noting that “conscience
amendment” rejected by Congress “would not have subjected religious-based objections to the judicial scrutiny
called for by RFRA, in which a court must consider not
only the burden of a requirement on religious adherents,
but also the government’s interest and how narrowly
tailored the requirement is”); see also Board of Trustees
of Univ. of Alabama v. Garrett, 531 U.S. 356, 365 (2001)
(recognizing the “long-settled principle that it is the responsibility of this Court, not Congress, to define the
substance of constitutional guarantees” (citing City of
Boerne v. Flores, 521 U.S. 507, 519-24 (1997)); Snoqualmie
Indian Tribe, 545 F.3d at 1212-13 (“An agency’s interpretation or application of a statute is a question of law

86a
reviewed de novo,” subject to Chevron deference to
agency’s permissible construction if statute is silent or
ambiguous on a particular point). The Little Sisters
acknowledged at oral argument that they do not contend
the Court owes Chevron deference to the agencies’ interpretation of RFRA.
On the other hand, the Federal Defendants assert,
relying on Ricci v. DeStefano, 557 U.S. 557, 585 (2009),
that “[i]f agencies were legally prohibited from offering
an exemption unless they concluded that no other possible accommodation would be consistent with RFRA, the
result would be protracted and unnecessary litigation.”
Federal Opp. at 21-22. This argument is neither supported by the cited authority nor relevant.
First, Ricci does not support the Federal Defendants’ argument. Ricci involved a city’s decision not to
certify the results of a promotion examination taken by
its firefighters. 557 U.S. at 562. The city based its decision on its apparent fear that it would be sued for adopting a practice that had a disparate impact on minority
firefighters, in violation of Title VII. Id. at 563. The
Supreme Court characterized its analysis as focused on
how to “resolve any conflict between the disparatetreatment and disparate-impact provisions of Title VII.”
Id. at 584. The Court found that “applying the strongbasis-in-evidence standard to Title VII gives effect to both
the disparate-treatment and disparate impact provisions,
allowing violations of one in the name of compliance
with the other only in certain narrow circumstances”—
specifically, when a government actor had a strong basis
in evidence to conclude that race-conscious action was
necessary to remedy past racial discrimination. Id. at
582-83. The Court described this standard as limiting

87a
employers’ discretion in making race-based decisions
“to cases in which there is a strong basis in evidence of
disparate-impact liability,” but said it was “not so restrictive that it allows employers to act only when there
is a provable, actual violation.” Id. at 583. Accordingly,
the Court “h[e]ld only that under Title VII, before an
employer can engage in intentional discrimination for
the asserted purpose of avoiding or remedying an unintentional disparate impact, the employer must have a strong
basis in evidence to believe it will be subject to disparateimpact liability if it fails to take the race-conscious, discriminatory action.” Id. at 585.
The Court does not view Ricci as shedding any light
on whether a federal agency has plenary discretion under RFRA to grant any exemption it chooses from an
otherwise generally-applicable law passed by Congress.
The Federal Defendants cite no case applying Ricci in
the RFRA context, or otherwise engaging in an analysis
comparable to the Supreme Court’s in that case.
Second, and more fundamentally, Federal Defendants’ argument is irrelevant, because the courts, not the
agencies, are the arbiters of what the law and the Constitution require. The Court questions the Little Sisters’ contention that RFRA effected a wholesale delegation to executive agencies of the power to create exemptions to laws of general applicability in the first instance,
based entirely on their own view of what the law requires.14 As this case definitively demonstrates, such
The Court notes that Guam v. Guerrero, 290 F.3d 1210 (9th Cir.
2002), the case cited by the Little Sisters, addressed Congress’s
power to carve out religious exemptions from statutes of general applicability. It is true that the ACA is subject to the requirements
of RFRA. See Hobby Lobby, 134 S. Ct. at 2775 n.30 (explaining that
14

88a
views can change dramatically based on little more than
a change in administration. In any event, there is no
dispute that both the prior and current Administrations
have contended that they have administered the ACA in
a manner consistent with RFRA. But the courts are
not concerned, at all, with the Federal Defendants’ desire to “avoid litigation,” especially where that avoidance means depriving a large number of women of their
statutory rights under the ACA. Rather, the courts have
a duty to independently decide whether the Final Rules
comport with statutory and Constitutional requirements,
as they have done in many analogous cases involving
RFRA, and the Court rejects the Federal Defendants’
suggestion that “an entity faced with potentially conflicting legal obligations should be afforded some leeway,” Federal Opp. at 21. Ultimately, this Court (and
quite possibly the Supreme Court) will have to decide
the legal questions presented in this case, but no “leeway” will be given to the government’s current position
in doing so.
Moving to the substance of the issue, the Court first
notes that the Ninth Circuit has held that a plaintiff ’s
“failure to demonstrate a substantial burden under RFRA

“any Federal statutory law adopted after November 16, 1993 is subject to RFRA unless such law explicitly excludes such application by
reference to RFRA (quoting 42 U.S.C. § 2000bb-3(b)) (internal quotations and emphasis omitted). But here, as noted earlier, in 2012
Congress declined to adopt a “conscience amendment” authorizing a
“blanket exemption for religious or moral objectors” that was similar in many ways to the Final Rules at issue here. See id. at n.37
(majority opinion) and 2789 (Ginsburg, J., dissenting). Whether
Congress could choose to amend the ACA to include exemptions like
those in the Final Rules is not before the Court in this case.

89a
necessarily means that [it has] failed to establish a violation of the Free Exercise Clause, as RFRA’s prohibition on statutes that burden religion is stricter than that
contained in the Free Exercise Clause.” Fernandez v.
Mukasey, 520 F.3d 965, 966 n.1 (9th Cir. 2008). This
holding is not dispositive of the dispute here, however,
because the Supreme Court has said that “ ‘there is room
for play in the joints’ between the Clauses, some space
for legislative action neither compelled by the Free
Exercise Clause nor prohibited by the Establishment
Clause.” Cutter v. Wilkinson, 544 U.S. 709, 719 (2005)
(internal quotation and citation omitted).
As the Little Sisters note, “[g]ranting government
funding, benefits, or exemptions, to the extent permissible under the Establishment Clause, shall not constitute
a violation” of RFRA. 42 U.S.C. § 2000bb-4. But the
Supreme Court has explained that “[a]t some point, accommodation may devolve into ‘an unlawful fostering of
religion.’ ” Corp. of Presiding Bishop of Church of Jesus Christ of Latter-Day Saints v. Amos, 483 U.S. 327,
334-35 (1987) (quoting Hobbie v. Unemployment Appeals Comm’n of Fla., 480 U.S. 136, 145 (1987)). That
is one of the core disputes here: given its plain impact
on women’s entitlement to coverage under the ACA, is
the Religious Exemption permissible under RFRA even
if it is not mandated by RFRA? The Court finds that
Plaintiffs have raised at least “serious questions going
to the merits” as to this legal question. Alliance for the
Wild Rockies, 632 F.3d at 1131-32.
The Court knows of no decision that has squarely addressed this issue in the context of the ACA. As the
Court has discussed above, the Religious Exemption has
the effect of depriving female employees, students and

90a
other beneficiaries connected to exempted religious
objectors of their statutory right under the ACA to
seamlessly-provided contraceptive coverage at no cost.
That deprivation appears to occur without even requiring any direct notice to the women affected by an objector’s decision to assert the Religious Exemption. See
83 Fed. Reg. at 57,558. Courts, including the Supreme
Court in Hobby Lobby, have recognized that a court
evaluating a RFRA claim must “take adequate account
of the burdens a requested accommodation may impose
on nonbeneficiaries.” Hobby Lobby, 134 S. Ct. at 2781
n.37 (citing Cutter, 544 U.S. at 720 (internal quotations
omitted)); see also Priests for Life, 772 F.3d at 266
(“When the interests of religious adherents collide with
an individual’s access to a government program supported by a compelling interest, RFRA calls on the government to reconcile the competing interests. In so
doing, however, RFRA does not permit religious exercise to ‘unduly restrict other persons, such as employees, in protecting their own interests, interest the law
deems compelling.’ ”) (citing Hobby Lobby, 134 S. Ct. at
2786-87 (Kennedy, J., concurring)); Priests for Life,
772 F.3d at 272 (“Limiting the exemption, but making
the [accommodation] opt out available, limits the burdens
that flow from organizations ‘subjecting their employees
to the religious views of the employer.’ ”) (citing 77 Fed.
Reg. at 8,728 (February 2012 final rule adopting definition of “religious employer” as set forth in 2011 IFR)).
In Cutter, the Supreme Court, in rejecting a facial
constitutional attack on the Religious Land Use and Institutionalized Persons Act, cited Estate of Thornton v.
Caldor, Inc., 472 U.S. 703 (1985), for the principle that
courts “[p]roperly applying [RLUIPA] must take ade-

91a
quate account of the burdens a requested accommodation may impose on nonbeneficiaries.” 544 U.S. at 720.
The Cutter Court noted that if inmate requests for religious accommodations “impose[d] unjustified burdens
on other institutionalized persons,” “adjudication in asapplied challenges would be in order.” Id. at 726. In
dissent in Hobby Lobby, Justice Ginsburg observed that
“[n]o tradition, and no prior decision under RFRA, allows a religion-based exemption when the accommodation would be harmful to others—here, the very persons
the contraceptive coverage requirement was designed to
protect.” 134 S. Ct. at 2801 (Ginsburg, J., dissenting).
The Hobby Lobby majority, in turn, said that its holding
“need not result in any detrimental effect on any third
party,” because “the Government can readily arrange
for other methods of providing contraceptives, without
cost sharing, to employees who are unable to obtain
them under their health-insurance plans due to their
employers’ religious objections,” including by offering
the accommodation. 134 S. Ct. at 2781 n.37 (citing discussion at 2781-82).
The arguments of the Federal Defendants, and especially the Little Sisters, thus raise questions that the Supreme Court did not reach in Hobby Lobby, Zubik, or
Wheaton College. There is substantial debate among
commentators as to how to assess the legality of accommodations not mandated by RFRA when those accommodations impose harms on third parties, given the statute’s directive that it does not preclude accommodations
allowed by the Establishment Clause. Compare Frederick Mark Gedicks & Rebecca G. Van Tassell, RFRA
Exemptions from the Contraception Mandate: An
Unconstitutional Accommodation of Religion, 49 Harv.
C.R.-C.L. L. Rev. 343 (2014) with Carl H. Esbeck, Do

92a
Discretionary Religious Exemptions Violate the Establishment Clause?, 106 Ky. L.J. 603 (2018). Understandably, given the large number of substantive and procedural issues that must be addressed at the preliminary
injunction stage, the parties have provided relatively
brief arguments on this central question of law. See
Mot. At 14-15; Federal Opp. at 20-23; Little Sisters Opp.
at 17-19.
In light of the discussion in Hobby Lobby and Cutter
regarding the requirement that a court consider harm
to third parties when evaluating an accommodation
claim under RFRA, the Court concludes under Alliance
that serious questions going to the merits have been
raised by the Plaintiffs as to their APA claim that the
Religious Exemption is contrary to law. The Alliance
standard recognizes that the “district court at the preliminary injunction stage is in a much better position to
predict the likelihood of harm than the likelihood of success.” Leiva-Perez v. Holder, 640 F.3d 962, 968 (9th Cir.
2011) (quoting Alliance for the Wild Rockies, 632 F.3d
at 1139 (Mosman, J., concurring)). As the Ninth Circuit
explained in a pre-Alliance case applying the standard,
“ ‘serious questions’ refers to questions which cannot be
resolved one way or the other at the hearing on the injunction and as to which the court perceives a need to
preserve the status quo lest one side prevent resolution
of the questions or execution of any judgment by altering the status quo.” Republic of the Philippines v. Marcos, 862 F.2d 1355, 1362 (9th Cir. 1988). “Serious questions are ‘substantial, difficult and doubtful, as to make
them a fair ground for litigation and thus for more deliberative investigation.’ ” Id. (quoting Hamilton Watch
Co. v. Benrus Watch Co., 206 F.2d 738, 740 (2d Cir. 1952)
(Frank, J.)). Under these circumstances, the Court finds

93a
that this case involves just such substantial and difficult
questions.
This is especially true given the Federal Defendants’
complete reversal on the key question of whether the
government has a compelling interest in providing
seamless and cost-free contraceptive coverage to women
under the ACA. The Hobby Lobby majority assumed,
without deciding, that “the interest in guaranteeing
cost-free access to the four challenged contraceptive
methods is compelling within the meaning of RFRA.”
134 S. Ct. at 2780. Justice Kennedy concurred, stating
that it was “important to confirm that a premise of the
Court’s opinion is its assumption that the HHS regulation here at issue furthers a legitimate and compelling
interest in the health of female employees.” Id. at 2786
(Kennedy, J., concurring). Until the reversal that led
to the IFRs and Final Rules, the agencies agreed that
this interest was compelling. See Supplemental Brief
for Respondents at 1, Zubik v. Burwell, 136 S. Ct. 1557
(2016) (No. 14-1418), 2016 WL 1445915, at *1 (explaining
that rules in existence in April 2016 “further[ed] the
compelling interest in ensuring that women covered by
every type of health plan receive full and equal health
coverage, including contraceptive coverage”).
The Court believes Plaintiffs are likely correct that
“the Rules provide no new facts and no meaningful discussion that would discredit their prior factual findings
establishing the beneficial and essential nature of contraceptive healthcare for women,” Reply at 11. Instead, the Final Rules on this point rest, at bottom, on
new legal assertions by the agencies. See, e.g., 83 Fed.
Reg. at 57,547 (“[T]he Departments now believe the administrative record on which the Mandate rested was—

94a
and remains—insufficient to meet the high threshold to
establish a compelling governmental interest in ensuring that women covered by plans of objecting organizations receive cost-free coverage through those plans.”).
Given the “serious reliance interests” of women who
would lose coverage to which they are statutorily entitled if the Final Rules go into effect, the Court believes
that Plaintiffs are also likely to prevail on their claim
that the agencies failed to provide “a reasoned explanation . . . for disregarding facts and circumstances
that underlay or were engendered by the prior policy.”
FCC v. Fox Television Stations, Inc., 556 U.S. 502, 51516 (2009). As this case proceeds to a merits determination, the Court will have to determine how to develop the
relevant record regarding the compelling interest question. And the parties’ positions on the legal issues described above will need to be laid out in substantially
greater detail for the Court to sufficiently address the
merits of this claim on a full record in the next stages of
the case.
2.

Plaintiffs are likely to succeed in showing that
the Moral Exemption is “not in accordance
with” the ACA, and thus violates the APA.

Further, Plaintiffs are likely to succeed in their argument that the Moral Exemption is not in accordance
with the ACA. In contrast to the Religious Exemption,
there is no dispute that the Moral Exemption implicates
neither RFRA nor the Religion Clauses of the Constitution. Despite this, Intervenor March for Life’s brief focuses primarily on defending the Religious Exemption,
to which March for Life is not entitled. See March for
Life Opp. at 3-4 (acknowledging that March for Life is a
“pro-life, non-religious entit[y]”; compare March for

95a
Life Opp. at 6 (“RFRA requires the religious exemption”), 10 (“[T]he Final Rules are an entirely permissible
accommodation of religion, which as a general matter
does not violate the Establishment Clause.”), 10 (“[T]he
Final Rules do not compel women to participate in the
religious beliefs of their employers, but rather merely
ensure that a religious employer will not be conscripted
to provide what his or her conscience will not permit.”).
The main purpose of the March for Life brief appears to
be to establish that the Religious Exemption could not
possibly run afoul of the Establishment Clause because
the Moral Exemption exists. See id. at 9 (“[T]he Final
Rules protect both religious . . . and non-religious
. . . actors, thereby dispelling any argument that the
federal government intended to advance religious interests.”).
Whatever complexities may exist with regard to the
Religious Exemption, as discussed above, they do not
apply to the Moral Exemption. Congress mandated the
coverage that is the subject matter of this dispute, and
rejected a “conscience amendment” that would exempt
entities like March for Life from this generally-applicable
statutory requirement. The Final Rules note that
“[o]ver many decades, Congress has protected conscientious objections including based on moral convictions in
the context of health care and human services, and including health coverage, even as it has sought to promote access to health services.” 83 Fed. Reg. at 57,594.
But that highlights the problem: here, it was the agencies, not Congress, that implemented the Moral Exemption, and it is inconsistent with the language and purpose of the statute it purports to interpret. The Court
finds that Plaintiffs are likely to prevail on their claim
that the Moral Exemption is contrary to the ACA, and

96a
thus unlawful under the APA. Again, the Court does
not dispute the sincerity, or minimize the substance, of
March for Life’s moral objection.
3.

Plaintiffs are likely to suffer irreparable harm
unless the Court enjoins the Final Rules.

The Court finds that the Plaintiffs are likely to suffer
irreparable harm unless the Final Rules are enjoined to
maintain the status quo pending resolution of the case
on the merits. In its order remanding this case, the
Ninth Circuit found that “it is reasonably probable that
the states will suffer economic harm from the IFRs.”
California, 911 F.3d at 581; see also id. at 571 (“The
states show, with reasonable probability, that the IFRs
will first lead to women losing employer-sponsored contraceptive coverage, which will then result in economic
harm to the states.”). As the Ninth Circuit explained,
economic harm is not recoverable for a violation of the
APA. See id. at 581 (citing 5 U.S.C. § 702 (permitting
“relief other than money damages”)); see also Haines v.
Fed. Motor Carrier Safety Admin., 814 F.3d 417, 426
(6th Cir. 2016) (federal courts do not have jurisdiction to
adjudicate suits seeking monetary damages under the
APA).15
The States have equally shown a likelihood of irreparable injury from the Final Rules. The Final Rules
themselves estimate that tens of thousands of women
nationwide will lose contraceptive coverage, and suggest
that these women may be able to obtain substitute services at Title X family-planning clinics. See 83 Fed. Reg.
The Federal Defendants contend the Ninth Circuit’s “conclusion
was in error,” Federal Opp. at 24, presumably to preserve their argument for the record.
15

97a
at 57,551 n.26 (up to 126,400 women nationwide will lose
coverage as result of Religious Exemption); id. at 57,551
(suggesting Title X family-planning clinics as alternative
to insurer-provided contraceptives). The States have
submitted substantial evidence documenting the fiscal
harm that will flow to them as a result of the Final Rules.
See, e.g., Cantwell Decl., Dkt. No. 174-4 ¶¶ 16-18 (Final
Rules will result in more women becoming eligible for
California’s Family Planning, Access, Care, and Treatment program, meaning that “state dollars may be diverted to provide” contraceptive coverage); Tobias Decl.,
Dkt. No. 174-33 ¶ 5 (exemptions in Final Rules “will result in more women receiving” New York Family Planning Program services, thus putting program at “risk
[of ] being overwhelmed by the increase in patients”); Rattay Decl., Dkt. No. 174-30 ¶ 7 (Final Rules “will contribute
to an increase in Delaware’s nationally high unintended
pregnancy rate as women forego needed contraception
and other services”); Moracco Decl., Dkt. No. 174-23 ¶ 5
(State of Minnesota “may bear a financial risk when
women lose contraceptive coverage” because state is obligated to pay for child delivery and newborn care for
children born to low-income mothers). Thus, Plaintiffs
have satisfied the irreparable harm prong of the inquiry.
4.

The balance of the equities tips sharply in
Plaintiffs’ favor, and the public interest favors
granting preliminary injunctive relief to
preserve the status quo pending resolution of
the merits.

Plaintiffs also prevail on the balance of equities and
public interest analyses. When the government is a
party to a case in which a preliminary injunction is sought,
the balance of the equities and public interest factors

98a
merge. Drakes Bay Oyster Co. v. Jewell, 747 F.3d 1073,
1092 (9th Cir. 2014). Broadly speaking, there are two
interests at stake in that balance: the interest in ensuring that health plans cover contraceptive services
with no cost-sharing, as provided for under the ACA,
and the interest in protecting “the sincerely held religious [and moral] objections of certain entities and individuals.” See 83 Fed. Reg. at 57,537; see also 83 Fed.
Reg. at 57,593.
With these interests in mind, the Court concludes
that the balance of equities tips sharply in Plaintiffs’ favor. As the Court found previously, Plaintiffs face potentially dire public health and fiscal consequences from
the implementation of the Final Rules. Plaintiffs point
out that under the Final Rules, contraceptive coverage
for employees and beneficiaries in existing health plans
could be dropped with 60 days’ notice that the employer
is revoking its use of the accommodation process, or
when a new plan year begins. See Mot. at 20. These
changes likely will increase the Plaintiffs’ costs of providing contraceptive care to their residents. See Declaration of Phuong H. Nguyen, Dkt. No. 174-26 ¶¶ 11-15 (Final Rules likely to increase demand for no- and low-cost
contraception services funded by State of California);
Declaration of Jennifer Welch, Dkt. No. 174-35 ¶¶ 10-12
(some women who lose insurer-provided contraceptive
coverage as result of Final Rules likely to enroll in State
of Illinois’s Medicaid program). Plaintiffs persuasively
submit that the suggestion in the Final Rules that
women turn to Title X clinics actually will increase the
number of women who will have to be covered by state
programs. Mot. at 23 (citing Cantwell Decl., Dkt. No.
174-4 ¶¶ 16-18; Tobias Decl., Dkt. No. 174-33 ¶ 5).
Moreover, Plaintiffs face substantial costs stemming

99a
from a higher rate of unintended pregnancies that are
likely to occur if women lose access to the seamless, nocost contraceptive coverage afforded under the rules
now in place. See Alexander-Scott Decl, Dkt. No. 174-7
¶ 3 (unintended pregnancies likely to result from Final
Rules will impose costs on State of Rhode Island); Wilson Decl., Dkt. No. 174-38 ¶ 5 (unintended pregnancies
likely to result from Final Rules will impose costs on
State of North Carolina). In essence, for many thousands of women in the Plaintiff States, the mandatory
coverage structure now in place under the ACA will disappear, requiring them to piece together coverage from
Title X clinics or state agencies, or to pay for such coverage themselves. This reality will cause substantial,
and irreparable, harm to the Plaintiff States, and their
showing compellingly establishes that the Final Rules
do not in practice “ensur[e] that women covered by petitioners’ health plans ‘receive full and equal health coverage, including contraceptive coverage.’ ” Cf. Zubik,
136 S. Ct. at 1560.
On the other hand, maintaining the status quo that
preceded the Final Rules and the 2017 IFRs—in which
eligible entities still would be permitted to avail themselves of the exemption or the accommodation—does
not constitute an equivalent harm to the Federal Defendants or Intervenors pending resolution of the merits. The Federal Defendants cite Maryland v. King,
133 S. Ct. 1, 3 (2012) (Roberts, C.J., in chambers), for
the premise that “the government suffers irreparable
institutional injury whenever its laws are set aside by a
court.” Federal Opp. at 24. But Maryland actually
held that “any time a State is enjoined by a court from
effectuating statutes enacted by representatives of its
people, it suffers a form of irreparable injury.” 133 S. Ct.

100a
at 3 (citation omitted). Here, of course, the “representatives of the people”—the United States Congress—
passed the ACA, and the precise question in this case is
whether the Executive’s attempt to implement the Final
Rules is inconsistent with Congress’s directives.
The Federal Defendants also note—correctly—that
“the government and the public at large have a substantial interest in protecting religious liberty and conscience.” Federal Opp. at 24; see also California v.
Azar, 911 F.3d at 582-83 (acknowledging that “free exercise of religion and conscience is undoubtedly, fundamentally important,” and recognizing that “[r]egardless
of whether the accommodation violates RFRA, some
employers have sincerely-held religious and moral objections to the contraceptive coverage requirement.”).
However, it is significant that after the Court enjoined
the IFRs in December 2017, the Federal Defendants
and Intervenors stipulated to a stay of this case pending
resolution of their appeals, which kept the existing
structure, including the accommodation, in place for a
year and delayed resolution of the merits of the claims.
On balance, because the Court has concluded that Plaintiffs are likely to show that the Final Rules are not mandated by RFRA, and that the existing accommodation
does not substantially burden religious exercise, it finds
that maintaining the status quo for the time being, pending a prompt resolution of the merits of Plaintiffs’
claims, is warranted based on the record presented. 16
Without question, religious and moral objectors similarly situated to the Little Sisters and March for Life are directly affected by
a preliminary injunction against the implementation of the Final
Rules. The Court notes that these two particular intervenors, and
apparently many others, are subject to court orders prohibiting the
16

101a
Plaintiffs have shown that the balance of equities tips
sharply in their favor, and that the public interest favors
granting a preliminary injunction. Because the standard set forth in Winter is met, the Court grants Plaintiffs’ motion.17
D.

This Preliminary Injunction Enjoins Enforcement
of the Final Rules Only In the Plaintiff States.

Plaintiffs ask the Court to grant a nationwide injunction, contending that the Court “cannot simply draw a
line around the plaintiff States and impose an injunction
only as to those States to ensure complete relief.” Mot.
at 25. Federal Defendants and March for Life respond
that even if the Court grants equitable relief, a nationwide injunction is inappropriate. See Federal Opp. at
25; March for Life Opp. at 22-24.
“The scope of an injunction is within the broad discretion of the district court.” TrafficSchool.com, Inc. v.
Edriver Inc., 653 F.3d 820, 829 (9th Cir. 2011). “Crafting a preliminary injunction is an exercise of discretion
and judgment, often dependent as much on the equities
of a given case as the substance of the legal issues it presents.” Trump v. Int’l Refugee Assistance Project,
137 S. Ct. 2080, 2087 (2017). A nationwide injunction is
proper when “necessary to give Plaintiffs a full expression of their rights.” Hawaii v. Trump, 878 F.3d 662,

Federal Defendants from enforcing the mandate or accommodation
requirements against them. Those orders (and any other similar
orders) are unaffected by the injunction entered here. See Little
Sisters Opp. at 7 (listing orders); March for Life Opp. at 4.
17
Because the Court finds that entry of a preliminary injunction is
warranted on the basis discussed above, it need not at this time consider the additional bases for injunctive relief advanced by Plaintiffs.

102a
701 (9th Cir. 2017), rev’d on other grounds, 138 S. Ct.
2392 (2018).
This is, of course, not the first time the Court has had
to determine the proper geographic scope of a preliminary injunction in this case. In response to the Plaintiffs’ challenge to the IFRs, the Court issued a nationwide injunction. See Dkt. No. 105 at 28-29. On appeal, the Ninth Circuit held that the nationwide scope of
the injunction was overbroad and an abuse of discretion.
California, 911 F.3d at 585.
In doing so, the Ninth Circuit made clear that injunctive relief “must be no broader and no narrower than
necessary to redress the injury shown by the plaintiff
states.” Id. The court reasoned that prohibiting enforcement of the IFRs in the Plaintiff States only, rather
than across the entire country, “would provide complete
relief ” because it “would prevent the economic harm extensively detailed in the record.” Id. at 584. The court
cautioned that “[d]istrict judges must require a showing
of nationwide impact or sufficient similarity to the plaintiff states to foreclose litigation in other districts.” Id.
And the Ninth Circuit stressed that “nationwide injunctive relief may be inappropriate where a regulatory challenge involves important or difficult questions of law,
which might benefit from development in different factual contexts and in multiple decisions by the various
courts of appeals.” Id. at *15 (citation omitted). As discussed at length above, the issues presented on this motion, much more than the notice-and-comment requirement that was the basis of the Court’s prior order granting a preliminary injunction, implicate exactly these
types of important and difficult questions of law.

103a
The Court fully recognizes that limiting the scope of
this injunction to the Plaintiff States means that women
in other states are at risk of losing access to cost-free
contraceptives when the Final Rules take effect. Plaintiffs also contend that women who reside in their States
may still lose their entitlement to cost-free contraceptives because they receive their health insurance coverage from an employer or family member located elsewhere. But Plaintiffs provide little evidence of the effect this will have on their own States. Cf. Declaration
of Dr. Jennifer Childs-Roshak, Dkt. No. 174-8 ¶ 16 (discussing effect in Massachusetts); Declaration of Robert
Pomales, Dkt. No. 174-28 ¶ 9 (same); Mot. at 25 n.24
(California hosts 25,000 students from out-of-state and
New York hosts 35,000). Plaintiffs do note that women
who live in the Plaintiff States may live in one state but
commute to another state for work. See Reply at 15
n.17 (noting high percentage of Maryland, Virginia, Delaware, and District of Columbia residents who commute
to work in another state).
On the present record, the Court cannot conclude
that the high threshold set by the Ninth Circuit for a
nationwide injunction, in light of the concerns articulated in the California opinion, has been met. The
Court also finds it significant that a judge in the District
of Massachusetts found in 2018 that the state lacked
standing to proceed as to claims similar to those here, in
an order that has been appealed to the First Circuit.
See Massachusetts v. United States Dep’t of Health &
Human Servs., 301 F. Supp. 3d 248, 250 (D. Mass. 2018).
This parallel litigation highlights the potential direct legal conflicts that could result were this Court to enter a

104a
nationwide injunction. Accordingly, this preliminary injunction prohibits the implementation of the Final Rules
in the Plaintiff States only.
IV.

CONCLUSION

For the reasons set forth above, Plaintiffs’ motion for
a preliminary injunction is GRANTED, effective as of the
date of this order. A case management conference is
set for January 23, 2019 at 2:00 p.m. At the case management conference, the parties should be prepared to
discuss a plan for expeditiously resolving this matter on
the merits, whether through a bench trial, cross-motions
for summary judgment, or other means. The parties
shall submit a joint case management statement by January 18, 2019.
IT IS SO ORDERED.

Dated:

1/13/19
/s/

HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

105a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 18-15144
D.C. No. 4:17-cv-05783-HSG
STATE OF CALIFORNIA; STATE OF DELAWARE;
COMMONWEALTH OF VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK, PLAINTIFFS-APPELLEES
v.
ALEX M. AZAR II, SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES;
U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES;
R. ALEXANDER ACOSTA, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF THE U.S. DEPARTMENT OF LABOR;
U.S. DEPARTMENT OF LABOR; STEVEN TERNER
MNUCHIN, IN HIS OFFICIAL CAPACITY AS SECRETARY
OF THE U.S. DEPARTMENT OF THE TREASURY;
U.S. DEPARTMENT OF THE TREASURY, DEFENDANTS
AND

THE LITTLE SISTERS OF THE POOR JEANNE JUGAN
RESIDENCE, INTERVENOR-DEFENDANT-APPELLANT
No. 18-15166
D.C. No. 4:17-cv-05783-HSG
STATE OF CALIFORNIA; STATE OF DELAWARE;
COMMONWEALTH OF VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK, PLAINTIFFS-APPELLEES
v.

106a
ALEX M. AZAR II, SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES;
U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES;
R. ALEXANDER ACOSTA, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF THE U.S. DEPARTMENT OF LABOR;
U.S. DEPARTMENT OF LABOR; STEVEN TERNER
MNUCHIN, IN HIS OFFICIAL CAPACITY AS SECRETARY
OF THE U.S. DEPARTMENT OF THE TREASURY;
U.S. DEPARTMENT OF THE TREASURY, DEFENDANTS
AND

MARCH FOR LIFE EDUCATION AND DEFENSE FUND,
INTERVENOR-DEFENDANT-APPELLANT
No. 18-15255
D.C. No. 4:17-cv-05783-HSG
STATE OF CALIFORNIA; STATE OF DELAWARE;
COMMONWEALTH OF VIRGINIA; STATE OF MARYLAND;
STATE OF NEW YORK, PLAINTIFFS-APPELLEES
v.
ALEX M. AZAR II, SECRETARY OF THE UNITED STATES
DEPARTMENT OF HEALTH AND HUMAN SERVICES;
U.S. DEPARTMENT OF HEALTH & HUMAN SERVICES;
R. ALEXANDER ACOSTA, IN HIS OFFICIAL CAPACITY
AS SECRETARY OF THE U.S. DEPARTMENT OF LABOR;
U.S. DEPARTMENT OF LABOR; STEVEN TERNER
MNUCHIN, IN HIS OFFICIAL CAPACITY AS SECRETARY
OF THE U.S. DEPARTMENT OF THE TREASURY;
U.S. DEPARTMENT OF THE TREASURY,
DEFENDANTS-APPELLANTS
Appeals from the United States District Court
for the Northern District of California
Haywood S. Gilliam, Jr., District Judge, Presiding

107a
Argued and Submitted: Oct. 19, 2018
San Francisco, California
Filed: Dec. 13, 2018
OPINION

Before: J. CLIFFORD WALLACE, ANDREW J. KLEINFELD,
and SUSAN P. GRABER, Circuit Judges.
WALLACE, Circuit Judge:
The Affordable Care Act (ACA) and the regulations
implementing it require group health plans to cover contraceptive care without cost sharing. Federal agencies
issued two interim final rules (IFRs) exempting employers with religious and moral objections from this requirement. Several states sued to enjoin the enforcement of the IFRs, and the district court issued a nationwide preliminary injunction. We have jurisdiction under 28 U.S.C. § 1292, and we affirm in part, vacate in
part, and remand.
I.
A.
To contextualize the issues raised on appeal, we
briefly recount the history of the ACA’s contraceptive
coverage requirement. The ACA provides that:
a group health plan and a health insurance issuer offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall
not impose any cost sharing requirements for . . .
with respect to women, such additional preventive

108a
care and screenings . . . as provided for in comprehensive guidelines supported by the Health Resources and Services Administration [HRSA]. . . .
42 U.S.C. § 300gg-13(a)(4). HRSA established guidelines for women’s preventive services that include any
“[FDA] approved contraceptive methods, sterilization
procedures, and patient education and counseling.”
Group Health Plans and Health Insurance Issuers Relating to Coverage of Preventive Services Under the Patient Protection and Affordable Care Act, 77 Fed. Reg.
8,725-01, 8,725 (Feb. 15, 2012). The three agencies responsible for implementing the ACA—the Department
of Health and Human Services, the Department of Labor, and the Department of the Treasury (collectively,
agencies)—issued regulations requiring coverage of all
preventive services contained in HRSA’s guidelines.
See, e.g., 45 C.F.R. § 147.130(a)(1)(iv) (DHSS regulation).
The agencies also recognized that religious organizations may object to the use of contraceptive care and offering health insurance that covers such care. For
those organizations, the agencies provided two avenues.
First, group health plans of certain religious employers,
such as churches, are categorically exempt from the contraceptive coverage requirement. Coverage of Certain
Preventive Services Under the Affordable Care Act,
78 Fed. Reg. 39,870, 39,874 (July 2, 2013). Second, nonprofit “eligible organizations” that are not categorically
exempt can opt out of having to “contract, arrange, pay,
or refer for contraceptive coverage.” Id. To be eligible, the organization must file a self-certification form
stating (1) that it “opposes providing coverage for some
or all of any contraceptive services required to be cov-

109a
ered under [the regulation] on account of religious objections,” (2) that it “is organized and operates as a nonprofit entity,” and (3) that it “holds itself out as a religious organization.” Id. at 39,892. The organization
sends a copy of the form to its insurance provider, which
must then provide contraceptive coverage for the organization’s employees and cannot impose any charges related to the coverage. Id. at 39,876. The regulations
refer to this second avenue as the “accommodation,” and
it was designed to avoid imposing on organizations’ beliefs that paying for or facilitating coverage for contraceptive care violates their religion. Id. at 39,874.
The agencies subsequently amended the accommodation in response to several legal challenges. First, certain closely-held for-profit organizations became eligible for the accommodation. Coverage of Certain Preventive Services Under the Affordable Care Act, 80 Fed.
Reg. 41,318-01, 41,343 (July 14, 2015); see also Burwell
v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751, 2785 (2014).
Second, instead of directly sending a copy of the selfcertification form to the insurance provider, an eligible
organization could simply notify the Department of
Health and Human Services in writing, and the agencies
then would inform the provider of its regulatory obligations. 80 Fed. Reg. at 41,323; see also Wheaton Coll. v.
Burwell, 134 S. Ct. 2806, 2807 (2014).
Various employers then challenged the amended accommodation as a violation of the Religious Freedom
Restoration Act (RFRA). Zubik v. Burwell, 136 S. Ct.
1557, 1559 (2016) (per curiam). The actions reached
the Supreme Court, but, instead of deciding the merits
of the claims, the Supreme Court vacated and remanded

110a
to afford the parties “an opportunity to arrive at an approach going forward that accommodates petitioners’
religious exercise while at the same time ensuring that
women covered by petitioners’ health plans receive full
and equal health coverage, including contraceptive coverage.” Id. (internal quotation marks and citation omitted). The agencies solicited comments on the accommodation in light of Zubik, but ultimately declined to make
further changes to the accommodation. Dep’t of Labor,
FAQs About Affordable Care Act Implementation Part
36, at 4, www.dol.gov/sites/default/files/ebsa/about-ebsa/
our-activities/resource-center/faqs/aca-part-36.pdf.
B.
On May 4, 2017, the President issued an executive order directing the secretaries of the agencies to “consider
issuing amended regulations, consistent with applicable
law, to address conscience-based objections to” the ACA’s
contraceptive coverage requirement. Promoting Free
Speech and Religious Liberty, Exec. Order No. 13,798,
82 Fed. Reg. 21,675, 21,675 (May 4, 2017). On October
6, 2017, the agencies effectuated the two IFRs challenged
here, without prior notice and comment. The religious
exemption IFR expanded the categorical exemption to
all entities “with sincerely held religious beliefs objecting to contraceptive or sterilization coverage” and made
the accommodation optional for such entities. Religious
Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act,
82 Fed. Reg. 47,792, 47,807-08 (Oct. 13, 2017). The moral
exemption IFR expanded the categorical exemption to
“include additional entities and persons that object based
on sincerely held moral convictions.” Moral Exemptions
and Accommodations for Coverage of Certain Preventive

111a
Services Under the Affordable Care Act, 82 Fed. Reg.
47,838, 47,849 (Oct. 13, 2017). It also “expand[ed] eligibility for the accommodation to include organizations
with sincerely held moral convictions concerning contraceptive coverage” and made the accommodation optional
for those entities. Id.
California, Delaware, Maryland, New York, and Virginia sued the agencies and their secretaries in the
Northern District of California. The states sought to
enjoin the enforcement of the IFRs, alleging that they
are invalid under the Administrative Procedure Act
(APA), the Fifth Amendment equal protection component of the Due Process Clause, and the First Amendment Establishment Clause. The district court held
that venue was proper and that the states had standing
to challenge the IFRs. The district court then issued a
nationwide preliminary injunction based on the states’
likelihood of success on their APA claim—that the IFRs
were procedurally invalid for failing to follow notice and
comment rulemaking. After issuing the injunction, the
district court allowed Little Sisters of the Poor, Jeanne
Jugan Residence (Little Sisters) and March for Life Education and Defense Fund (March for Life) to intervene
in the case.
The agencies, Little Sisters, and March for Life appeal from the district court’s order on venue, standing,
and nationwide preliminary injunction.
II.
Venue is reviewed de novo. Immigrant Assistance
Project of the L.A. Cty. Fed’n of Labor (AFL-CIO) v.
INS, 306 F.3d 842, 868 (9th Cir. 2002). Standing is

112a
also reviewed de novo. Am.-Arab Anti-Discrimination Comm. v. Thornburgh, 970 F.2d 501, 506 (9th Cir.
1991). Findings of fact used to support standing are
reviewed for clear error. Id.
A preliminary injunction is reviewed for abuse of
discretion. Pimentel v. Dreyfus, 670 F.3d 1096, 1105
(9th Cir. 2012). In reviewing the injunction, we apply a
two-part test. First, we “determine de novo whether the
trial court identified the correct legal rule to apply to the
relief requested.” Id. (quoting Cal. Pharmacists Ass’n
v. Maxwell-Jolly, 596 F.3d 1098, 1104 (9th Cir. 2010).
Second, we determine “if the district court’s application
of the correct legal standard was (1) illogical, (2) implausible, or (3) without support in inferences that may be
drawn from the facts in the record.” Id. (quoting Cal.
Pharmacists, 596 F.3d at 1104). The scope of the preliminary injunction, such as its nationwide effect, is also
reviewed for abuse of discretion. United States v.
Schiff, 379 F.3d 621, 625 (9th Cir. 2004).
III.
A.
We first address whether the appeal is moot. We
have authority only to decide live controversies, and because mootness is a jurisdictional issue, we are obliged
to raise it sua sponte. Gator.com Corp. v. L.L. Bean,
Inc., 398 F.3d 1125, 1129 (9th Cir. 2005) (en banc). We
determine “questions of mootness in light of the present
circumstances where injunctions are involved.” Mitchell
v. Dupnik, 75 F.3d 517, 528 (9th Cir. 1996). More specifically, the question before us is “whether changes in
circumstances that prevailed at the beginning of litigation have forestalled any occasion for meaningful relief.”

113a
Gator.com, 398 F.3d at 1129 (quoting West v. Sec’y of the
Dep’t of Transp., 206 F.3d 920, 925 n.4 (9th Cir. 2000)).
On November 15, 2018, the agencies published final
versions of the religious and moral exemption IFRs. See
Religious Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act, 83 Fed. Reg. 57,536 (Nov. 15, 2018); Moral
Exemptions and Accommodations for Coverage of Certain Preventive Services Under the Affordable Care Act,
83 Fed. Reg. 57,592 (Nov. 15, 2018). The final rules are
set to supersede the IFRs and become effective on January 14, 2019. Id. The district court’s preliminary injunction rested solely on its conclusion that the IFRs are
likely to be procedurally invalid under the APA. If the
final rules become effective as planned on January 14,
there will be no justiciable controversy regarding the
procedural defects of IFRs that no longer exist. Indeed, we have previously dismissed a procedural challenge to an interim rule as moot after the rule expired.
Safari Aviation Inc. v. Garvey, 300 F.3d 1144, 1150
(9th Cir. 2002); see also NRDC v. U.S. Nuclear Regulatory Comm’n, 680 F.2d 810, 814-15 (D.C. Cir. 1982) (holding that procedural challenge to a regulation promulgated in violation of notice and comment requirements
was rendered moot by re-promulgation of rule with
prior notice and comment); The Gulf of Me. Fishermen’s
All. v. Daley, 292 F.3d 84, 88 (1st Cir. 2002) (“[P]romulgation of new regulations and amendment of old regulations are among such intervening events as can moot a
challenge to the regulation in its original form”).
However, it is not yet January 14. We agree with
the parties that mootness is not an issue until the final
rules supersede the IFRs as expected on January 14,

114a
2019. The IFRs have not been superseded yet, and the
procedural validity of the IFRs is a live controversy.
We can still grant the parties effective relief. Mootness,
if at all, will arise only after our decision has issued.
Accordingly, we have jurisdiction to decide this appeal.
B.
We hold that venue is proper in the Northern District
of California. A civil action against an officer of the
United States in his or her official capacity may “be
brought in any judicial district in which . . . the plaintiff resides if no real property is involved in the action.”
28 U.S.C. § 1391(e)(1). There is no real property involved here. The inquiry thus turns on which judicial district(s)—for a state with multiple districts like
California—a state is considered to reside. This is a
question of first impression in this circuit.
The agencies argue that California resides only in the
Eastern District of California, where the state capital is
located. The agencies cite 28 U.S.C. § 1391(c), which
defines residency for “a natural person,” “an entity,”
and “a defendant not resident in the United States.”
Relevant here, “an entity with the capacity to sue and be
sued . . . whether or not incorporated” is deemed to
reside “only in the judicial district in which it maintains
its principal place of business.” Id. § 1391(c)(2). The
agencies argue that California is an “entity” and that its
capital Sacramento, located in the Eastern District of
California, is the principal place of business for the state.
The agencies’ argument is unconvincing. We must
“interpret [the] statut[e] as a whole, giving effect to each
word and making every effort not to interpret a provision in a manner that renders other provisions of the

115a
same statute inconsistent, meaningless or superfluous.”
United States v. Thomsen, 830 F.3d 1049, 1057 (9th Cir.
2016) (citation omitted and alterations in original).
The venue statute explicitly refers to the incorporation
status of the “entity,” indicating that the term refers to
some organization, not a state. See 28 U.S.C. § 1391(c)(2)
(“an entity . . . whether or not incorporated”). The
legislative history confirms this interpretation. According to the House Report underlying section 1391(c)(2),
the section is a response to “division in authority as to
the venue treatment of unincorporated associations”
and that the section, as stated, would treat equally corporations and unincorporated associations like partnerships and labor unions. See H.R. Rep. No. 112-10, at 21
(2011). These types of entities do not encompass sovereign states. Finally, we highlight that the statute explicitly distinguishes between states and entities. 28 U.S.C.
§ 1391(d); see also Spencer Enters., Inc. v. United States.,
345 F.3d 683, 689 (9th Cir. 2003) (“[U]se of different
words or terms within a statute demonstrates that Congress intended to convey a different meaning for those
words”). The agencies therefore improperly assume,
without support from the text or legislative history, that
“entity” encompasses a state acting as a plaintiff.
Instead, we interpret the statute based on its plain
language. A state is ubiquitous throughout its sovereign
borders. The text of the statute therefore dictates that
a state with multiple judicial districts “resides” in every
district within its borders. See Alabama v. U.S. Army
Corps of Eng’rs, 382 F. Supp. 2d 1301, 1329 (N.D. Ala.
2005) (holding that, for purposes of 28 U.S.C. § 1391(e),
“common sense dictates that a state resides throughout
its sovereign borders”); see also Atlanta & F.R. Co. v.

116a
W. Ry. Co. of Ala., 50 F. 790, 791 (5th Cir. 1892) (discussing that “the state government . . . resides at
every point within the boundaries of the state”). Any
other interpretation limiting residency to a single district in the state would defy common sense. See Silvers
v. Sony Pictures Entm’t, Inc., 402 F.3d 881, 900 (9th Cir.
2005) (“[C]ourts will not interpret a statute in a way that
results in an absurd or unreasonable result”). Venue is
thus proper in the Northern District of California.
C.
We hold that the states have standing to sue. The
states bear the burden of establishing “the irreducible
constitutional minimum” of standing. Spokeo, Inc. v.
Robins, 136 S. Ct. 1540, 1547 (2016) (internal quotation
marks omitted). The states must have suffered an
injury-in-fact that is fairly traceable to the challenged
conduct and that is likely to be redressed by a favorable judicial decision. Id. The states must also demonstrate standing for each claim they seek to press.
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352 (2006).
Standing as to one claim does not “suffice for all claims
arising from the same ‘nucleus of operative fact.’ ” Id.
The district court held that the states had standing
to assert their procedural APA claim. To establish an
injury-in-fact, a plaintiff challenging the violation of a
procedural right must demonstrate (1) that he has a procedural right that, if exercised, could have protected his
concrete interests, (2) that the procedures in question
are designed to protect those concrete interests, and
(3) that the challenged action’s threat to the plaintiff ’s
concrete interests is reasonably probable. Citizens for
Better Forestry v. U.S. Dep’t of Agric., 341 F.3d 961,
969-70 (9th Cir. 2003); see also Spokeo, 136 S. Ct. at 1540

117a
(describing the applicable standards for Article III
standing in the context of statutory procedural rights).
“[D]eprivation of a procedural right without some concrete interest that is affected by the deprivation . . .
is insufficient to create Article III standing.” Summers
v. Earth Island Inst., 555 U.S. 488, 496 (2009). Relaxed
standards apply to the traceability and redressability requirements. See NRDC v. Jewell, 749 F.3d 776, 782-83
(9th Cir. 2014) (en banc) (“One who challenges the violation of ‘a procedural right to protect his concrete interests can assert that right without meeting all the normal
standards’ for traceability and redressibility.” (quoting
Lujan v. Defs. of Wildlife, 504 U.S. 555, 572 n.7 (1992))).
The plaintiff need not prove that the substantive result
would have been different had he received proper procedure; all that is necessary is to show that proper procedure could have done so. Citizens for Better Forestry, 341 F.3d at 976.
The states argue that the agencies issued the religious and moral exemption IFRs without notice and
comment as required under the APA. They argue that
the deprivation of this procedural right affected their
economic interests. According to the states, the IFRs
expanded the number of employers categorically exempt from the ACA’s contraceptive coverage requirement, and states will incur significant costs as a result
of their residents’ reduced access to contraceptive care.
The states specifically identify three ways in which the
IFRs will economically harm them. First, women who
lose coverage will seek contraceptive care through
state-run programs or programs that the states are responsible for reimbursing. Second, women who do not
qualify for or cannot afford such programs will be at risk
for unintended pregnancies, which impose financial costs

118a
on the state. Third, reduced access to contraceptive
care will negatively affect women’s educational attainment and ability to participate in the labor force, affecting their contributions as taxpayers. Because we conclude that the record supports the first theory, we do not
reach the alternative theories. See, e.g., Washington v.
Trump, 847 F.3d 1151, 1161 & n.5 (9th Cir. 2017) (per
curiam) (holding that the plaintiffs had standing and declining to reach alternative theories of standing).
Appellants do not dispute that the states were denied
notice and opportunity to comment on the IFRs prior to
their effective date. They do not dispute that the notice and comment process could have protected and was
designed to protect the states’ economic interests. Instead, the appellants dispute whether the threat to the
states’ economic interests is reasonably probable. They
argue that the allegations of economic injury are based
on a speculative chain of events unlikely to occur. Cf.
Clapper v. Amnesty Int’l USA, 568 U.S. 398, 414 (2013)
(rejecting standing where “respondents’ speculative chain
of possibilities does not establish that injury . . . is
certainly impending or is fairly traceable”). Appellants
highlight how the states have failed to prove (1) that employers will take advantage of the expanded religious
and moral exemptions, (2) that women will lose contraceptive coverage as a result, and (3) that states will then
incur economic costs.
We hold that the states have standing to sue on their
procedural APA claim. The states show, with reasonable probability, that the IFRs will first lead to women
losing employer-sponsored contraceptive coverage, which
will then result in economic harm to the states. See

119a
Citizens for Better Forestry, 341 F.3d at 969. Just because a causal chain links the states to the harm does not
foreclose standing. See Maya v. Centex Corp., 658 F.3d
1060, 1070 (9th Cir. 2011) (“A causal chain does not fail
simply because it has several ‘links,’ provided those links
are not hypothetical or tenuous” (internal quotation
marks and citation omitted)). The states need not have
already suffered economic harm. See City of Sausalito
v. O’Neill, 386 F.3d 1186, 1197 (9th Cir. 2004) (requiring
only that the protected concrete interest be “threatened”).
There is also no requirement that the economic harm be
of a certain magnitude. See United States v. Students
Challenging Regulatory Agency Procedures (SCRAP),
412 U.S. 669, 689 n.14 (1973) (explaining that injuries of
only a few dollars can establish standing).
First, it is reasonably probable that women in the
plaintiff states will lose some or all employer-sponsored
contraceptive coverage due to the IFRs. The agencies’
own regulatory impact analysis (RIA)—which explains
the anticipated costs, benefits, and effects of the IFRs—
estimates that between 31,700 and 120,000 women nationwide will lose some coverage. See 82 Fed. Reg. at
47,821, 47,823. Importantly, when making these estimates, the agencies accounted for key factors likely to
skew the estimate, including that some objecting employers will continue to use the accommodation instead
of the new, expanded exemptions. See id. at 47,818 (estimating that 109 entities—of the 209 entities who have
litigated the contraceptive care requirement and are currently using the accommodation process—would seek
exemption); id. (“We expect the 122 nonprofit entities
that specifically challenged the accommodation in court
to use the expanded exemption”). The record also includes names of specific employers identified by the RIA

120a
as likely to use the expanded exemptions, including those
operating in the plaintiff states like Hobby Lobby Stores,
Inc. Appellants fault the states for failing to identify a
specific woman likely to lose coverage. Such identification is not necessary to establish standing. For example,
in Sierra Forest Legacy v. Sherman, California challenged
a forest-management plan that changed the standards
governing logging on a parcel of land. 646 F.3d 1161,
1171-72 (9th Cir. 2011). The state’s standing to do so
was based on future injury resulting from any logging
under the plan. Id. at 1178 (maj. op. of Fisher, J.).
We emphasized that the state’s standing to challenge
the plan “is not defeated by its not having submitted affidavits establishing approval of specific logging projects under” the plan because “there is no real possibility that the [relevant agency] will . . . decline to
adopt” any project under the plan. Id. at 1179. The
same is true here. Evidence supports that, with reasonable probability, some women residing in the plaintiff states will lose coverage due to the IFRs.
Second, it is reasonably probable that loss of coverage will inflict economic harm to the states. The RIA
estimates the direct cost of filling the coverage loss as
$18.5 or $63.8 million per year, depending on the method
of estimating. 82 Fed. Reg. at 47,821, 47,824. More
importantly, the RIA identifies that state and local programs “provide free or subsidized contraceptives for lowincome women” and concludes that this “existing intergovernmental structure for obtaining contraceptives significantly diminishes” the impact of the expanded exemptions. Id. at 47,803. The RIA itself thus assumed
that state and local governments will bear additional
economic costs.

121a
The declarations submitted by the states further
show that women losing coverage from their employers
will turn to state-based programs or programs reimbursed by the state. For example, California offers the
Family Planning, Access, Care, and Treatment (Family
PACT) program to provide contraceptive care to those
below 200% of the federal poverty level. As attested to
by program administrators, loss of coverage due to the
IFRs will result in increased enrollment to Family PACT.
Increased enrollment translates into, for example, the
state reimbursing Planned Parenthood about $74.96 for
each enrollee who receives contraceptive care. The
states provided similar evidence for New York, Maryland,
Delaware, and Virginia, which all have state-funded family
planning programs.
Appellants dispute various factual findings underlying standing, but they do not explain how those findings
are clearly erroneous. Appellants also argue that four
of the plaintiff states—California, Delaware, Maryland,
and New York—will not suffer harm because they have
state laws that independently require certain employerprovided plans to cover contraceptive care. Those state
laws do not apply to self-insured (also called self-funded)
plans. See 29 U.S.C. § 1144(a) (preempting “any and
all state laws” on this subject). Evidence shows that
millions of people are covered, in each of the four states,
under self-insured plans. For example, Hobby Lobby
Stores, Inc. covers its employees through self-insured
plans. Hobby Lobby Stores, Inc. v. Sebelius, 723 F.3d
1114, 1124 (10th Cir. 2013), aff ’d sub nom. Burwell v.
Hobby Lobby Stores, Inc., 134 S. Ct. 2751 (2014). Appellants’ argument does not even apply to Virginia, which
does not have any state law requiring coverage for contraceptive care.

122a
Accordingly, the states have shown that the threat
to their economic interest is reasonably probable, and
they have established a procedural injury. Cf. East
Bay Sanctuary Covenant v. Trump, No. 18-17274, 2018
WL 6428204, at *12 n.8 (9th Cir. Dec. 7, 2018) (order)
(holding that the plaintiffs “have adequately identified
concrete interests impaired by the Rule and thus have
standing to challenge the absence of notice-and-comment
procedures in promulgating it”). “[T]he causation and
redressability requirements are relaxed” once a plaintiff
has established a procedural injury, Citizens for Better
Forestry, 341 F.3d at 975 (quoting Pub. Citizen v. Dep’t
of Transp., 316 F.3d 1002, 1016 (9th Cir. 2003)), and both
requirements are met here. The injury asserted is
traceable to the agencies’ issuing the IFRs allegedly in
violation of the APA’s requirements, and granting an injunction would prohibit enforcement of the IFRs. The
states have thus established standing.1
The dissent raises a theory not advanced by any
party. According to the dissent, the states’ economic
injuries, if any, will be self-inflicted because the states
voluntarily chose to provide money for contraceptive

In addition to establishing constitutional standing, “[a] plaintiff
must also satisfy the non-constitutional standing requirements of
the statute under which [it] seeks to bring suit.” City of Sausalito,
386 F.3d at 1199. In a single sentence, Little Sisters argues that
the states lack statutory standing. This argument is waived. See
Greenwood v. FAA, 28 F.3d 971, 977 (9th Cir. 1994) (“We review only
issues which are argued specifically and distinctly in a party’s opening brief . . . [and a] bare assertion does not preserve a claim”
(citation omitted)); Bilyeu v. Morgan Stanley Long Term Disability
Plan, 683 F.3d 1083, 1090 (9th Cir. 2012) (holding that “statutory
standing may be waived”).
1

123a
care to its residents through state programs. The dissent argues that the states lack standing because such
“self-inflicted” injuries are not traceable to the agencies’
conduct, citing Pennsylvania v. New Jersey, 426 U.S.
660 (1976) (per curiam). In Pennsylvania, the plaintiff
states challenged other states’ laws that increased taxes
on nonresident income. 426 U.S. at 662-63. The plaintiff states provided tax credits to their residents for taxes
paid to other states. Id. at 662. Accordingly, the defendant states’ tax increases also increased the amount
of tax credits provided by the plaintiff states, and the
plaintiff states lost revenue. Id. In denying leave to
file bills of complaint invoking the Supreme Court’s
original jurisdiction, the Court held that the plaintiff
states could not “demonstrate that the injury for which
[they sought] redress was directly caused by the actions
of another State” because the injuries to the plaintiff
states’ fiscs “were self-inflicted . . . and nothing prevents [them] from withdrawing [the] credit for taxes
paid to [defendant states].” Id. at 664.
We question whether the holding of Pennsylvania
applies outside the specific requirements for the invocation of the Supreme Court’s original jurisdiction. Courts
regularly entertain actions brought by states and municipalities that face economic injury, even though those
governmental entities theoretically could avoid the injury by enacting new legislation. See, e.g., South Dakota v. Dole, 483 U.S. 203 (1987) (addressing South Dakota’s challenge to highway funding conditioned on a
minimum drinking age, even though South Dakota could
have avoided the injury by changing its minimum drinking
age); Gladstone Realtors v. Village of Bellwood, 441 U.S.
91, 110-11 (1979) (holding that a municipality suffered
an injury from a reduction in its property tax base, even

124a
though nothing required the municipality to impose property taxes). But we need not decide whether Pennsylvania’s “self-infliction” doctrine applies to the ordinary
injury-in-fact requirement of Article III standing because, as explained below, the injury here is not “selfinflicted” within the meaning of Pennsylvania.
The Supreme Court later held, in Wyoming v. Oklahoma, that Wyoming had standing to challenge an Oklahoma statute that decreased Wyoming’s revenue—
from tax on coal mined in Wyoming—by requiring Oklahoma power plants to burn at least 10% Oklahomamined coal. 502 U.S. 437, 447-48 (1992). The Court
highlighted that Wyoming suffered a “direct injury in
the form of a loss of specific tax revenues” from the reduced demand for Wyoming coal caused by the Oklahoma statute. Id. at 448.
Both Pennsylvania and Wyoming involved harm to
the plaintiff states’ fiscs that were, as described by the
dissent, “self-inflicted.” What distinguishes the two
cases, and what caused the Supreme Court to reach different results, is that the plaintiff states’ laws in Pennsylvania directly and explicitly tied the states’ finances
(revenue loss caused by tax credit) to another sovereign’s laws (other states’ taxes on nonresident income).
See Maryland v. Louisiana, 451 U.S. 725, 742 n.18
(1981) (“In Pennsylvania, the only reason that the complaining States were denied tax revenues was because
their legislatures had determined to give a credit for
taxes paid to other States, and, to this extent, any injury
was voluntarily suffered”). Wyoming did not involve
such state laws; the tax on Wyoming-mined coal was not
so tethered to the legislative decisions of other sovereigns. The same is true of the contraceptive coverage

125a
laws of the plaintiff states here. Accordingly, we are
not convinced that Pennsylvania controls in this case.
Cf. Texas v. United States, 809 F.3d 134, 158-59 (5th Cir.
2015), as revised (Nov. 25, 2015); Texas v. United States,
787 F.3d 733, 749 n.34 (5th Cir. 2015).
D.
We affirm the preliminary injunction insofar as it
bars enforcement of the IFRs in the plaintiff states, but
we otherwise vacate the portion of the injunction barring enforcement in other states. The scope of the injunction is overbroad.
A preliminary injunction is a matter of equitable discretion and is “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v. NRDC, 555 U.S. 7, 22
(2008) (citation omitted). “A party can obtain a preliminary injunction by showing that (1) it is ‘likely to succeed on the merits,’ (2) it is ‘likely to suffer irreparable
harm in the absence of preliminary relief,’ (3) ‘the balance of equities tips in [its] favor,’ and (4) ‘an injunction is in the public interest.’ ” Disney Enters., Inc. v.
VidAngel, Inc., 869 F.3d 848, 856 (9th Cir. 2017) (alteration in original) (quoting Winter, 555 U.S. at 20). When
the government is a party, the last two factors merge.
Drakes Bay Oyster Co. v. Jewell, 747 F.3d 1073, 1092
(9th Cir. 2014).
1.
Likelihood of success on the merits is “the most important” factor; if a movant fails to meet this “threshold
inquiry,” we need not consider the other factors. Disney, 869 F.3d at 856 (citation omitted). The district

126a
court held that the states are likely to succeed on the
merits of their APA claim. We agree.
The APA requires that, prior to promulgating rules,
an agency must issue a general notice of proposed rulemaking, 5 U.S.C. § 553(b), and “give interested persons
an opportunity to participate in the rule making through
submission of written data, views or arguments,” id.
§ 553(c). A court must set aside rules made “without
observance of [this] procedure.” Id. § 706(2)(D). Again,
the parties do not dispute that the religious and moral
exemption IFRs were issued without notice and comment. The only remaining issue is whether prior notice
and comment was not required because an exception to
this rule applied.
Exceptions to notice and comment rulemaking “are
not lightly to be presumed.” Marcello v. Bonds, 349 U.S.
302, 310 (1955). “[I]t is antithetical to the structure
and purpose of the APA for an agency to implement a
rule first, and then seek comment later.” Paulsen v.
Daniels, 413 F.3d 999, 1005 (9th Cir. 2005). Failure to
follow notice and comment rulemaking may be excused
when good cause exists, 5 U.S.C. § 553(b)(B); when a
subsequent statute authorizes it, id. § 559; and when it
is harmless, id. § 706. Appellants argue that each of
these three exceptions applies here.
We begin by examining whether the agencies had good
cause for bypassing notice and comment. An agency
may “for good cause find[] . . . that notice and public procedure thereon are impracticable, unnecessary, or
contrary to the public interest.” 5 U.S.C. § 553(b)(B).
“[T]he good cause exception goes only as far as its name
implies: It authorizes departures from the APA’s requirements only when compliance would interfere with

127a
the agency’s ability to carry out its mission.” Riverbend
Farms, Inc. v. Madigan, 958 F.2d 1479, 1485 (9th Cir.
1992). Good cause is to be “narrowly construed and only
reluctantly countenanced.” Alcaraz v. Block, 746 F.2d
593, 612 (9th Cir. 1984) (citation omitted). As such, the
good cause exception is usually invoked in emergencies,
and an agency must “overcome a high bar” to do so.
United States v. Valverde, 628 F.3d 1159, 1164-65 (9th Cir.
2010). Because good cause is determined on a “case-bycase” basis, based on “the totality of the factors at play,”
Valverde, 628 F.3d at 1164 (quoting Alcaraz, 746, F.2d
at 612), prior invocations of good cause to justify different IFRs—the legality of which are not challenged here—
have no relevance.2
In the past, we have acknowledged good cause where
the agency cannot “both follow section 553 and execute
its statutory duties.” Riverbend, 958 F.2d at 1484 n.2
(quoting Levesque v. Block, 723 F.2d 175, 184 (1st Cir.
1983)). We have also acknowledged good cause where
“ ‘delay would do real harm’ to life, property, or public safety.” East Bay Sanctuary Covenant, 2018 WL
6428204, at *20 (quoting Valverde, 628 F.3d at 1165); see
also Haw. Helicopter Operators Ass’n v. FAA, 51 F.3d
212, 214 (9th Cir. 1995) (good cause shown based on
threat reflected in an increasing number of helicopter
accidents); Jifry v. FAA, 370 F.3d 1174, 1179 (D.C. Cir.
2004) (upholding good cause determination that the rule

The Little Sisters argue that if the court invalidates the IFRs
here, the court must also invalidate prior ones related to the exemption and accommodation. This argument is unpersuasive. Whether
or not those IFRs were promulgated with good cause, they are not
before us at this time.
2

128a
was “necessary to prevent a possible imminent hazard to
aircraft, persons, and property within the United States”).
The agencies here determined that “it would be impracticable and contrary to the public interest to engage
in full notice and comment rulemaking before putting
these [IFRs] into effect.” See, e.g., 82 Fed. Reg. at
47,815; see also 82 Fed. Reg. at 47,856. They recited
the immediate need to (1) reduce the legal and regulatory uncertainty regarding the accommodation in the
wake of Zubik, (2) eliminate RFRA violations by reducing the burden on religious beliefs of objecting employers,
and (3) reduce the costs of health insurance. 3 82 Fed.
Reg. at 47,813-15; 82 Fed. Reg. at 47,855-56. These
general policy justifications are insufficient to establish
good cause.
First, an agency’s desire to eliminate more quickly
legal and regulatory uncertainty is not by itself good
cause. See Valverde, 628 F.3d at 1167 (concluding that
an agency’s “interest in eliminating uncertainty does not
justify its having sought to forego notice and comment”).
“If ‘good cause’ could be satisfied by an Agency’s assertion that ‘normal procedures were not followed because
of the need to provide immediate guidance and information[,] . . . then an exception to the notice requirement would be created that would swallow the rule.’ ”
Id. (alterations in original) (quoting Zhang v. Slattery,
Little Sisters argues that the agencies had good cause because
the prior regulatory regime violated the Free Exercise Clause and
the Establishment Clause. This assertion was not part of the agencies’ original good cause findings, and we may not consider it now.
See Motor Vehicles Mfrs. Ass’n of U.S., Inc. v. State Farm Mut.
Auto. Ins. Co., 463 U.S. 29, 50 (1983) (“[A]n agency’s action must be
upheld, if at all, on the basis articulated by the agency itself ”).
3

129a
55 F.3d 732, 746 (2d Cir. 1995)); see also Envtl. Def.
Fund, Inc. v. EPA, 716 F.2d 915, 920-21 (D.C. Cir. 1983)
(“[I]t was not at all reasonable for [the agency] to rely
on the good cause exception” simply because of “an alleged pressing need to avoid industry compliance with
regulations that were to be eliminated”). Furthermore, the agencies’ request for post-promulgation comments in issuing the IFRs “casts further doubt upon the
authenticity and efficacy of the asserted need to clear up
potential uncertainty,” Valverde, 628 F.3d at 1166, because allowing for post-promulgation comments implicitly suggests that the rules will be reconsidered and that
the “level of uncertainty is, at best, unchanged,” United
States v. Reynolds, 710 F.3d 498, 510 (3d Cir. 2013) (citing United States v. Johnson, 632 F.3d 912, 929 (5th Cir.
2011)). This explanation therefore fails. It is always
the case that an agency can regulate—or in this case,
de-regulate—faster by issuing an IFR without notice
and comment.
Second, we of course acknowledge that eliminating
RFRA violations by reducing the burden on religious
beliefs is an important consideration for the agencies.
Any delay in rectifying violations of statutory rights has
the potential to do real harm. See Buschmann v.
Schweiker, 676 F.2d 352, 357 (9th Cir. 1982) (“The notice
and comment procedures in Section 553 should be waived
only when delay would do real harm”). Whether the
accommodation actually violates RFRA is a question left
open by the Supreme Court. 4 See Zubik, 136 S. Ct. at

Before Zubik, eight courts of appeals (of the nine to have considered the issue) have found that the regulatory regime in place prior
to the IFRs did not impose a substantial burden on religious exercise
4

130a
1560. But we need not determine whether there is a
RFRA violation here because, even if immediately remedying the RFRA violation constituted good cause, the
agencies’ reliance on this justification was not a reasoned decision based on findings in the record. See
Valverde, 628 F.3d at 1165, 1168 (agencies must provide
“rational justification” and identify “rational connection
between the facts found and the choice made to promulgate the interim rule” (internal quotation marks and citation omitted)). In January 2017, the agencies explicitly declined to change the accommodation in light of Zubik and RFRA. They then let nine months go by and
failed to specify what developments necessitated the
agencies to change their position and determine, in October 2017, that RFRA violations existed. Cf. id. at
1166 (reasoning that agency finding of urgent need was
inadequate when agency had allowed seven months to
pass without action). The agencies provided no explanation, legal or otherwise, for their changed understanding. Cf. Encino Motorcars, LLC v. Navarro, 136 S. Ct.
2117, 2125-26 (2016) (holding that an agency’s unexplained change in position does not warrant deference);
East Bay Sanctuary Covenant, 2018 WL 6428204, at *20
(concluding that “speculative” reasoning is insufficient
to support good cause). The IFRs are devoid of any findings related to the issue. Indeed, the agencies cited no
intervening legal authority for their justification, in contrast to when they issued an IFR in light of Wheaton.
Given these failures, the agency action cannot be upheld
on unexplained about-face.

under RFRA. See, e.g., E. Tex. Baptist Univ. v. Burwell, 793 F.3d
449 (5th Cir. 2015), vacated, Zubik, 136 S. Ct. at 1561.

131a
The agencies further argue that the new IFRs will
decrease insurance costs for entities remaining on more
expensive grandfathered plans—which are exempt from
the contraceptive coverage requirement—to avoid becoming subject to the requirement. 82 Fed. Reg. at
47,815; 82 Fed. Reg. at 47,855-56. This is speculation
unsupported by the administrative record and is not sufficient to constitute good cause. See Valverde, 628 F.3d
at 1167 (“[C]onclusory speculative harms the [agency]
cites are not sufficient” (citation omitted)).
We also highlight that there was no urgent deadline
to issue the IFRs that interfered with the agencies from
complying with the APA. 5 Congress had not imposed a
deadline here on agency decisionmaking that interfered
with compliance.
The President’s executive order
merely asks the agencies to “consider issuing amended
regulations, consistent with applicable law, to address
conscience-based objections to the preventive-care mandate.” 82 Fed. Reg. at 21,675. Neither did the Supreme
Court mandate any deadline when it remanded the last
challenge to the accommodation in order to give parties
“an opportunity to arrive at an approach going forward.”
Zubik, 136 S. Ct. at 1560.
The agencies cite two cases in support of their good
cause claim: Priests For Life v. U.S. Dep’t of Health &
Human Servs., 772 F.3d 229 (D.C. Cir. 2014), vacated
and remanded sub nom. Zubik, 136 S. Ct. at 1557; and
We also point out that the agencies have not displayed urgency
in reaching final resolution of this case. After filing this appeal
from the district court’s order granting a preliminary injunction, the
agencies filed a stipulation staying further district court proceedings
pending resolution of the appeal. Before the district court, this
case has remained in abeyance for nearly a year.
5

132a
Serv. Employees Int’l Union, Local 102 v. Cty. of San
Diego, 60 F.3d 1346 (9th Cir. 1994). Both are distinguishable. The D.C. Circuit in Priests for Life rejected
the plaintiffs’ argument that the government lacked good
cause to promulgate IFRs without notice and comment.
772 F.3d at 276-77. In so holding, it emphasized that
the IFRs modified existing regulations that “were recently enacted pursuant to notice and comment rulemaking, and presented virtually identical issues” as the
challenged IFRs. Id. at 276 (emphasis added); see also
id. (describing the modifications in the new IFRs as “minor”). The IFRs here do not present minor changes.
They substantially expanded the categorical exemption
and effectively made accommodations voluntary. The
IFRs also introduced an entirely new moral exemption
that had never been the subject of previous regulations.
These substantial changes came after the agencies previously determined that no change to the religious accommodation process was needed in light of RFRA. In
Serv. Employees Int’l Union, we held that resolving
uncertainty caused by conflicting judicial decisions is
sufficient good cause. 60 F.3d at 1352 n.3. In that
case, resolving uncertainty was sufficient because the
agencies found that conflicting decisions were poised to
cause “enormous” and “unforeseen” financial liability
“threaten[ing] [the] fiscal integrity” of state and local
governments. Id. When issuing the IFRs here, the
agencies cited no such comparable financial threat.
Accordingly, based on the totality of the circumstances, the agencies likely did not have good cause for
bypassing notice and comment.
We next turn to whether the agencies had statutory
authority for bypassing notice and comment. The APA

133a
cautions “that no subsequent statute shall be deemed to
modify it ‘except to the extent that it does so expressly.’ ”
Castillo-Villagra v. INS, 972 F.2d 1017, 1025 (9th Cir.
1992) (quoting 5 U.S.C. § 559); see also Asiana Airlines
v. FAA, 134 F.3d 393, 397 (D.C. Cir. 1998) (defining the
inquiry as “whether Congress has established procedures so clearly different from those required by the
APA that it must have intended to displace the norm”).
The agencies point to three statutory provisions enacted
as part of the Health Insurance Portability and Accountability Act of 1996 (HIPAA). These provisions specify:
The Secretary, consistent with section 104 of the
Health [Insurance] Portability and Accountability
Act of 1996, may promulgate such regulations as may
be necessary or appropriate to carry out the provisions of this subchapter. The Secretary may promulgate any interim final rules as the Secretary determines are appropriate to carry out this subchapter.
26 U.S.C. § 9833; 29 U.S.C. § 1191c; 42 U.S.C. § 300gg-92.
When enacting the ACA, Congress codified the contraceptive coverage requirement in the same chapters of
the United States Code as those provisions. The agencies argue that the provisions authorize them to issue
IFRs implementing the ACA without notice and comment.
Their argument likely fails. The identified provisions authorize agencies to issue IFRs, but they are silent as to any required procedure for issuing an IFR.
They do not provide that notice and comment is supplanted or that good cause is no longer required. They
neither contain express language exempting agencies
from the APA nor provide alternative procedures that
could reasonably be understood as departing from the
APA. See Castillo-Villagra, 972 F.2d at 1025 (holding

134a
that a subsequent statute must “expressly” modify the
APA). These provisions thus stand in contrast to other
provisions that we have found to be express abdications
of the APA. See, e.g, id. (holding that APA was supplanted by statute that stated “the procedure so prescribed shall be the sole and exclusive procedure for determining the deportability of an alien under this section” (internal quotation marks omitted)); Methodist
Hosp. of Sacramento v. Shalala, 38 F.3d 1225, 1236 n.18
(D.C. Cir. 1994) (holding that APA was supplanted by
statute that stated “[t]he Secretary shall cause to be
published in the Federal Register a notice of the interim
final DRG prospective payment rates” (emphasis added)).
The agencies insist that we must read HIPAA’s use
of the word “interim” as singlehandedly authorizing the
agencies to issue IFRs without notice and comment
whenever the agencies deem it appropriate. Otherwise, the agencies warn, we will be rendering superfluous the second sentence of the quoted provisions. We
disagree.
The first sentence of the quoted provisions authorizes the issuance of regulations “consistent with section
104 of the Health [Insurance] Portability and Accountability Act of 1996.” Section 104 of HIPAA, entitled
“Assuring Coordination,” generally requires the three
Secretaries to coordinate their regulations and policies. 6

6

Section 104 states:
The Secretary of the Treasury, the Secretary of Health and
Human Services, and the Secretary of Labor shall ensure,
through the execution of an interagency memorandum of understanding among such Secretaries that—

135a
Notably, the second sentence of the quoted provisions
does not contain the same consistency requirement;
each Secretary is authorized to issue IFRs without ensuring consistency with the rules of his or her partner
Secretaries. Reading both sentences together, Congress authorized the Secretaries to issue coordinated final rules in the ordinary course; and, if a Secretary met
an inter-agency impasse but needed to regulate within
his or her own domain temporarily while sorting out the
inter-agency conflict, then a Secretary could issue an interim final rule. In this procedural posture, we need
not delimit the full scope of the second sentence of the
quoted provisions. For present purposes, it suffices to
observe that we need not give the second sentence the
agencies’ expansive interpretation in order for the second sentence to retain independent effect.
Accordingly, the agencies likely did not have statutory authority for bypassing notice and comment.
We last turn to whether bypassing notice and comment was harmless. The court “must exercise great
caution in applying the harmless error rule in the administrative rulemaking context.” Riverbend, 958 F.2d at
(1) regulations, rulings, and interpretations issued by such
Secretaries relating to the same matter over which two or
more such Secretaries have responsibility under this subtitle
(and the amendments made by this subtitle and section 401)
are administered so as to have the same effect at all times; and
(2) coordination of policies relating to enforcing the same requirements through such Secretaries in order to have a coordinated enforcement strategy that avoids duplication of enforcement efforts and assigns priorities in enforcement.
Pub. L. No. 104-191, § 401, 110 Stat. 1976 (codified at 42 U.S.C.
§ 300gg-92 note).

136a
1487. “[T]he failure to provide notice and comment is
harmless only where the agency’s mistake ‘clearly had
no bearing on the procedure used or the substance of
decision reached.’ ” Id. (quoting Sagebrush Rebellion,
Inc. v. Hodel, 790 F.2d 760, 764-65 (9th Cir. 1986)).
The circumstances here are similar to those in Paulsen,
413 F.3d at 1006. There, the Bureau of Prisons “failed
to provide the required notice-and-comment period before effectuating [an] interim regulation, thereby precluding public participation in the rulemaking.” Id. We
held the error not harmless because “petitioners received
no notice of any kind until after the Bureau made the
. . . interim rule effective.” Id. at 1007. We further
emphasized that “an opportunity to protest an alreadyeffective rule” did not render the violation harmless. Id.
(emphasis added). We distinguished from prior cases
where “interested parties received some notice that sufficiently enabled them to participate in the rulemaking
process before the relevant agency adopted the rule.”
Id. (citing cases). The agencies’ actions here are analogous. No members of the public received notice of the
IFRs or were able to comment prior to their effective
dates.
Appellants argue that the states “were afforded multiple opportunities to comment on the scope of the exemption and accommodation during multiple rounds of
rulemaking.” These “opportunities” refer to public comment on prior rules regarding the religious exemption
and accommodation. Appellants’ argument does not
convince us. As previously discussed, those prior rules
were materially different from the IFRs here, which
dramatically expanded the scope of the religious exemption and introduced a moral exemption that was not the

137a
subject of any previous round of notice and comment
rulemaking. The public had no such notice or opportunity to comment on these potential changes, thus
denying it the safeguards of the notice and comment
procedure. This denial is comparable to failing to provide prior notice and comment before finalizing a rule
that is not a “logical outgrowth” of the proposed rule,
which an agency may not do without considering
“whether a new round of notice and comment would provide the first opportunity for interested parties to offer
comments that could persuade the agency to modify its
rule.” NRDC v. EPA, 279 F.3d 1180, 1186 (9th Cir.
2002) (citation omitted); see also CSX Transp., Inc. v.
Surface Transp. Bd., 584 F.3d 1076, 1081 (D.C. Cir. 2009)
(holding that notice of a proposed rule is sufficient to uphold a final rule if interested parties “should have anticipated” the content of the rule). Accordingly, the prior
“opportunities” are irrelevant.
The agencies argue that the states have failed to
identify any specific comment that they would have submitted. There is no such requirement for harmless error analysis. The agencies also argue that the states
had an opportunity to comment on the IFRs post-issuance
and that the agencies will consider the comments before
issuing final rules. This argument also fails. “The
key word in the title ‘Interim Final Rule’ . . . is not
interim, but final. ‘Interim’ refers only to the Rule’s
intended duration—not its tentative nature.” Career
Coll. Ass’n v. Riley, 74 F.3d 1265, 1268 (D.C. Cir. 1996).
We reiterate that “an opportunity to protest an alreadyeffective rule” does not render an APA violation harmless. Paulsen, 413 F.3d at 1007 (emphasis added).

138a
Accordingly, bypassing notice and comment likely
was not harmless.
2.
A plaintiff seeking preliminary relief must “demonstrate that irreparable injury is likely in the absence of
an injunction.” Winter, 555 U.S. at 22 (emphasis omitted). The analysis focuses on irreparability, “irrespective of the magnitude of the injury.” Simula, Inc. v.
Autoliv, Inc., 175 F.3d 716, 725 (9th Cir. 1999).
The district court concluded that the states are likely
to suffer irreparable harm absent an injunction. This
decision was not an abuse of discretion. As discussed
in our standing analysis, it is reasonably probable that
the states will suffer economic harm from the IFRs.
Economic harm is not normally considered irreparable.
L.A. Mem’l Coliseum Comm’n v. Nat’l Football League,
634 F.2d 1197, 1202 (9th Cir. 1980). However, such harm
is irreparable here because the states will not be able to
recover monetary damages connected to the IFRs. See
5 U.S.C. § 702 (permitting relief “other than money
damages”); see also Cottonwood Envtl. Law Ctr. v. U.S.
Forest Serv., 789 F.3d 1075, 1091 (9th Cir. 2015) (reaffirming that the harm flowing from a procedural violation can be irreparable). That the states promptly filed
an action following the issuance of the IFRs also weighs
in their favor. Cf. Oakland Tribune, Inc. v. Chronicle
Publ’g Co., Inc., 762 F.2d 1374, 1377 (9th Cir. 1985)
(“Plaintiff ’s long delay before seeking a preliminary injunction implies a lack of urgency and irreparable harm”).
Again, appellants argue that the economic harm is
speculative, which “does not constitute irreparable in-

139a
jury sufficient to warrant granting a preliminary injunction.” See Boardman v. Pac. Seafood Grp., 822 F.3d
1011, 1022 (9th Cir. 2016) (citation omitted). As we
previously explained in our analysis of standing, the
harm is not speculative; it is sufficiently concrete and
supported by the record. Appellants also dispute the
factual findings underlying the district court’s holding
of irreparable harm, but again fail to explain how the
district court erred under our standard of review.
3.
Because the government is a party, we consider the
balance of equities and the public interest together.
Jewell, 747 F.3d at 1092.
The IFRs are an attempt to balance states’ interest
in “ensuring coverage for contraceptive and sterilization
services” with appellants’ interest in “provid[ing] conscience protections for individuals and entities with sincerely held religious [or moral] beliefs in certain health
care contexts.” 82 Fed. Reg. at 47,793. The district
court concluded that the balance of equities and the public interest tip in favor of granting the preliminary injunction. The district court did not abuse its discretion.
The public interest is served by compliance with the
APA: “The APA creates a statutory scheme for informal or notice-and-comment rulemaking reflecting a judgment by Congress that the public interest is served by a
careful and open review of proposed administrative rules
and regulations.” Alcaraz, 746 F.2d at 610 (internal
quotation marks and citation omitted). It does not matter that notice and comment could have changed the substantive result; the public interest is served from proper
process itself. Cf. Citizens for Better Forestry, 341 F.3d

140a
at 976 (stating, in standing context, that “[i]t suffices
that the agency’s decision could be influenced” by public
participation (alterations and citation removed) (emphasis in original)). The district court additionally found
that the states face “potentially dire public health and
fiscal consequences as a result of a process as to which
they had no input” and highlighted the public interest in
access to contraceptive care. This finding is sufficiently
supported by the record.
We acknowledge that free exercise of religion and conscience is undoubtedly, fundamentally important. Regardless of whether the accommodation violates RFRA,
some employers have sincerely-held religious and moral
objections to the contraceptive coverage requirement.
Cf. Jolly v. Coughlin, 76 F.3d 468, 482 (2d Cir. 1996)
(“[A]lthough the plaintiff ’s free exercise claim is statutory rather than constitutional, the denial of the plaintiff ’s right to the free exercise of his religious beliefs is
a harm that cannot be adequately compensated monetarily”). Protecting religious liberty and conscience is
obviously in the public interest. However, balancing
the equities is not an exact science. See also Youngstown Sheet & Tube Co. v. Sawyer, 343 U.S. 579, 609
(1952) (Frankfurter, J., concurring) (“Balancing the equities . . . is lawyers’ jargon for choosing between
conflicting public interests”). We do not have a sufficient basis to second guess the district court and to conclude that its decision was illogical, implausible, or without support in the record. Finalizing that issue must
await any appeal from the district court’s future determination of whether to issue a permanent injunction.

141a
E.
The district court enjoined enforcement of the IFRs
nationwide because the agencies “did not violate the APA
just as to Plaintiffs: no member of the public was permitted to participate in the rulemaking process via advance notice and comment.” The district court abused
its discretion in granting a nationwide injunction. See
Stormans, Inc. v. Selecky, 586 F.3d 1109, 1140 (9th Cir.
2009) (“[A]n overbroad injunction is an abuse of discretion” (quoting Lamb-Weston, Inc. v. McCain Foods,
Ltd., 941 F.2d 970, 974 (9th Cir. 1991)). We vacate the
portion of the injunction barring enforcement of the
IFRs in non-plaintiff states.
Crafting a preliminary injunction is “an exercise of
discretion and judgment, often dependent as much on
the equities of a given case as the substance of the legal
issues it presents.” Trump v. Int’l Refugee Assistance
Project, 137 S. Ct. 2080, 2087 (2017). “The purpose of
such interim equitable relief is not to conclusively determine the rights of the parties but to balance the equities as the litigation moves forward.” Id. (citation
omitted). Although “there is no bar against . . . nationwide relief in federal district court or circuit court,”
such broad relief must be “necessary to give prevailing
parties the relief to which they are entitled.” Bresgal
v. Brock, 843 F.2d 1163, 1170-71 (9th Cir. 1987) (emphasis in original removed in part); see also Califano v. Yamasaki, 442 U.S. 682, 702 (1979) (“[I]njunctive relief
should be no more burdensome to the defendant than
necessary to provide complete relief to the plaintiffs” before the court). This rule applies with special force where

142a
there is no class certification. 7 See Easyriders Freedom F.I.G.H.T. v. Hannigan, 92 F.3d 1486, 1501 (9th Cir.
1996) (“[I]njunctive relief generally should be limited to
apply only to named plaintiffs where there is no class
certification”).
Before we examine the scope of the injunction here,
we highlight several concerns associated with overbroad
injunctions, particularly nationwide ones. Our concerns
underscore the exercise of prudence before issuing such
an injunction. First, “nationwide injunctive relief may
be inappropriate where a regulatory challenge involves
important or difficult questions of law, which might benefit from development in different factual contexts and
in multiple decisions by the various courts of appeals.”
L.A. Haven Hospice, Inc. v. Sebelius, 638 F.3d 644, 664
(9th Cir. 2011). The Supreme Court has repeatedly
emphasized that nationwide injunctions have detrimental
consequences to the development of law and deprive appellate courts of a wider range of perspectives. See
Califano, 442 U.S. at 702 (highlighting that nationwide
injunctions “have a detrimental effect by foreclosing adjudication by a number of different courts and judges”);
United States v. Mendoza, 464 U.S. 154, 160 (1984) (concluding that allowing nonmutual collateral estoppel
against the government would “substantially thwart the
development of important questions of law by freezing
the first final decision rendered on a particular legal issue” and “deprive [the Supreme] Court of the benefit it
Indeed, Congress has recently proposed a bill that would prohibit injunctions involving non-parties “unless the non-party is represented by a party acting in a representative capacity pursuant
to the Federal Rules of Civil Procedure.” H.R. 6730, 115th Cong.
(2018)
7

143a
receives from permitting several courts of appeals to explore a difficult question before [the Supreme] Court
grants certiorari”); Arizona v. Evans, 514 U.S. 1, 23 n.1
(1995) (Ginsburg, J., dissenting) (“We have in many instances recognized that when frontier legal problems
are presented, periods of ‘percolation’ in, and diverse
opinions from, state and federal appellate courts may
yield a better informed and more enduring final pronouncement by this Court”).
The detrimental consequences of a nationwide injunction are not limited to their effects on judicial decisionmaking. There are also the equities of non-parties who are
deprived the right to litigate in other forums. See Zayn
Siddique, Nationwide Injunctions, 117 Colum. L. Rev.
2095, 2125 (2017) (“A plaintiff may be correct that a particular agency action is unlawful or unduly burdensome,
but remedying this harm with an overbroad injunction
can cause serious harm to nonparties who had no opportunity to argue for more limited relief ”). Short of intervening in a case, non-parties are essentially deprived
of their ability to participate, and these collateral consequences are not minimal. Nationwide injunctions are
also associated with forum shopping, which hinders the
equitable administration of laws. See Samuel L. Bray,
Multiple Chancellors: Reforming the National Injunction, 131 Harv. L. Rev. 417, 458-59 (2017) (citing five nationwide injunctions issued by Texas district courts in
just over a year).
These consequences are magnified where, as here,
the district court stays any effort to prepare the case for
trial pending the appeal of a nationwide preliminary injunction. We have repeatedly admonished district courts
not to delay trial preparation to await an interim ruling

144a
on a preliminary injunction. See, e.g., Melendres v. Arpaio, 695 F.3d 990, 1002-03 (9th Cir. 2012); Global Horizons, Inc. v. U.S. Dep’t of Labor, 510 F.3d 1054, 1058
(9th Cir. 2007). “Because of the limited scope of our
review of the law applied by the district court and because the fully developed factual record may be materially different from that initially before the district court,
our disposition of appeals from most preliminary injunctions may provide little guidance as to the appropriate
disposition on the merits.” Id. at 1003 (quoting Sports
Form, Inc. v. United Press Int’l, Inc., 686 F.2d 750, 753
(9th Cir. 1982)). The district court here failed to give
any particular reason for the stay, 8 and this case could
have well proceeded to a disposition on the merits without the delay in processing the interlocutory appeal.
“Given the purported urgency of ” implementing the
IFRs, the agencies and intervenors might “have been
better served to pursue aggressively” its defense of
the IFRs in the district court, “rather than apparently
awaiting the outcome of this appeal.” Global Horizons,
510 F.3d at 1058.
In light of these concerns, we now address the preliminary injunction issued here. The scope of the remedy must be no broader and no narrower than necessary
to redress the injury shown by the plaintiff states. The
plaintiff states argue that complete relief to them would
require enjoining the IFRs in all of their applications
nationwide. That is not necessarily the case. See L.A.
Haven Hospice, 638 F.3d at 665 (vacating the nationwide portion of an injunction barring the enforcement of
The district court stayed the case pending the outcome of this
appeal based on the parties’ stipulation. The order staying the case
provides no other justification or analysis supporting the stay.
8

145a
a facially invalid regulation); City & Cty. of San Francisco v. Trump, 897 F.3d 1225, 1244-45 (9th Cir. 2018)
(vacating nationwide portion of injunction barring enforcement of executive order). The scope of an injunction is “dependent as much on the equities of a given
case as the substance of the legal issues it presents,” and
courts must tailor the scope “to meet the exigencies of
the particular case.” Int’l Refugee Assistance Project,
137 S. Ct. at 2087 (citations omitted). The circumstances
of this case dictate a narrower scope.
On the present record, an injunction that applies only
to the plaintiff states would provide complete relief to
them. It would prevent the economic harm extensively
detailed in the record. Indeed, while the record before
the district court was voluminous on the harm to the
plaintiffs, it was not developed as to the economic impact
on other states. See City & Cty. of San Francisco,
897 F.3d at 1231, 1244-45 (holding that the district court
abused its discretion in issuing a nationwide injunction
because the plaintiffs’ “tendered evidence is limited to
the effect of the Order on their governments and the
State of California” and because “the record is not sufficiently developed on the nationwide impact of the Executive Order”). The injunction must be narrowed to redress only the injury shown as to the plaintiff states. 9

Appellants did not clearly raise other arguments in support of a
narrower injunction, including the potential for “substantial interference with another court’s sovereignty,” United States v. AMC
Entm’t, Inc., 549 F.3d 760, 770 (9th Cir. 2008), and the lack of need
for courts to apply the law uniformly. Accordingly, we do not address them.
9

146a
Accordingly, we conclude that the scope of the preliminary injunction is overbroad and that the district
court abused its discretion in that regard. District
judges must require a showing of nationwide impact or
sufficient similarity to the plaintiff states to foreclose litigation in other districts, from Alaska to Puerto Rico to
Maine to Guam.
IV.
We affirm that venue is proper in the Northern District of California. We affirm that the plaintiff states
have standing to sue. Although we affirm the preliminary injunction, the record does not support the injunction’s nationwide scope. We vacate the portion of the
injunction barring enforcement of the IFRs in other
states and remand to the district court. This panel will
retain jurisdiction for any subsequent appeals arising
from this case. Costs on appeal are awarded to PlaintiffsAppellees. The mandate shall issue forthwith.
AFFIRMED IN PART, VACATED IN PART, and
REMANDED.

147a
KLEINFELD, Senior Circuit Judge, dissenting:
I respectfully dissent. The plaintiff state governments lack standing, so the district court lacked jurisdiction. The reason they lack standing is that their injury is what the Supreme Court calls “self-inflicted,” because it arises solely from their legislative decisions to
pay these moneys. Under the Supreme Court’s decision in Pennsylvania v. New Jersey,1 we are compelled
to reverse.
Pennsylvania sued New Jersey on the theory that a
new New Jersey tax law caused the Pennsylvania fisc to
collect less money. 2 Pennsylvania granted a tax credit
for income taxes paid to other states, and New Jersey
under its new tax law had begun taxing the New Jerseyderived income of nonresidents. 3 Maine, Massachusetts, and Vermont sued New Hampshire on similar
grounds.4 The concrete financial injury was plain in all
these cases. Like the plaintiff states’ injury in the case
before us, the reason why was the plaintiff states’ laws. 5
The Court in Pennsylvania invoked the long established principle that under Massachusetts v. Missouri,6
the injuries for which redress was sought had to be “directly caused” by the defendant states. 7 They were
held not to be “directly caused” in Pennsylvania, because the monetary losses resulted from the plaintiff
1
2
3
4
5
6
7

426 U.S. 660 (1976) (per curiam).
Id. at 662.
Id. at 663.
Id.
Id.
308 U.S. 1, 15 (1939).
Pennsylvania, 426 U.S. at 664.

148a
states’ own laws.8 Though it was undisputed that the
defendant states’ tax schemes had cost the plaintiff states
money, the defendant states were held not to have “inflicted any injury,” 9 because the monetary harms were
“self-inflicted:”10
The injuries to the plaintiffs’ fiscs were self-inflicted,
resulting from decisions made by their respective state
legislatures. Nothing required Maine, Massachusetts,
and Vermont to extend a tax credit to their residents for
income taxes paid to New Hampshire, and nothing prevents Pennsylvania from withdrawing that credit for
taxes paid to New Jersey. No state can be heard to
complain about damage inflicted by its own hand. 11
California and the other plaintiff states in the case
before us have pointed out that their legislative schemes
were in place before the federal regulatory change that
will cost them money. But Pennsylvania does not leave
room for such a “first in time, first in right” argument.
Vermont’s law, for instance, long preceded New Hampshire’s, but the court held that any “injury” was “selfinflicted” because Vermont need not have extended tax
credits to its residents at all. 12 The states could also
have prevented their financial injury by changing their
laws.13 As the concurring opinion put it, “[t]he appellants

8
9
10
11
12
13

Id.
Id.
Id.
Id.
Id.; see 32 V.S.A. § 5825 (1966); N.H. R.S.A. § 77-B:2 (1970).
Pennsylvania, 426 U.S. at 664.

149a
therefore, [we]re really complaining about their own
statute[s].”14
Pennsylvania differs from the case before us because
the dispute was between coequal sovereigns in Pennsylvania, heard under the Court’s original jurisdiction, and
here it is between state governments and the federal
government. But Pennsylvania’s rejection of “selfinflicted” injury has been applied outside the original jurisdiction context.15 There is no conflict between the
federal and state laws, so the sovereign rights of the
plaintiff states cannot establish standing. 16 Though the
plaintiff states may under their own laws spend additional money to provide benefits to some women that
they would not have had to pay for before the federal
change, they remain free to decide whether to do so.
As the majority acknowledges, the “irreducible minimum” for standing is that “the plaintiff must have
(1) suffered an injury in fact, (2) that is fairly traceable
to the challenged conduct of the defendant, and (3) that

Id. at 667.
See Clapper v. Amnesty Intern. USA, 568 U.S. 398, 416 (2013).
16
Sturgeon v. Masica, 768 F.3d 1066, 1074 (9th Cir. 2014), vacated
and remanded sub nom. Sturgeon v. Frost, 136 S. Ct. 1061 (2016)
(rejecting “standing based simply on purported violations of a state’s
sovereign rights” and requiring “evidence of actual injury” where
state failed to “identify any actual conflict between [federal agency
regulations] and its own statutes and regulations”); Sturgeon v.
Frost, 872 F.3d 927, 929 (9th Cir. 2017), cert. granted, 138 S. Ct. 2648
(2018) (explaining prior holding as to state standing was “unaffected
by the Supreme Court’s vacatur of [the] prior opinion”); Virginia ex
rel. Cuccinelli v. Sebelius, 656 F.3d 253, 270 (4th Cir. 2011) (holding
state lacked standing where it failed to identify enforcement of state
statute that “conflict[ed]” with the individual mandate of the ACA).
14
15

150a
is likely to be redressed by a favorable judicial decision.”17
All three minima are perhaps debatable, but causation,
that is, “traceability,” is controlled by Pennsylvania.
That case establishes that harm to the fisc of a plaintiff
state because of its own statute is “self-inflicted,” and
therefore not “traceable to the challenged conduct of the
defendant.” 18 Traceability fails if the expense to the
state results from its own law and without that state legislative choice, could be avoided. The federal regulatory change itself imposes no obligation on the states to
provide money for contraception. The plaintiff states
choose to provide some contraception benefits to employees of employers exempted by the federal insurance
requirement, so the narrowing of the federal mandate
may lead to the states spending more because some employers may spend less. Nor can the plaintiff states invoke the doctrine of parens patriae to gain standing.19
I recognize that the Fifth Circuit took a different view
in different circumstances in Texas v. United States.20
There, the Fifth Circuit held that states did indeed have
standing to challenge a new federal program relating to

Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016), as revised
(May 24, 2016).
18
Pennsylvania, 426 U.S. at 664; Spokeo, 136 S. Ct. at 1547.
19
See Massachusetts v. EPA, 549 U.S. 497, 520 n.17 (2007) (explaining that state actions against the federal government “to protect [its]
residents from the operation of federal statutes” are precluded);
Sierra Forest Legacy v. Sherman, 646 F.3d 1161, 1178 (9th Cir. 2011)
(“California, like all states, ‘does not have standing as parens patriae
to bring an action against the Federal Government.’ ” (quoting Alfred L. Snapp & Son, Inc. v. Puerto Rico, 458 U.S. 592, 610 n.16
(1982))).
20
809 F.3d 134 (5th Cir. 2015), as revised (Nov. 25, 2015).
17

151a
immigration. 21 Texas was held to have standing because federal regulatory change on its administration of
drivers’ license—requiring it to issue drivers’ licenses to
illegal aliens—would cost it money. 22 The Fifth Circuit
rejected application of the Pennsylvania “self-inflicted
injury” rule, but stressed that its decision “is limited to
these facts.” 23 It is not plain that the Fifth Circuit
would extend its view of standing to the quite different
facts before us. The regulatory change regarding contraception poses no challenge to the sovereign authority
of California to provide contraceptive benefits or not,
but the regulatory change in Texas did limit the legislative choices Texas could make without “running afoul of
preemption or the Equal Protection Clause.” 24 Nor can
we be sure that Texas is good law. The Supreme Court
granted certiorari on the question whether “a State that
voluntarily provides a subsidy” has standing to challenge a federal change that would expand its subsidy,
and other issues.25 The Court was “equally divided,” so
the questions were not answered. 26

Id. at 162.
Id. at 155-57.
23
Id. at 154.
24
Id. at 153; see also Zango, Inc. v. Kaspersky Lab, Inc., 568 F.3d
1169, 1177 n.8 (9th Cir. 2009) (“An amicus curiae generally cannot
raise new arguments on appeal.” (citations omitted)).
25
United States v. Texas, 136 S. Ct. 906 (2016); Pet. for Writ of
Cert. at I, United States v. Texas, No. 15-674 (U.S. Nov. 20, 2015).
26
United States v. Texas, 136 S. Ct. 2271, 2272, reh’g denied,
137 S. Ct. 285 (2016).
21
22

152a
The majority errs in treating Wyoming v. Oklahoma27 as though it overruled Pennsylvania.28 It does
not say so. And the Court doubtlessly would have said
so had that been its intent. Nor is the self-inflicted injury doctrine even relevant to Wyoming, which is doubtless why Wyoming does not discuss Pennsylvania. In
Pennsylvania, the plaintiff states could have avoided
any lost revenue by changing their own laws granting
tax credits for taxes paid to the defendant states. By
contrast, Wyoming could not prevent the expense to its
fisc by changing its own law. 29 Wyoming lost severance
tax revenue because the new Oklahoma law required
major Oklahoma coal consumers to replace a substantial
part of the Wyoming coal they burned with Oklahoma

502 U.S. 437 (1992).
Of course, it does not matter when jurisdiction is raised, since we
must raise it whenever its absence appears likely. See Interpipe
Contracting, Inc. v. Becerra, 898 F.3d 879, 891 n.9 (9th Cir. 2018)
(“Because Article III standing is jurisdictional, we must sua sponte
assure ourselves.”). And the majority errs in saying that the selfinflicted harm doctrine was not raised by the parties. See Reply
Br. of March for Life at 29, Dkt. No. 95. Much of the briefing before us addresses standing, and the appellee states were also provided an opportunity to address self-inflicted injury at oral argument.
And it does not matter that the self-inflicted injury doctrine arose in
the context of a case taken under the Court’s original jurisdiction,
because it is a straightforward application of the generally applicable causation requirement for standing. See Clapper, 568 U.S. at
416 (applying Pennsylvania’s “self-inflicted” doctrine outside the
original jurisdiction context); Texas, 809 F.3d at 158-59 (same).
29
Wyoming, 502 U.S. at 447; see also Texas, 809 F.3d at 158 (“Wyoming sought to tax the extraction of coal and had no way to avoid
being affected by other states’ laws that reduced demand for that
coal.” (emphasis added)).
27
28

153a
coal, so less coal was mined in Wyoming. 30 Since the
Wyoming legislature could not change the Oklahoma
law, the harm to Wyoming’s fisc was not self-inflicted.
The Oklahoma law, which expressly targeted Wyoming,
caused the injury. 31 In our case, as in Pennsylvania,
the plaintiff states elected to pay money in certain circumstances, and can avoid the harm to their fiscs by
choosing not to pay the money.
I agree with the federal position that the plaintiff
states lack standing to bring this case in federal court.
Because such a conclusion would preclude us from
reaching the other issues in the case, I do not speak to
them in this dissent. Nor do I address additional reasons why the plaintiff states may lack standing, since the
“self-inflicted injury” disposes of the question without
them.

30
31

Id. at 443, 445-47.
Id. at 443.

154a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 17-cv-05783-HSG
Re: Dkt. No. 28
STATE OF CALIFORNIA, ET AL., PLAINTIFFS
v.
HEALTH AND HUMAN SERVICES, ET AL., DEFENDANTS
Filed: Dec. 21, 2017
ORDER GRANTING PLAINTIFFS’ MOTION
FOR A PRELIMINARY INJUNCTION
I.

INTRODUCTION

Pending before the Court is a motion for a preliminary injunction that would enjoin two interim final rules
(“IFRs”) exempting certain entities from the Affordable
Care Act’s mandate to employers to provide contraceptive coverage. Plaintiffs are the states of California,
Delaware, Maryland, and New York, and the Commonwealth of Virginia. Defendants are the U.S. Department of Health & Human Services (“HHS”); Secretary
of HHS Eric D. Hargan; the U.S. Department of Labor;
Secretary of Labor R. Alexander Acosta; the U.S. Department of the Treasury; and Secretary of the Treasury Steven Mnuchin.

155a
Defendants begin their brief in opposition to the motion for preliminary injunction with the contention that
“[t]his case is about religious liberty and freedom of conscience.” Dkt. No. 51 at 1. And without question, that
is one of the important values at issue in this case. But
Defendants’ characterization leaves out an equally critical aspect of what this case is about. Since its enactment, the Affordable Care Act (“ACA”) has required
group health insurance plans to provide women access
to preventive care, including contraceptives, without imposing any cost sharing requirement. Less than two
years ago, in April 2016, Defendants (or, in the case of
the individual defendants, their predecessors) represented to the Supreme Court that the United States
Government has a compelling interest in ensuring access to such coverage for women. See Supplemental
Br. for Resp’ts at 1, Zubik v. Burwell, 136 S. Ct. 1557
(2016) (per curiam) (No. 14-1418), 2016 WL 1445915, at
*1 (explaining that rules in existence in April 2016 “further[ed] the compelling interest in ensuring that women
covered by every type of health plan receive full and
equal health coverage, including contraceptive coverage”).
Moreover, Defendants have consistently recognized the
need to balance this compelling interest with the important goal of “minimiz[ing] any burden on religious exercise.” Id.
But the Defendants have now changed their position,
dramatically. In the IFRs that became effective on October 6, 2017, Defendants asserted that there is no such
compelling interest after all. They also markedly expanded the scope of the exemption available to religious
entities under the ACA’s contraceptive coverage mandate, and created an entirely new exemption based on

156a
moral objections. In sum, the IFRs represent an abandonment of the Defendants’ prior position with regard
to the contraceptive coverage requirement, and a reversal of their approach to striking the proper balance between substantial governmental and societal interests.
These highly-consequential IFRs were implemented
without any prior notice or opportunity to comment.
The Court finds that, at a minimum, Plaintiffs are likely
to succeed in showing that this process violated the Administrative Procedure Act, and that this violation will
cause them imminent harm if enforcement of the IFRs
is not enjoined. Accordingly, for the reasons set forth
below, Plaintiffs’ motion is GRANTED.
II.

BACKGROUND

Before turning to Plaintiffs’ challenge to the IFRs at
issue in this case, the Court recounts the sequence of
events which began with the enactment of the Affordable Care Act in 2010.
A.

The Affordable Care Act

In March 2010, Congress enacted the Affordable Care
Act. The ACA included a provision known as the
Women’s Health Amendment, which states:
A group health plan and a health insurance issuer offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall
not impose any cost sharing requirements for . . .
with respect to women, such additional preventive
care and screenings . . . as provided for in comprehensive guidelines supported by the Health Resources and Services Administration for purposes of
this paragraph.

157a
42 U.S.C. § 300gg-13(a)(4).
B.

The 2010 IFR and Subsequent Regulations

On July 19, 2010, under the authority of the Women’s
Health Amendment, several federal agencies (including
HHS, the Department of Labor, and the Department of
the Treasury) issued an interim final rule (“the 2010
IFR”). See 75 Fed. Reg. 41,726. It required, in part,
that health plans provide “evidence-informed preventive care” to women, without cost sharing and in compliance with “comprehensive guidelines” to be provided by
HHS’ Health Resources and Services Administration
(“HRSA”). Id. at 41,728.
The agencies found they had statutory authority “to
promulgate any interim final rules that they determine[d
were] appropriate to carry out the” relevant statutory
provisions. Id. at 41,729-30. The agencies also determined they had good cause to forgo the general notice
of proposed rulemaking required under the Administrative Procedure Act (“APA”), 5 U.S.C. § 553. Id. at 41,730.
Specifically, the agencies determined that issuing such
notice would be “impracticable and contrary to the public interest” because it would not allow sufficient time
for health plans to be timely designed to incorporate the
new requirements under the ACA, which were set to go
into effect approximately two months later. Id. The
agencies requested that comments be submitted by September 17, 2010, the date the IFR was scheduled to go
into effect.
On September 17, 2010, the agencies first promulgated
regulations pursuant to the 2010 IFR. See 45 C.F.R.
§ 147.310(a)(1)(iv) (HHS); 29 C.F.R. § 2590.715-2713 (De-

158a
partment of Labor); 26 C.F.R. § 54.9815-2713 (Department of the Treasury). 1 As relevant here, the regulations were substantively identical to the IFR, stating that
HRSA was to provide “binding, comprehensive health
plan coverage guidelines.”
C.

The 2011 HRSA Guidelines

From November 2010 to May 2011, a committee convened by the Institute of Medicine (“IOM”) met in response to the charge of HHS’ Office of the Assistant Secretary for Planning and Evaluation: to “convene a diverse committee of experts” related to, as relevant here,
women’s health issues. IOM Report2 at 1, 23. In July
2011, the committee issued a report recommending that
private health insurance plans be required to cover all
contraceptive methods approved by the Food and Drug
Administration (“FDA”), without cost sharing. Id. at
102-10.
On August 1, 2011, HRSA issued its preventive care
guidelines (“2011 Guidelines”), defining preventive care
coverage to include all FDA-approved contraceptive
methods.3
The Department of Treasury’s regulations were first promulgated in 2012, two years after those of the Health and Human Services and Labor departments.
2
Institute of Medicine, Clinical Preventive Services for Women:
Closing the Gaps (2011), available at https://www.nap.edu/read/13181/
chapter/1.
3
See HEALTH RES. & SERVS. ADMIN., Women’s Preventive
Services Guidelines, available at https://www.hrsa.gov/womensguidelines/index.html. On December 20, 2016, HRSA updated the
guidelines (“2016 Guidelines”), clarifying that “[c]ontraceptive care
should include contraceptive counseling, initiation of contraceptive
use, and follow-up care,” as well as “enumerating the full range of
1

159a
D.

The 2011 IFR and the Original Religious Exemption

On August 3, 2011, the agencies issued an IFR amending the 2010 IFR. See 76 Fed. Reg. 46,621 (“the 2011
IFR”). Based on the “considerable feedback” they received regarding contraceptive coverage for women, the
agencies stated that it was “appropriate that HRSA, in
issuing [its 2011] Guidelines, take[] into account the effect
on the religious beliefs of certain religious employers if
coverage of contraceptive services were required. . . .”
Id. at 46,623. As such, the agencies provided HRSA
with the “additional discretion to exempt certain religious employers from the [2011] Guidelines where contraceptive services are concerned.” Id. They defined
a “religious employer” as one that:
(1) [h]as the inculcation of religious values as its purpose; (2) primarily employs persons who share its religious tenets; (3) primarily serves persons who share
its religious tenets; and (4) is a non-profit organization under [the relevant statutory provisions, which]
refer to churches, their integrated auxiliaries, and conventions or associations of churches, as well as to the
exclusively religious activities of any religious order.
Id.
The 2011 IFR went into effect on August 1, 2011.
The agencies again found that they had both statutory
authority and good cause to forgo the APA’s advance notice and comment requirement. Id. at 46,624. Specif-

contraceptive methods for women” as identified by the FDA. See
HEALTH RES. & SERVS. ADMIN., Women’s Preventive Services
Guidelines, available at https://www.hrsa.gov/womens-guidelines2016/index.html.

160a
ically, they found that “providing for an additional opportunity for public comment [was] unnecessary, as the
[2010 IFR] . . . provided the public with an opportunity to comment on the implementation of the preventive services requirement in this provision, and the
amendments made in [the 2011 IFR were] in fact based
on such public comments.” Id. The agencies also found
that notice and comment would be “impractical and contrary to the public interest,” because that process would
result in a delay of implementation of the 2011 Guidelines. See id. The agencies further stated that they
were issuing the rule as an IFR in order to provide the
public with some opportunity to comment. Id. They
requested comments by September 30, 2011.
On February 15, 2012, after considering more than
200,000 responses, the agencies issued a final rule
adopting the definition of “religious employer” set forth
in the 2011 IFR. 77 Fed. Reg. 8,725. The final rule
also established a temporary safe harbor, during which
the agencies
plan[ned] to develop and propose changes to these final regulations that would meet two goals—providing
contraceptive coverage without cost-sharing to individuals who want it and accommodating non-exempted,
non-profit organizations’ religious objections to covering contraceptive services. . . .
Id. at 8,727.
E.

The Religious Accommodation

On March 21, 2012, the agencies issued an advance
notice of proposed rulemaking (“ANPR”) requesting
comments on “alternative ways of providing contracep-

161a
tive coverage without cost sharing in order to accommodate non-exempt, non-profit religious organizations with
religious objections to such coverage.” 77 Fed. Reg.
16,503. They specifically sought to “require issuers to
offer group health insurance coverage without contraceptive coverage to such an organization (or its plan
sponsor),” while also “provid[ing] contraceptive coverage directly to the participants and beneficiaries covered under the organization’s plan with no cost sharing.”
Id. The agencies requested comment by June 19, 2012.
On February 6, 2013, after reviewing more than
200,000 comments, the agencies issued proposed rules
that (1) simplified the criteria for the religious employer
exemption; and (2) established an accommodation for eligible organizations with religious objections to providing contraceptive coverage. 78 Fed. Reg. 8,458-59. The
proposed rule defined an “eligible organization” as one
that (1) “opposes providing coverage for some or all of the
contraceptive services required to be covered”; (2) “is
organized and operates as a nonprofit entity”; (3) “holds
itself out as a religious organization”; and (4) self-certifies
that it satisfies these criteria. Id. at 8,462. Comments
on the proposed rule were due April 5, 2013.
On July 2, 2013, after reviewing more than 400,000
comments, the agencies issued final rules simplifying
the religious employer exemption and establishing the
religious accommodation. 78 Fed. Reg. 39,870.4 With

As to the definition of a religious employer, the final rule “eliminate[ed] the first three prongs and clarif [ied] the fourth prong of the
definition” adopted in 2012. 78 Fed. Reg. 39,874. Under this new
definition, “an employer that [was] organized and operate[d] as a
nonprofit entity and [was] referred to in section 6033(a)(3)(A)(i) or
4

162a
respect to the latter, the final rule retained the definition of “eligible organization” set forth in the proposed
rule. Id. at 39,874. Under the accommodation, an eligible organization that met a “self-certification standard” was “not required to contract, arrange, pay, or refer for contraceptive coverage,” but its “plan participants
and beneficiaries . . . [would] still benefit from separate payments for contraceptive services without cost
sharing or other charge,” as required by law. Id. The
final rules were effective August 1, 2013.
F.

The Hobby Lobby and Wheaton College Decisions

On June 30, 2014, the Supreme Court issued its opinion in Burwell v. Hobby Lobby Stores, Inc., in which
three closely-held corporations challenged the requirement that they “provide health-insurance coverage for
methods of contraception that violate[d] the sincerely held
religious beliefs of the companies’ owners.” 134 S. Ct.
2751, 2759 (2014). The Court held that this requirement violated the Religious Freedom Restoration Act
of 1993 (“RFRA”), 42 U.S.C. § 2000bb et seq., because
it was not the “least restrictive means” of serving the
compelling interest in guaranteeing cost-free access to
certain methods of contraception. See Hobby Lobby,
134 S. Ct. at 2781-82.5 The Court pointed to the religious accommodation as support for this point: “HHS
itself has demonstrated that it has at its disposal an approach that is less restrictive than requiring employers
to fund contraceptive methods that violate their religious
(iii) of the Code [was] considered a religious employer for purposes
of the religious employer exemption.” Id.
5
The Court assumed without deciding that such an interest was
compelling within the meaning of RFRA. Hobby Lobby, 134 S. Ct.
at 2780.

163a
beliefs. . . . HHS has already established an accommodation for nonprofit organizations with religious objections.” Id. at 2782. The Court stated that the Hobby
Lobby ruling “[did] not decide whether an approach of
this type complies with RFRA for purposes of all religious claims,” id., and said its opinion “should not be understood to hold that an insurance-coverage mandate
must necessarily fall if it conflicts with an employer’s religious beliefs,” id. at 2783.
Several days later, the Court issued its opinion in
Wheaton College v. Burwell, 134 S. Ct. 2806 (2014).
The plaintiff was a nonprofit college in Illinois that was
eligible for the accommodation. Id. at 2808 (Sotomayor,
J., dissenting). Wheaton College sought an injunction,
however, “on the theory that its filing of a self-certification
form [would] make it complicit in the provision of contraceptives by triggering the obligation for someone
else to provide the services to which it objects.” Id.
The Court granted the application for an injunction, ordering that it was sufficient for the college to “inform[]
the Secretary of Health and Human Services in writing
that it is a nonprofit organization that holds itself out as
religious and has religious objections to providing coverage for contraceptive services. . . .” Id. at 2807.
In other words, the college was not required to “use the
form prescribed by the [g]overnment,” nor did it need
to “send copies to health insurance issuers or thirdparty administrators.” Id. The Court stated the order
“should not be construed as an expression of the Court’s
views on the merits.” Id.

164a
G.

Post-Hobby Lobby and -Wheaton Regulatory Action

Shortly thereafter, on August 27, 2014, the agencies
initiated two regulatory actions. First, in light of Hobby
Lobby, they issued proposed rules “amend[ing] the definition of an eligible organization [for purposes of the religious accommodation] to include a closely held forprofit entity that has a religious objection to providing
coverage for some or all of the contraceptive services
otherwise required to be covered.” 79 Fed. Reg. 51,121.
Comments were due on October 21, 2014.
Second, in light of Wheaton, the agencies issued IFRs
(“the 2014 IFRs”) providing “an alternative process for
the sponsor of a group health plan or an institution of
higher education to provide notice of its religious objection to coverage of all or a subset of contraceptive services, as an alternative to the EBSA Form 700 [i.e., the
standard] method of self-certification.” Id. at 51,095.
The agencies asserted they had both statutory authority
and good cause to forgo the notice and comment period,
stating that such a process would be “impracticable and
contrary to the public interest,” particularly in light of
Wheaton. Id. at 51,095-96. The IFRs were effective
immediately, and comments were due October 27, 2014.
After considering more than 75,000 comments on the
proposed rule, the agencies issued final rules “extend[ing]
the accommodation to a for-profit entity that is not publicly traded, is majority-owned by a relatively small
number of individuals, and objects to providing contraceptive coverage based on its owners’ religious beliefs”—
i.e., to closely-held entities. 80 Fed. Reg. 41,324. The
agencies also issued a final rule “continu[ing] to allow
eligible organizations to choose between using EBSA

165a
Form 700 or the alternative process consistent with the
Wheaton interim order.” Id. at 41,323.
H.

The Zubik Opinion and Subsequent Impasse

On May 16, 2016, the Supreme Court issued its opinion in Zubik v. Burwell, 136 S. Ct. 1557 (2016) (per curiam). The petitioners, primarily non-profit organizations, were eligible for the religious accommodation, but
challenged the requirement that they submit notice to
either their insurer or the federal government as a violation of RFRA. Zubik, 136 S. Ct. at 1558. “Following oral argument, the Court requested supplemental
briefing from the parties addressing ‘whether contraceptive coverage could be provided to petitioners’ employees, through petitioners’ insurance companies, without any such notice from petitioners.’ ” Id. at 1558-59.
After the parties stated that “such an option [was] feasible,” the Court remanded to afford them “an opportunity to arrive at an approach going forward that accommodates petitioners’ religious exercise while at the
same time ensuring that women covered by petitioners’
health plans ‘receive full and equal health coverage, including contraceptive coverage.’ ” Id. at 1559 (emphasis added). As in Wheaton, “[t]he Court express[ed] no
view on the merits of the cases,” and did not decide
“whether petitioners’ religious exercise has been substantially burdened, whether the [g]overnment has a
compelling interest, or whether the current regulations
are the least restrictive means of serving that interest.”
Id. at 1560.
On July 22, 2016, the agencies issued a request for
information (“RFI”) on whether, in light of Zubik,

166a
there are alternative ways (other than those offered
in current regulations) for eligible organizations that
object to providing coverage for contraceptive services on religious grounds to obtain an accommodation, while still ensuring that women enrolled in the
organizations’ health plans have access to seamless
coverage of the full range of [FDA]-approved contraceptives without cost sharing.
81 Fed. Reg. 47,741. Comments were due September
20, 2016. On January 9, 2017, the agencies issued a
document titled “FAQs About Affordable Care Act Implementation Part 36” (“FAQs”).6 The FAQs stated that,
based on the 54,000 comments received in response to
the July 2016 RFI, there was “no feasible approach
. . . at this time that would resolve the concerns of religious objectors, while still ensuring that the affected
women receive full and equal health coverage, including
contraceptive coverage.” FAQs at 4.
I.

The 2017 IFRs at Issue

On May 4, 2017, the President issued Executive Order No. 13,798, directing the secretaries of the departments of the Treasury, Labor, and HHS to “consider issuing amended regulations, consistent with applicable
law, to address conscience-based objections to the preventive care mandate. . . .” 82 Fed. Reg. 21,675.
Subsequently, on October 6, 2017, the agencies issued
the Religious Exemption IFR and the Moral Exemption
IFR at issue in this case (collectively, “the 2017 IFRs”).

DEP’T OF LABOR, FAQs About Affordable Care Act Implementation Part 36, available at https://www.dol.gov/sites/default/files/
ebsa/about-ebsa/our-activities/resource-center/faqs/aca-part-36.pdf.
6

167a
The 2017 IFRs departed from the prior regulations in
several important ways.
1.

The Religious Exemption IFR

First, with the Religious Exemption IFR, the agencies substantially broadened the scope of the religious
exemption, extending it “to encompass entities, and individuals, with sincerely held religious beliefs objecting
to contraceptive or sterilization coverage,” and “making
the accommodation process optional for eligible organizations.” 82 Fed. Reg. 47,807-08. Such entities “will
not be required to comply with a self-certification process.” Id. at 47,808. Just as the IFR expanded eligibility for the exemption, it “likewise” expanded eligibility for the optional accommodation. Id. at 47,812-13.
In introducing these changes, the agencies stated
they “recently exercised [their] discretion to reevaluate
these exemptions and accommodations,” and considered
factors including: “the interests served by the existing
Guidelines, regulations, and accommodation process”;
the “extensive litigation”; the President’s executive order; the interest in protecting the free exercise of religion under the First Amendment and RFRA; the discretion afforded under the relevant statutory provisions;
and “the regulatory process and comments submitted in
various requests for public comments.” Id. at 47,793.
The agencies advanced several arguments they claimed
justified the lack of an advance notice and comment process for the Religious Exemption IFR, which became effective immediately.
First, the agencies cited 26 U.S.C. § 9833, 29 U.S.C.
§ 1191c, and 42 U.S.C. § 300gg-92, asserting that those

168a
statutes authorized the agencies “to promulgate any interim final rules that they determine are appropriate to
carry out” the relevant statutory provisions. 82 Fed.
Reg. 47,813. Second, the agencies asserted that even if
the APA did apply, they had good cause to forgo notice
and comment because implementing that process “would
be impracticable and contrary to the public interest.”
Id. Third, the agencies noted that “[i]n response to several of the previous rules on this issue—including three
issued as [IFRs] under the statutory authority cited
above—the Departments received more than 100,000 public comments on multiple occasions,” which included “extensive discussion about whether and by what extent to
expand the exemption.” Id. at 47,814. 7 For all of
these reasons, the agencies asserted, “it would be impracticable and contrary to the public interest to engage
in full notice and comment rulemaking before putting
these interim final rules into effect. . . .” Id. at 47,815.
Comments were due on December 5, 2017.
2.

The Moral Exemption IFR

Also on October 6, 2017, the agencies issued the
Moral Exemption IFR, “expand[ing] the exemption[] to
include additional entities and persons that object based
on sincerely held moral convictions.” Id. at 47,849. Additionally, “consistent with [their] expansion of the exemption, [the agencies] expand[ed] eligibility for the accommodation to include organizations with sincerely
held moral convictions concerning contraceptive coverage,” while also making the accommodation process optional for those entities. Id. The agencies included in
The Court will discuss Defendants’ proffered justifications in
more detail below.
7

169a
the IFR a section called “Congress’ History of Providing Exemptions for Moral Convictions,” referencing
statutes and legislative history, case law, executive orders, and state analogues. See id. at 47,844-48. The
agencies justified the immediate issuance of the Moral
Exemption IFR without an advance notice and comment
process on grounds similar to those offered regarding
the Religious Exemption IFR, stating that “[o]therwise,
our regulations would simultaneously provide and deny
relief to entities and individuals that are, in the [agencies’] view, similarly deserving of exemptions and accommodations consistent[] with similar protections in
other federal laws.” Id. at 47,855. Comments were
due on December 5, 2017.
J.

This District Court Action

On November 1, 2017, Plaintiffs filed the First
Amended Complaint. Dkt. No. 24 (“FAC”). They filed
this motion for a preliminary injunction on November 9,
2017. Dkt. No. 28 (“Mot.”). On November 29, 2017,
Defendants filed an opposition, Dkt. No. 51 (“Opp.”), to
which Plaintiffs replied on December 6, 2017, Dkt. No.
78 (“Reply”). The Court held a hearing on the motion
on December 12, 2017. Dkt. No. 100.8

The Court also granted several motions filed by groups seeking
leave to file amicus curiae briefs. See Dkt. Nos. 72 (American Association of University Women, Service Employees International
Union, and 14 additional professional, labor, and student associations); 74 (14 states and the District of Columbia); 76 (American Center for Law & Justice). The Court has considered those briefs
along with the parties’ moving papers.
8

170a
III.

LEGAL STANDARD

A preliminary injunction is a matter of equitable discretion and is “an extraordinary remedy that may only
be awarded upon a clear showing that the plaintiff is entitled to such relief.” Winter v. Natural Res. Def. Council, Inc., 555 U.S. 7, 22 (2008). “A plaintiff seeking preliminary injunctive relief must establish that [it] is likely
to succeed on the merits, that [it] is likely to suffer irreparable harm in the absence of preliminary relief, that
the balance of equities tips in [its] favor, and that an injunction is in the public interest.” Id. at 20. Alternatively, an injunction may issue where “the likelihood of
success is such that serious questions going to the merits were raised and the balance of hardships tips sharply
in [the plaintiff ’s] favor,” provided that the plaintiff can
also demonstrate the other two Winter factors. Alliance for the Wild Rockies v. Cottrell, 632 F.3d 1127,
1131-32 (9th Cir. 2011) (citation and internal quotation
marks omitted). Under either standard, Plaintiffs bear
the burden of making a clear showing that it is entitled
to this extraordinary remedy. Earth Island Inst. v.
Carlton, 626 F.3d 462, 469 (9th Cir. 2010).
IV.

ANALYSIS

The Court first addresses the threshold issues of
standing and venue, then turns to the preliminary injunction analysis.
A.

Plaintiffs Have Standing to Sue.
1.

Plaintiffs have Article III standing.

The standing doctrine is “rooted in the traditional understanding of a case or controversy,” and “limits the
category of litigants empowered to maintain a lawsuit
in federal court to seek redress for a legal wrong.”

171a
Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547 (2016). In
this way, the doctrine, “which is built on separation-ofpowers principles, serves to prevent the judicial process
from being used to usurp the powers of the political
branches.” Clapper v. Amnesty Int’l USA, 568 U.S.
398, 408 (2013). For this reason, the “standing inquiry
has been especially rigorous when reaching the merits
of a dispute would force [a court] to decide whether an action taken by one of the other two branches of the [f ]ederal
[g]overnment was unconstitutional.” Raines v. Byrd,
521 U.S. 811, 819-20 (1997).
“States are not normal litigants for the purposes of invoking federal jurisdiction,” Mass. v. Envtl. Prot. Agency,
549 U.S. 497, 518 (2007), and are “entitled to special solicitude in [the] standing analysis,” id. at 520. States
have standing to protect their sovereign interests, such
as the interest in their physical territory. See Or. v.
Legal Servs. Corp., 552 F.3d 965, 970 (9th Cir. 2009)
(quoting Mass., 549 U.S. at 518-19). They may also sue
to assert their quasi-sovereign interests, like “the health
and well-being—both physical and economic—of [their]
residents in general.” Alfred L. Snapp & Son, Inc. v.
P.R. ex rel. Barez, 458 U.S. 592, 607 (1982). In the latter situation, however, “the State must be more than a
nominal party.” Id. at 608. “A quasi-sovereign interest
must be sufficiently concrete to create an actual controversy between the State and the defendant.” Id. at 602.
State or not, a plaintiff invoking federal jurisdiction
bears the burden of establishing “the irreducible constitutional minimum” of standing. Spokeo, 136 S. Ct. at
1547 (quoting Lujan v. Defenders of Wildlife, 504 U.S.
555, 560 (1992)). That is, “the plaintiff must have suffered an injury in fact—an invasion of a legally protected

172a
interest” that is concrete, particularized, and actual or
imminent, rather than conjectural or hypothetical.
Lujan, 504 U.S. at 560 (internal quotation marks omitted). The plaintiff ’s injury must also be “fairly traceable to the challenged conduct of the defendant,” as well
as “likely to be redressed by a favorable judicial decision.”
Spokeo, 136 S. Ct. at 1547 (citing Lujan, 504 U.S. at
560-61).
Agency action that causes a state to “incur significant
costs” is sufficient to constitute injury in fact. See Tex.
v. U.S., 809 F.3d 134, 155 (5th Cir. 2015) (finding that
Texas had standing to sue federal government because
Deferred Action for Parents of Americans and Lawful
Permanent Residents program required the state to issue driver’s licenses to program beneficiaries “at a financial loss”). Federal courts may also “recognize a ‘procedural injury’ when a procedural requirement has not
been met, so long as the plaintiff also asserts a ‘concrete
interest’ that is threatened by the failure to comply with
that requirement.” City of Sausalito v. O’Neill, 386 F.3d
1186, 1197 (9th Cir. 2004). Such a plaintiff “must show
that the procedures in question are designed to protect
some threatened concrete interest of his that is the ultimate basis of his standing.” Citizens for a Better Forestry v. U.S. Dep’t of Agric., 341 F.3d 961, 969 (9th Cir.
2003). The plaintiff must also “establish the reasonable probability of the challenged action’s threat to [his
or her] concrete interest.” Id. (citation and internal
quotation marks omitted) (original brackets). In such
cases, once a plaintiff has established a procedural injury in fact, “the causation and redressability requirements are relaxed.” Id. (citation and internal quotation
marks omitted).

173a
Plaintiffs have stated a procedural injury that is sufficient for the purposes of Article III standing. They
assert that Defendants failed to comply with the APA’s
notice and comment requirement, resulting in Plaintiffs’
being “denied the opportunity to comment and be heard,
prior to the effective date of the [2017] IFRs, concerning
the impact of the rules on the States and their residents.”
FAC ¶ 16. Plaintiffs must also show that these procedures “are designed to protect some concrete threatened
interest” that “is the ultimate basis of [their] standing.”
See Citizens for a Better Forestry, 341 F.3d at 969.
Plaintiffs do so by explaining that they have an “interest
in ensuring that women have access to no-cost contraceptive coverage” under the ACA, in large part because
without that access, Plaintiffs will incur economic obligations, either to cover contraceptive services necessary
to fill in the gaps left by the 2017 IFRs or for “expenses
associated with unintended pregnancies.” Reply at 3;
see also Dkt. No. 28-8 (Decl. of Lawrence Finer) ¶ 61
(“Unintended pregnancies cost the state approximately
$689 million . . . in 2010.”); Dkt. No. 28-14 (Decl. of
Jenna Tosh) ¶ 27 (stating that California pays for 64 percent of unplanned births, with the average cost estimated
at more than $15,000 per birth). Accordingly, Plaintiffs
are more than merely a “nominal party” in this suit asserting a quasi-sovereign interest in the physical health
and well-being of their citizens. See Alfred L. Snapp &
Son, 458 U.S. at 607-08. Rather, they have shown that
the 2017 IFRs will impact their fiscs in a manner that
corresponds with the IFRs’ impact on their citizens’ access to contraceptive care. And, while the causation
and redressability requirements are relaxed in cases of
procedural injury, Plaintiffs also satisfy those prongs of
the standing inquiry. The injury asserted is directly

174a
traceable to Defendants’ decision to issue the IFRs without advance notice and comment, and granting a preliminary injunction would enjoin enforcement of those IFRs
until the Court can assess the merits. 9
Plaintiffs thus have standing under Article III.
2.

Statutory Standing

In addition to the requirements of Article III, “[a]
plaintiff must also satisfy the non-constitutional standing requirements of the statute under which [it] seeks to
bring suit.” City of Sausalito, 386 F.3d at 1199. The
APA provides that “[a] person . . . adversely affected
or aggrieved by agency action within the meaning of a
relevant statute is entitled to judicial review thereof.”
5 U.S.C. § 702. 10 Courts have interpreted this provision to require a petitioner bringing suit under the APA
to “establish (1) that there has been final agency action
adversely affecting the plaintiff, and (2) that, as a result,
it suffers legal wrong or that its injury falls within the
While Defendants’ primary argument is that Plaintiffs lack standing, they fail to address, or even acknowledge, Plaintiffs’ asserted
procedural injury under the APA in this context, focusing instead on
opposing Plaintiffs’ standing to bring any substantive claims. See
Opp. at 8-11. Defendants thus fail to contend with the “relaxed”
causation and redressability requirements. See Citizens for a Better Forestry, 341 F.3d at 969. They also inaccurately cast Plaintiffs’
allegations regarding their fiscal injury as “conclusory,” failing to
address the substantial declarations supporting Plaintiffs’ motion.
See Opp. at 9.
10
The Court is satisfied that Plaintiffs are persons under the APA.
See, e.g., Texas, 809 F.3d at 162-63 (finding that Texas, the plaintiff,
met the APA’s statutory standing requirements); Ariz. v. Inter Tribal
Council of Ariz., Inc., 133 S. Ct. 2247, 2259 (2013) (noting, in dicta,
that a state may challenge the decision of a federal commission under the APA).
9

175a
zone of interests of the statutory provision the plaintiff
claims was violated.” Citizens for a Better Forestry,
341 F.3d at 976 (citation and internal quotation marks
omitted).
To qualify as “final agency action,” (1) “the action must
mark the consummation of the agency’s decisionmaking
process” and (2) “the action must be one by which rights
or obligations have been determined, or from which legal consequences will flow. . . .” Bennett v. Spear,
520 U.S. 154, 177-78 (2014) (citations and internal quotations marks omitted). And the “zone of interests” inquiry is “construed generously” and is “not meant to be
especially demanding”: a court should only deny standing on this ground where “the plaintiff ’s interests are so
marginally related to or inconsistent with the purposes
implicit in the statute that it cannot reasonably be assumed that Congress intended to permit the suit.”
City of Sausalito, 386 F.3d at 1200 (quoting Clarke v.
Secs. Indus. Ass’n, 479 U.S. 388, 399 (1987)) (internal
quotation marks omitted).
The IFRs are final agency action. Despite the presence of the word “interim” in “interim final rule,” “the
key word . . . is not interim, but final,” because interim “refers only to the Rule’s intended duration—not
its tentative nature.” See Beverly Enters. v. Herman,
50 F. Supp. 2d. 7, 17 (D.D.C. 1999) (citing Career Coll.
Ass’n v. Riley, 74 F.3d 1265, 1268 (D.C. Cir. 1996)).
The IFRs are thus properly understood as the consummation of the relevant agencies’ decisionmaking process. And it is plain that “rights or obligations have
been determined” by the IFRs. For example, the Religious Exemption IFR extends the exemption to any
entity with a “sincerely held religious belief [] objecting

176a
to contraceptive or sterilization coverage,” 82 Fed. Reg.
47,807-08, while the Moral Exemption IFR broadens eligibility even more dramatically by making the exemption available to those “with sincerely held moral convictions by which they object to contraceptive or sterilization coverage,” id. at 47,849 (emphasis added).
Plaintiffs’ asserted injury is also squarely within the
APA’s “zone of interests.” Here, Plaintiffs allege a
procedural injury because Defendants failed to comply
with the APA’s notice and comment requirement, arguing they “have been denied the opportunity to comment
and be heard, prior to the effective date of the IFRs,
concerning the impact of the rules on the States and
their residents.” FAC ¶ 16. The purpose of the APA’s
notice and comment provision is
(1) to ensure that agency regulations are tested via
exposure to diverse public comment, (2) to ensure fairness to affected parties, and (3) to give affected parties an opportunity to develop evidence in the record
to support their objections to the rule and thereby
enhance the quality of judicial review.
Envtl. Integrity Project v. Envtl. Prot. Agency, 425 F.3d
992, 996 (D.C. Cir. 2005) (citation omitted). Plaintiffs’
right to be heard regarding the 2017 IFRs’ prospective
impact on them and their citizens is plainly within the
ambit of the APA.
Plaintiffs accordingly have statutory standing under
the APA.
B.

Venue Is Proper in the Northern District of
California.

Defendants next assert that venue is improper here,
reasoning that the venue statute requires Plaintiffs to

177a
bring suit in their principal place of business, and claiming that “there is no plausible ‘principal place of business’ for the State of California other than Sacramento,”
its capital, which is in the Eastern District of California.
Opp. at 12-13. While there is scant authority on this
issue, the Court finds venue in this district proper.
In a suit against the United States, its officers, or its
agencies, a civil action “may, except as otherwise provided by law, be brought in any judicial district in which
. . . the plaintiff resides if no real property is involved
in the action.” 28 U.S.C. § 1391(e)(1). There is no real
property at stake in this action, so the venue inquiry
turns on the question of Plaintiffs’ residence. While
this appears to be an issue of first impression in this district, common sense dictates that for venue purposes, a
state plaintiff with multiple federal judicial districts resides in any of those districts. The only other federal
court that appears to have examined the question in any
detail reached the same conclusion, finding that a state
may bring suit under 28 U.S.C. § 1391(e)(1) “in any district within the state”:
Given the complete absence of authority presented
directly on this point, this court is not willing to create the new rule proposed by the Federal Defendants
that would, for no just or logical reason, limit a state
containing more than one federal judicial district to
suing the Federal Government only in the district
containing the state capital, regardless of any other
consideration relevant to the case or the parties’ convenience. Indeed, the absence of authority may be
precisely because common sense dictates that a state
resides throughout its sovereign borders and the idea
has not previously been challenged.

178a
Ala. v. U.S. Army Corp of Eng’rs, 382 F. Supp. 2d 1301,
1329 (N.D. Ala. 2005). 11 The Court finds this reasoning
persuasive, and declines to adopt Defendants’ rule that
would limit the State of California to bringing suit in the
Eastern District of California. Venue is therefore proper
in this district.
C.

Plaintiffs Have Shown They Are Entitled to a
Preliminary Injunction.

Plaintiffs are entitled to a preliminary injunction because (1) they have shown that, at a minimum, they are
likely to succeed on their claim that Defendants violated
the APA by issuing the 2017 IFRs without advance notice and comment; (2) they have shown that they are
likely to suffer irreparable harm as a result of this procedural violation; and (3) the balance of equities tips in
Plaintiffs’ favor, and the public interest favors granting
the injunction.
1.

Plaintiffs are likely to succeed in showing
that Defendants violated the APA in issuing
the 2017 IFRs without advance notice and
comment.

The most important Winter factor is likelihood of success on the merits. See Disney Enters., Inc. v. VidAngel,
Inc., 869 F.3d 848, 856 (9th Cir. 2017).

Defendants, in contrast, cite a 27-year-old unpublished case from
the Eastern District of Pennsylvania which involved a different section of the venue statute and addressed the residence of state agencies and state officials, not the states themselves. See Opp. at 13 (citing Bentley v. Ellam, No. 89-5418, 1990 WL 63734, at *1 (E.D. Pa.
May 8, 1990)).
11

179a
a.

With few exceptions, the APA requires
agencies to publish notice of proposed rules
and consider public comment before final
promulgation.

Plaintiffs contend that “Defendants evaded their obligations under the APA by promulgating rules without
proper notice and comment.” Mot. at 15. The Court
agrees. Under the APA, an agency promulgating a
rule normally must first publish a “[g]eneral notice of
proposed rule making” in the Federal Register, including:
“(1) a statement of the time, place, and nature of public
rule making proceedings; (2) reference to the legal authority under which the rule is proposed; and (3) either
the terms or substance of the proposed rule or a description of the subjects and issues involved.” 5 U.S.C.
§ 553(b). After such notice has issued, “the agency
shall give interested persons an opportunity to participate in the rule making through submission of written
data, views, or arguments with or without opportunity
for oral presentation.” Id. § 553(c). The agency must
then consider any “relevant matter presented. . . .”
Id. As relevant here, these notice and comment requirements do not apply “when the agency for good cause
finds . . . that notice and public procedure thereon
are impracticable, unnecessary, or contrary to the public interest.” Id. § 553(b)(3)(B).12
The APA’s notice and comment requirement reflects
Congress’ “judgment that notions of fairness and informed administrative decisionmaking require that
Defendants do not argue that notice and comment was “unnecessary” for either the Religious Exemption IFR, see 82 Fed. Reg.
47,813, or the Moral Exemption IFR, see id. at 47,855.
12

180a
agency decisions be made only after affording interested
persons notice and an opportunity to comment.”
Paulsen v. Daniels, 413 F.3d 999, 1004-05 (9th Cir. 2005)
(quoting Chrysler Corp. v. Brown, 441 U.S. 281, 316
(1979)). “It is antithetical to the structure and purpose
of the APA for an agency to implement a rule first, and
then seek comment later.” Id. at 1005. Accordingly, an
agency “must overcome a high bar if it seeks to invoke
the good cause exception to bypass the notice and comment requirement,” given that the exception “is essentially an emergency procedure.” U.S. v. Valverde,
628 F.3d 1159, 1164-65 (9th Cir. 2010) (citations, internal
quotations marks, and brackets omitted). In other
words, “a failure to comply with the APA’s notice and
comment procedures may be excused only in those narrow circumstances in which delay would do real harm.”
Id. (citation and internal quotation marks omitted); see
also Indep. Guard Ass’n of Nev., Local No. 1. v. O’Leary
ex rel. U.S. Dep’t of Energy, 57 F.3d 766, 769 (9th Cir.
1995) (emphasizing that good-cause exceptions to section 553 are to be “narrowly construed and only reluctantly countenanced”) (citation omitted). The inquiry
as to whether an agency has demonstrated good cause
“proceeds case-by-case, sensitive to the totality of the
factors at play.” Valverde, 628 F.3d at 1164 (citations
and internal quotation marks omitted).
On October 6, 2017, Defendants promulgated the Religious Exemption IFR and Moral Exemption IFR, effective immediately. Although both IFRs solicited
public comment until December 5, 2017, their immediate
promulgation violated the APA’s notice and comment
requirement because Defendants failed to publish the
required advance notice of proposed rulemaking. Nor
did they provide the public with an advance opportunity

181a
to comment, making it impossible for the agency to consider the input of any interested parties before enactment. Thus, the issuance of the 2017 IFRs was unlawful unless either (a) the APA does not apply or (b) the
Defendants can show that an exception to its requirements applies.
b.

Defendants had no statutory authority
to forgo the APA’s notice and comment
requirement as to the 2017 IFRs.

Defendants first argue that they had “express statutory authorization” to promulgate the IFRs, thus exempting them from the APA’s advance notice and comment requirement. See Opp. at 15. Specifically, Defendants
cite the authority conferred upon them by 26 U.S.C.
§ 9833, 29 U.S.C. § 1191c, and 42 U.S.C. § 300gg-92. See
id. Each of those provisions, in turn, contains this nearly
identical phrase: “[t]he Secretary may promulgate any
interim final rules as the Secretary determines are appropriate to” carry out its statutory duties in this realm.
Defendants interpret this as a signal that Congress intended to free them from the APA’s requirements. But
“[t]he APA provides that no subsequent statute shall be
deemed to modify it ‘except to the extent that it does so
expressly.’ ” Castillo-Villagra v. Immigration & Naturalization Serv., 972 F.2d 1017, 1025 (9th Cir. 1992)
(quoting 5 U.S.C. § 559); see also Lake Carriers Ass’n v.
Envtl. Prot. Agency, 652 F.3d 1, 6 (D.C. Cir. 2011) (per
curiam) (citing section 559 for the same principle). The
D.C. Circuit has framed the question as “whether Congress has established procedures so clearly different
from those required by the APA that it must have intended to displace the norm.” Asiana Airlines v. Fed.
Aviation Admin., 134 F.3d 393, 397 (D.C. Cir. 1998).

182a
Here, the statutory authority cited by Defendants
does not support their argument that Congress intended
to displace the APA’s notice and comment requirements.
Castilla-Villagra involved the question of whether the
APA or the Immigration and Naturalization Act (“INA”)
governed the court’s analysis of an administrative notice. 972 F.2d at 1025. In deciding that the INA governed, the court cited the INA’s exclusivity provision, as
well as the Supreme Court’s interpretation of that provision. Id. at 1026. In contrast, the authority cited by
Defendants contains no such exclusivity provision. And
in Lake Carriers, the court considered whether the Environmental Protection Agency (“EPA”) violated the
APA when it issued a permit without providing an opportunity for notice and comment regarding certain
state certification conditions. 652 F.3d at 5-6. In support of its position, the EPA cited a provision of the Clean
Water Act (“CWA”) that required certifying states to
“establish procedures for public notice . . . and, to
the extent it deems appropriate, procedures for public
hearings. . . .” Id. at 6 (quoting 33 U.S.C. § 1341(a)).
While the court ultimately found on another ground that
the EPA was not required to engage in notice and comment, id. at 10, the court “doubt[ed] that [the CWA provision’s] requirement that states provide for notice and
comment regarding proposed conditions constitute[d]
the requisite ‘plain express[ion]’ of congressional intent
to supersede the APA’s requirements,” id. at 6. This
Court likewise finds that the statutory authority cited
by Defendants—which is much more broadly worded
than the CWA provision in Lake Carriers—is not so
clearly different from the APA’s procedures so as to reflect an intent to displace them. Finally, in Asiana
Airlines, the court found that a statute directing the

183a
Federal Aviation Administration to “publish in the Federal Register an initial fee schedule and associated collection process as interim final rule, pursuant to which
public comment will be sought and a final rule issued”
supplanted the APA’s requirements. 134 F.3d at 396-98.
In this case, the authority cited by Defendants makes
no mention of any analogous procedure (or any procedure at all).
Defendants’ arguments to the contrary are unavailing. No case cited by the parties or identified by the
Court has held that the statutory provisions cited by the
Defendants supplant the APA’s procedural requirements.
Defendants quote Real Alternatives, Inc. v. Burwell,
150 F. Supp. 3d 419, 427 n.6 (M.D. Pa. 2015), for the
proposition that the “APA . . . did not apply to the
2011 IFR under this specific statutory authority.” See
Opp. at 15. But that reading is not supported by the
case, which simply quoted the agencies’ argument in the
2011 IFR that they had statutory authority to forgo notice and comment for that IFR. See Real Alternatives,
150 F. Supp. 3d at 427 n.6 (quoting 76 Fed. Reg. 46,624).
Defendants also cite Coalition for Parity, Inc. v. Sebelius, 709 F. Supp. 2d 10 (D.D.C. 2010), in support of their
argument that the asserted statutory authority contemplates procedures that are “clearly different” from the
APA’s requirements. See Opp. at 15. But that case
only undermines their argument, because there, the
court considered the same statutory grants of IFRpromulgating authority cited by Defendants in this case
(i.e., 26 U.S.C. § 9833, 29 U.S.C. § 1191c, and 42 U.S.C.
§ 300gg-92), and found that they were not sufficiently
different from the APA to displace the latter’s requirements. See Coalition for Parity, 709 F. Supp. 2d at
17-19.

184a
Defendants accordingly had no statutory authority to
forgo notice and comment before issuing the 2017 IFRs.
c.

The “totality of factors” establishes that
Defendants had no good cause to forgo
advance notice and comment for the 2017
IFRs.

The Court also finds that the “totality of factors”
compels the conclusion that Defendants had no good
cause to forgo notice and comment. Defendants argue
that engaging in notice and comment before issuing the
2017 IFRs would have been “impracticable and contrary
to the public interest.” See 82 Fed. Reg. 47,813; id. at
47,855. “Notice and comment is ‘impracticable’ when
the agency cannot ‘both follow section 553 and execute
its statutory duties.’ ” Riverbend Farms, Inc. v. Madigan, 958 F.2d 1479, 1484 n.2 (9th Cir. 1992) (quoting
Levesque v. Block, 723 F.2d 175, 184 (1st Cir. 1983)).
And it is “contrary to the public interest” when “public
rule-making procedures
. . .
prevent an agency
from operating.” Id. (citation and internal quotation
marks omitted); see also Levesque, 723 F.2d at 185
(“Congress’s view seems to have been that any time one
can expect real interest from the public in the content of
the proposed regulation, notice-and-comment rulemaking
will not be contrary to the public interest.”).
Defendants fail to show that their decision to forgo
advance notice and comment was justified by good cause
under section 553. In the Religious Exemption IFR,
they set forth several purported justifications: (1) the
“[d]ozens” of pending lawsuits challenging the contraceptive mandate; (2) the desire to cure violations of
RFRA, based on the contention that “requiring certain
objecting entities or individuals to choose between the

185a
Mandate, accommodation, or penalties for [noncompliance]” constitutes such a violation; (3) the desire to bring
HRSA guidelines into “accord with the legal realities”
of the temporary injunctions issued in various cases;
(4) the desire “to provide immediate resolution” to parties with religious objections to the mandate; (5) the desire to avoid increases in the costs of health insurance
caused by entities remaining on more expensive grandfathered plans—which are exempt from the mandate—
to avoid becoming subject to the mandate; and (6) the
desire to avoid delay in making the accommodation
available to a broader category of entities. 82 Fed. Reg.
47,813-15. In the Moral Exemption IFR, Defendants
set forth similar justifications. Id. at 47,855-56.
None of these proffered reasons justified the use of
the “emergency procedure” that is the good-cause exception. See Valverde, 628 F.3d at 1164-65. Defendants make no argument that the above considerations
made it impossible for them to both satisfy the notice
and comment requirement and execute their statutory
duties under the ACA. Defendants also fail to establish
(or even claim) that notice and comment would have effectively prevented them from operating. Instead, they
argue that “any additional delay in issuing the Rules
would be contrary to the public interest,” because
“[p]rompt effectiveness would provide entities and individuals facing burdens on their sincerely held religious
beliefs and moral convictions with important and urgent
relief.” Opp. at 16.13 But “[i]f ‘good cause’ could be satisfied by an Agency’s assertion that ‘normal procedures
Indeed, as to the public interest justification, Defendants estimated at oral argument that they have received hundreds of thousands of comments regarding the 2017 IFRs. This weakens the
13

186a
were not followed because of the need to provide immediate guidance and information . . . then an exception
to the notice requirement would be created that would
swallow the rule.” See Valverde, 628 F.3d at 1166 (quoting Zhang v. Slattery, 55 F.3d 732, 746 (2d Cir. 1995)). 14
Defendants also argue that they “demonstrated a
willingness to consider public comment, both prior and
following issuance of the rules.” Opp. at 16. But Defendants’ willingness to consider comments “on the exemption and accommodation issues” generally, see id. at
17, does not excuse their failure to do so before enacting
the 2017 IFRs. This is particularly true because the
2017 IFRs represent a direct repudiation of Defendants’
prior well-documented and well-substantiated public positions. Moreover, these IFRs are much broader in
suggestion that engaging in advance notice and comment would have
been contrary to the public interest, given the public’s evident “real
interest” in this matter. See Levesque, 723 F.2d at 185.
14
Defendants cite Priests for Life v. U.S. Department of Health
& Human Services, 772 F.3d 229 (D.C. Cir. 2014), vacated, Zubik,
136 S. Ct. at 1561, as a decision finding good cause to forgo advance
notice and comment in circumstances similar to these. See Opp. at
16-17. But Priests for Life is distinguishable. There, the court rejected the religious objector plaintiffs’ argument that the government
lacked the requisite good cause to promulgate the 2014 IFRs without
advance notice and comment, noting that the 2014 IFRs modified regulations that “were recently enacted pursuant to notice and comment rulemaking, and presented virtually identical issues. . . .”
Priests for Life, 772 F.3d at 276 (emphasis added); see also id. (describing the modifications in the 2014 IFRs as “minor” and “meant
only to augment current regulations in light of ” the Supreme Court’s
decision in Wheaton) (citation and internal quotation marks omitted). The 2017 IFRs, in contrast, represent a dramatic about-face
in federal policy, and adopt sweeping changes with regard to the exemption and accommodation.

187a
scope, and introduce an entirely new moral conviction
basis for objecting to the contraceptive mandate. Until
October 6, 2017, the public had no notice of Defendants’
intent to dramatically broaden eligibility for the exemption and to make the accommodation optional. The fact
that the public may have previously commented on these
broad topics in the context of past iterations of the rules
does not change that.
In addition, whether or not Defendants are willing to
consider post-promulgation comments, it remains “antithetical to the structure and purpose of the APA for an
agency to implement a rule first, and then seek comment
later.” Paulsen, 413 F.3d at 1005; see also Valverde,
628 F.3d at 1166 (noting that “[t]he Attorney General’s
request for post-promulgation comments in issuing the
interim rule casts further doubt upon the authenticity
and efficacy of the” asserted basis for good cause under
section 553). The same reasoning defeats Defendants’
argument that “the Rules are effective only until final
rules are issued.” See Opp. at 17. And that argument
is further undercut by the fact that on November 30,
2017 the Centers for Medicare & Medicaid Services,
which are part of HHS, issued guidance for the implementation of the 2017 IFRs. 15 The Court agrees with
Plaintiffs that the issuance of this guidance, before the
end of the post-promulgation comment period, suggests

See CTRS. FOR MEDICARE & MEDICAID SERVS., Notice by Issuer
or Third Party Administrator for Employer/Plan Sponsor of Revocation of the Accommodation for Certain Preventive Services, available
at https://www.cms.gov/CCIIO/Resources/Regulations-and-Guidance/
Downloads/Notice-Issuer-Third-Party-Employer-Preventive.pdf.
15

188a
that “it does not appear that the Defendants expect public comment to inform implementation.” Reply at 10.
In short, Defendants had no good cause to forgo the
APA’s notice and comment requirements, because their
asserted justifications do not “overcome the high bar”
they must clear to do so. See Valverde, 628 F.3d at
1164-65.
d.

Defendants’ failure to provide an advance
notice and comment process for the 2017
IFRs was not harmless error.

Defendants argue that, in any event, “any error in
forgoing notice and comment was harmless,” citing the
APA’s instruction to take “due account” of “the rule of
prejudicial error.” Opp. at 18 (quoting 5 U.S.C. § 706).
The Court, however, exercises “great caution in applying the harmless error rule in the administrative rulemaking context,” lest it “gut[] the APA’s procedural requirements.” Paulsen, 413 F.3d at 1006 (quoting Riverbend Farms, 958 F.2d at 1487). “[T]he failure to provide
notice and comment is harmless only where the agency’s
mistake ‘clearly had no bearing on the procedure used
or the substance of decision reached.’ ” Id. (quoting
Riverbend Farms, 958 F.2d at 1487). In Paulsen, the
court found that the Bureau of Prisons’ “violation of the
APA was not merely technical,” because “the Bureau
failed to provide the required notice-and-comment period before effectuating [an] interim regulation, thereby
precluding public participation in the rulemaking.” Id.
Defendants’ actions here are analogous: they precluded
public participation in the promulgation of the 2017
IFRs before those rules became effective. As such,
there is no way to conclude that Defendants’ violation
“clearly had no bearing on the procedure used or the

189a
substance of decision reached,” meaning that the error
was not harmless.
Defendant argues that “the Rules were issued after
the Agencies received ‘more than 100,000 public comments’ throughout six years of publishing and modifying
these regulations.” Opp. at 18. But as discussed above,
that does not render harmless this procedural error, regarding these IFRs. Nor does it take into account the
substantial differences between the previous iterations
of these rules and the IFRs at issue. 16 Far from being
harmless, Defendants’ error prevented Plaintiffs from
vindicating the purpose of the APA’s notice and comment requirement. For these reasons, Plaintiffs are,
at a minimum, likely to succeed in showing that Defendants violated the APA’s procedural requirements.
2.

Plaintiffs are likely to suffer irreparable harm
unless the Court enjoins the 2017 IFRs.

A procedural injury may serve as a basis for a finding
of irreparable harm when a preliminary injunction is
sought. See N. Mariana Islands v. U.S., 686 F. Supp.
2d 7, 17 (D.D.C. 2009) (finding, in preliminary injunction
analysis, that “[a] party experiences actionable harm
when ‘depriv[ed] of a procedural protection to which he
is entitled’ under the APA”) (quoting Sugar Cane Growers Coop. of Fla. v. Veneman, 289 F.3d 89, 94-95 (D.C.
Cir. 2002)); Save Strawberry Canyon v. Dep’t of Energy,
See 75 Fed. Reg. 41,730 (2010 IFR was necessary to allow health
plans sufficient time to comply with the requirements of the newlyenacted ACA within an approximately two-month timeframe);
76 Fed. Reg. 46,624 (2011 IFR was based on public comments received in response to the 2010 IFR, before HRSA’s 2011 Guidelines
were in effect); 79 Fed. Reg. 51,095-96 (2014 IFR was issued in direct
response to the Wheaton College decision).
16

190a
613 F. Supp. 2d 1177, 1189-90 (N.D. Cal. 2009) (finding
irreparable harm requirement satisfied where plaintiff
claimed procedural violation of National Environmental
Policy Act). “[A] plaintiff must demonstrate immediate threatened injury as a prerequisite to preliminary
injunctive relief.” Boardman v. Pac. Seafood Group,
822 F.3d 1011, 1022 (9th Cir. 2016) (citation and emphasis omitted). A threat is sufficiently immediate “if the
plaintiff is likely to suffer irreparable harm before a decision on the merits can be rendered.” Id. at 1023 (citation and internal quotation marks omitted). A court’s
analysis focuses on whether harm is irreparable, “irrespective of the magnitude of the injury.” Simula, Inc.
v. Autoliv, Inc., 175 F.3d 716, 725 (9th Cir. 1999).
Plaintiffs are not only likely to suffer irreparable procedural harm in the absence of a preliminary injunction,
they already have done so. Because the 2017 IFRs were
effective immediately, Plaintiffs’ harm is ongoing. Every
day the IFRs stand is another day Defendants may enforce regulations likely promulgated in violation of the
APA’s notice and comment provision, without Plaintiffs’
advance input. And Plaintiffs’ right to provide such input does not exist in a vacuum. Rather, it is in large
part defined by what is at stake: the health of Plaintiffs’ citizens and Plaintiffs’ fiscal interests. Under the
2017 IFRs, more employers than ever before are eligible
for the exemption and the accommodation, the latter of
which is now entirely optional for organizations asserting a religious or moral objection. Put another way, for
a substantial number of women, the 2017 IFRs transform contraceptive coverage from a legal entitlement to
an essentially gratuitous benefit wholly subject to their
employer’s discretion. See generally Dkt. No. 72 at 6-14
(amicus brief for American Association of University

191a
Women et al., describing “wide and potentially boundless range” of employers who “will be able to claim religious or moral exemptions” under the 2017 IFRs). The
impact on the rules governing the health insurance coverage of Plaintiffs’ citizens—and the stability of that
coverage—was immediate, which also implicates Plaintiffs’ fiscal interests as described above. If the Court
ultimately finds in favor of Plaintiffs on the merits, any
harm caused in the interim by rescinded contraceptive
coverage would not be susceptible to remedy. Thus,
Plaintiffs have satisfied the irreparable harm prong of
the inquiry.
3.

The balance of the equities tips in Plaintiffs’
favor, and a public interest favors granting
preliminary injunctive relief.

Plaintiffs also prevail on the balance of equities and
public interest analyses. When the government is a
party to a case in which a preliminary injunction is sought,
the balance of the equities and public interest factors
merge. Drakes Bay Oyster Co. v. Jewell, 747 F.3d
1073, 1092 (9th Cir. 2014). Broadly speaking, there are
two interests at stake in that balance: “the interest in
ensuring coverage for contraceptive and sterilization
services” as provided for under the ACA, and the interest in “provid[ing] conscience protections for individuals
and entities with sincerely held religious beliefs [or moral
convictions] in certain health care contexts.” 82 Fed.
Reg. 47,793; see also id. at 47,839. Here, but for the
APA violation the Court has found likely to be shown,
Plaintiffs could have participated in Defendants’ rulemaking process, “explain[ed] the practical effects of [the]
rule before [it was] implemented,” and helped “ensure[]

192a
that the agency proceed in a fully informed manner, exploring alternative, less harmful approaches” to expanding eligibility for the exemption and making the accommodation optional. See Mot. at 18-19. That does not
mean the outcome necessarily would have been different, but section 553 is concerned with the important
value served by proper process. See Citizens for a Better Forestry, 341 F.3d at 976 (stating that petitioners alleging procedural injury under an environmental statute were required to show only that adherence to statutory procedures could influence an agency’s decision,
and not that such adherence “would result in a different
conclusion”) (citation omitted).
With those interests in mind, the Court concludes
that the balance of equities tips in Plaintiffs’ favor.
Plaintiffs face potentially dire public health and fiscal
consequences as a result of a process as to which they
had no input. On the other hand, returning to the state
of affairs before the enactment of the 2017 IFRs—in
which eligible entities still would be permitted to avail
themselves of the exemption or the accommodation—
does not constitute an equivalent harm to the Defendants pending resolution of the merits. While Defendants’ interest in “protecting religious liberty and conscience” is unquestionably legitimate, see Opp. at 35, the
Court believes it likely that the prior framing of the religious exemption and accommodation permissibly ensured such protection. That is to say, the Court views
as likely correct the reasoning of the eight Circuit
Courts of Appeals (of the nine to have considered the
issue) which found that the procedure in place prior to
the 2017 IFRs did not impose a substantial burden on

193a
religious exercise under RFRA. 17
ties thus tips in Plaintiffs’ favor.

The balance of equi-

For similar reasons, the public interest favors the
granting of a preliminary injunction. The Court notes
that “[t]he public interest is served when administrative
agencies comply with their obligations under the APA.”
N. Mariana Islands, 686 F. Supp. 2d. at 21 (citation
omitted); see also Alcaraz v. Block, 746 F.2d 593, 610
(9th Cir. 1984) (“The APA creates a statutory scheme
See Priests for Life v. U.S. Dep’t of Health & Human Servs.,
772 F.3d 229 (D.C. Cir. 2014), vacated, Zubik, 136 S. Ct. at 1561; Geneva Coll. v. Sec’y U.S. Dep’t of Health & Human Servs., 778 F.3d
422 (3d Cir. 2015), vacated, Zubik, 136 S. Ct. at 1561; E. Tex. Baptist
Univ. v. Burwell, 793 F.3d 449 (5th Cir. 2015), vacated, Zubik,
136 S. Ct. at 1561; Little Sisters of the Poor Home for the Aged, Denver, Colo. v. Burwell, 794 F.3d 1151 (10th Cir. 2015), vacated, Zubik,
136 S. Ct. at 1561; Univ. of Notre Dame v. Burwell, 786 F.3d 606
(7th Cir. 2015), vacated, 136 S. Ct. 2007 (2016); Catholic Health Care
Sys. v. Burwell, 796 F.3d 207 (2d Cir. 2015), vacated, 136 S. Ct. 2450
(2016); Mich. Catholic Conference & Catholic Family Servs. v. Burwell, 807 F.3d 738 (6th Cir. 2015), vacated, 136 S. Ct. 2450 (2016);
Grace Schs. v. Burwell, 801 F.3d 788 (7th Cir. 2015), vacated,
136 S. Ct. 2011 (2016); Eternal Word Television Network v. Sec’y of
U.S. Dep’t Health & Human Servs., 818 F.3d 1122 (11th Cir. 2016).
Only the Eighth Circuit has found that the religious accommodation,
as it existed before the promulgation of the 2017 IFRs, imposed a
substantial burden on religious exercise under RFRA. See Sharpe
Holdings, Inc. v. U.S. Dep’t of Health & Human Servs., 801 F.3d
927, 945 (8th Cir. 2015) (affirming grant of preliminary injunction to
religious objectors because “they [were] likely to succeed on the
merits of their RFRA challenge to the contraceptive mandate and
the accommodation regulations”), vacated, Dep’t of Health & Human Servs. v. CNS Int’l Ministries, --- S. Ct. ---, 2016 WL 2842448
(2016); Dordt Coll. v. Burwell, 801 F.3d 946 (8th Cir. 2015) (applying
reasoning of Sharpe Holdings to similar facts), vacated, Burwell v.
Dordt Coll., 136 S. Ct. 2006 (2016).
17

194a
for informal or notice-and-comment rulemaking reflecting ‘a judgment by Congress that the public interest is
served by a careful and open review of proposed administrative rules and regulations.’ ”) (citation omitted).
Plaintiffs have therefore shown that the balance of
equities tips in their favor, and that the public interest
favors granting a preliminary injunction. Because the
standard set forth in Winter is met, the Court grants
Plaintiffs’ motion. 18
D.

This Preliminary Injunction Effectively Reinstates
the Regime in Place Before the Issuance of the
2017 IFRs.

The Court next turns to the contours of Plaintiffs’
remedy. “The scope of an injunction is within the broad
discretion of the district court. . . .” TrafficSchool.
com, Inc. v. Edriver Inc., 653 F.3d 820, 829 (9th Cir.
2011). “Ordinarily when a regulation is not promulgated in compliance with the APA, the regulation is invalid.” Paulsen, 413 F.3d at 1008. “The effect of invalidating an agency rule is to reinstate the rule previously
in force.” Id.
Under the circumstances, the Court finds it appropriate to issue a nationwide preliminary injunction.
Defendants did not violate the APA just as to Plaintiffs:
no member of the public was permitted to participate in
the rulemaking process via advance notice and comment.
Accordingly, Defendants are (1) preliminarily enjoined
from enforcing the 2017 IFRs, and (2) required to continue under the regime in place before October 6, 2017,
Because the Court finds that entry of a preliminary injunction is
warranted on the basis discussed above, it need not at this time consider the additional bases for injunctive relief advanced by Plaintiffs.
18

195a
pending a determination on the merits. This is consistent with the general practice of invalidating rules not
promulgated in compliance with the APA and reinstating the “rule previously in force,” and maintains the status quo that existed before the implementation of the
likely invalid 2017 IFRs.
The Court notes that simply enjoining Defendants
from enforcing the 2017 IFRs, without requiring them
to proceed under the prior regime pending resolution of
the merits, would result in a problematic regulatory vacuum, in which the rights of both women seeking costfree contraceptive coverage and employers seeking religious exemption or accommodation would be uncertain.
See Opp. at 35 n.25. At oral argument, counsel for Defendants confirmed that they do not advocate for such a
vacuum in the event the Court grants a preliminary injunction. This nationwide injunction does not conflict
with the plaintiff-specific injunctions issued by the courts
in the Zubik cases or any other case. Returning to the
state of affairs before October 6, 2017 means just that:
the exemption and accommodation as they existed following the Zubik remand remain in effect, as do any
court orders enjoining Defendants from enforcing those
rules against specific plaintiffs.

196a
V.

CONCLUSION

For the reasons set forth above, Plaintiffs’ motion for
a preliminary injunction is GRANTED, effective as of the
date of this order. The case management conference
currently set for January 9, 2018 at 2:00 p.m. is ADVANCED to January 9, 2018 at 10:00 a.m. The parties
shall submit a joint case management statement by January 5, 2018 at 5:00 p.m.
IT IS SO ORDERED.

Dated:

12/21/17
/s/

HAYWOOD S. GILLIAM, JR.
HAYWOOD S. GILLIAM, JR.
United States District Judge

197a
APPENDIX E

1.

5 U.S.C. 553(b) and (c) provide:

Rule making

(b) General notice of proposed rule making shall be
published in the Federal Register, unless persons subject
thereto are named and either personally served or otherwise have actual notice thereof in accordance with law.
The notice shall include—
(1) a statement of the time, place, and nature of
public rule making proceedings;
(2) reference to the legal authority under which
the rule is proposed; and
(3) either the terms or substance of the proposed
rule or a description of the subjects and issues involved.
Except when notice or hearing is required by statute, this
subsection does not apply—
(A) to interpretative rules, general statements of
policy, or rules of agency organization, procedure, or
practice; or
(B) when the agency for good cause finds (and incorporates the finding and a brief statement of reasons
therefor in the rules issued) that notice and public procedure thereon are impracticable, unnecessary, or contrary to the public interest.
(c) After notice required by this section, the agency
shall give interested persons an opportunity to participate
in the rule making through submission of written data,
views, or arguments with or without opportunity for oral
presentation. After consideration of the relevant matter

198a
presented, the agency shall incorporate in the rules
adopted a concise general statement of their basis and
purpose. When rules are required by statute to be made
on the record after opportunity for an agency hearing,
sections 556 and 557 of this title apply instead of this
subsection.
2.

42 U.S.C. 300gg-13(a) provides:

Coverage of preventive health services
(a) In general

A group health plan and a health insurance issuer offering group or individual health insurance coverage
shall, at a minimum provide coverage for and shall not
impose any cost sharing requirements for—
(1) evidence-based items or services that have in
effect a rating of “A” or “B” in the current recommendations of the United States Preventive Services
Task Force;
(2) immunizations that have in effect a recommendation from the Advisory Committee on Immunization Practices of the Centers for Disease Control
and Prevention with respect to the individual involved; and1
(3) with respect to infants, children, and adolescents, evidence-informed preventive care and screenings provided for in the comprehensive guidelines

1

So in original.

The word “and” probably should not appear.

199a
supported by the Health Resources and Services Administration. 2
(4) with respect to women, such additional preventive care and screenings not described in paragraph (1) as provided for in comprehensive guidelines supported by the Health Resources and Services Administration for purposes of this paragraph. 2
(5) for the purposes of this chapter, and for the
purposes of any other provision of law, the current
recommendations of the United States Preventive
Service Task Force regarding breast cancer screening, mammography, and prevention shall be considered the most current other than those issued in or
around November 2009.
Nothing in this subsection shall be construed to prohibit
a plan or issuer from providing coverage for services in
addition to those recommended by United States Preventive Services Task Force or to deny coverage for
services that are not recommended by such Task Force.
3.

42 U.S.C. 2000bb-1 provides:

Free exercise of religion protected
(a) In general

Government shall not substantially burden a person’s
exercise of religion even if the burden results from a rule
of general applicability, except as provided in subsection
(b) of this section.

2

So in original.

The period probably should be a semicolon.

200a
(b) Exception

Government may substantially burden a person’s exercise of religion only if it demonstrates that application
of the burden to the person—
(1) is in furtherance of a compelling governmental interest; and
(2) is the least restrictive means of furthering
that compelling governmental interest.
(c) Judicial relief

A person whose religious exercise has been burdened
in violation of this section may assert that violation as a
claim or defense in a judicial proceeding and obtain appropriate relief against a government. Standing to assert a claim or defense under this section shall be governed by the general rules of standing under article III
of the Constitution.
4.

45 C.F.R. 147.131(a) (2016) provides:

Exemption and accommodations in connection with coverage of preventive health services.

(a) Religious employers. In issuing guidelines under § 147.130(a)(1)(iv), the Health Resources and Services Administration may establish an exemption from
such guidelines with respect to a group health plan established or maintained by a religious employer (and
health insurance coverage provided in connection with a
group health plan established or maintained by a religious employer) with respect to any requirement to
cover contraceptive services under such guidelines.

201a
For purposes of this paragraph (a), a “religious employer” is an organization that is organized and operates
as a nonprofit entity and is referred to in section
6033(a)(3)(A)(i) or (iii) of the Internal Revenue Code of
1986, as amended.
5.

45 C.F.R. 147.131 provides:

Accommodations in connection with coverage of certain
preventive health services.

(a)-(b) [Reserved]
(c) Eligible organizations for optional accommodation. An eligible organization is an organization that
meets the criteria of paragraphs (c)(1) through (3) of
this section.
(1) The organization is an objecting entity described
in § 147.132(a)(1)(i) or (ii), or 45 CFR 147.133(a)(1)(i) or
(ii).
(2) Notwithstanding its exempt status under
§ 147.132(a) or § 147.133, the organization voluntarily
seeks to be considered an eligible organization to invoke
the optional accommodation under paragraph (d) of this
section; and
(3) The organization self-certifies in the form and
manner specified by the Secretary or provides notice to
the Secretary as described in paragraph (d) of this section. To qualify as an eligible organization, the organization must make such self-certification or notice available for examination upon request by the first day of the
first plan year to which the accommodation in paragraph
(d) of this section applies. The self-certification or notice must be executed by a person authorized to make

202a
the certification or provide the notice on behalf of the
organization, and must be maintained in a manner consistent with the record retention requirements under
section 107 of ERISA.
(4) An eligible organization may revoke its use of
the accommodation process, and its issuer must provide
participants and beneficiaries written notice of such revocation as specified in guidance issued by the Secretary
of the Department of Health and Human Services. If
contraceptive coverage is currently being offered by an
issuer through the accommodation process, the revocation will be effective on the first day of the first plan year
that begins on or after 30 days after the date of the revocation (to allow for the provision of notice to plan participants in cases where contraceptive benefits will no
longer be provided). Alternatively, an eligible organization may give 60-days notice pursuant to section
2715(d)(4) of the PHS Act and § 147.200(b), if applicable,
to revoke its use of the accommodation process.
(d) Optional accommodation insured group health
plans (1) General rule. A group health plan established
or maintained by an eligible organization that provides
benefits through one or more group health insurance issuers may voluntarily elect an optional accommodation
under which its health insurance issuer(s) will provide
payments for all or a subset of contraceptive services for
one or more plan years. To invoke the optional accommodation process:
(i) The eligible organization or its plan must contract with one or more health insurance issuers.

203a
(ii) The eligible organization must provide either a
copy of the self-certification to each issuer providing
coverage in connection with the plan or a notice to the
Secretary of the Department of Health and Human Services that it is an eligible organization and of its objection as described in § 147.132 or § 147.133 to coverage
for all or a subset of contraceptive services.
(A) When a self-certification is provided directly to
an issuer, the issuer has sole responsibility for providing
such coverage in accordance with § 147.130(a)(iv).
(B) When a notice is provided to the Secretary of the
Department of Health and Human Services, the notice
must include the name of the eligible organization; a
statement that it objects as described in § 147.132 or
§ 147.133 to coverage of some or all contraceptive services (including an identification of the subset of contraceptive services to which coverage the eligible organization objects, if applicable) but that it would like to elect
the optional accommodation process; the plan name and
type (that is, whether it is a student health insurance
plan within the meaning of § 147.145(a) or a church plan
within the meaning of section 3(33) of ERISA); and the
name and contact information for any of the plan’s
health insurance issuers. If there is a change in any of
the information required to be included in the notice, the
eligible organization must provide updated information
to the Secretary of the Department of Health and Human Services for the optional accommodation to remain
in effect. The Department of Health and Human Services will send a separate notification to each of the
plan’s health insurance issuers informing the issuer that
the Secretary of the Deparement of Health and Human
Services has received a notice under paragraph (d)(1)(ii)

204a
of this section and describing the obligations of the issuer under this section.
(2) If an issuer receives a copy of the self-certification
from an eligible organization or the notification from the
Department of Health and Human Services as described
in paragraph (d)(1)(ii) of this section and does not have
an objection as described in § 147.132 or § 147.133 to
providing the contraceptive services identified in the
self-certification or the notification from the Department of Health and Human Services, then the issuer will
provide payments for contraceptive services as follows—
(i) The issuer must expressly exclude contraceptive
coverage from the group health insurance coverage provided in connection with the group health plan and provide separate payments for any contraceptive services
required to be covered under § 141.130(a)(1)(iv) for plan
participants and beneficiaries for so long as they remain
enrolled in the plan.
(ii) With respect to payments for contraceptive services, the issuer may not impose any cost-sharing requirements (such as a copayment, coinsurance, or a deductible), premium, fee, or other charge, or any portion
thereof, directly or indirectly, on the eligible organization, the group health plan, or plan participants or beneficiaries. The issuer must segregate premium revenue collected from the eligible organization from the
monies used to provide payments for contraceptive services. The issuer must provide payments for contraceptive services in a manner that is consistent with the
requirements under sections 2706, 2709, 2711, 2713,
2719, and 2719A of the PHS Act. If the group health
plan of the eligible organization provides coverage for
some but not all of any contraceptive services required

205a
to be covered under § 147.130(a)(1)(iv), the issuer is required to provide payments only for those contraceptive
services for which the group health plan does not provide
coverage. However, the issuer may provide payments
for all contraceptive services, at the issuer’s option.
(3) A health insurance issuer may not require any
documentation other than a copy of the self-certification
from the eligible organization or the notification from
the Department of Health and Human Services described in paragraph (d)(1)(ii) of this section.
(e) Notice of availability of separate payments for
contraceptive services—insured group health plans and
student health insurance coverage. For each plan year
to which the optional accommodation in paragraph (d) of
this section is to apply, an issuer required to provide
payments for contraceptive services pursuant to paragraph (d) of this section must provide to plan participants and beneficiaries written notice of the availability
of separate payments for contraceptive services contemporaneous with (to the extent possible), but separate
from, any application materials distributed in connection
with enrollment (or re-enrollment) in group health coverage that is effective beginning on the first day of each
applicable plan year. The notice must specify that the
eligible organization does not administer or fund contraceptive benefits, but that the issuer provides separate
payments for contraceptive services, and must provide
contact information for questions and complaints. The
following model language, or substantially similar language, may be used to satisfy the notice requirement of
this
paragraph
(e)
“Your
[employer/
institution of higher education] has certified that

206a
your [group health plan/student health insurance coverage] qualifies for an accommodation with respect to
the Federal requirement to cover all Food and Drug
Administration-approved contraceptive services for
women, as prescribed by a health care provider, without cost sharing. This means that your [employer/
institution of higher education] will not contract, arrange, pay, or refer for contraceptive coverage. Instead, [name of health insurance issuer] will provide
separate payments for contraceptive services that you
use, without cost sharing and at no other cost, for so long
as you are enrolled in your [group health plan/student
health insurance coverage]. Your [employer/institution of higher education] will not administer or fund
these payments. If you have any questions about this
notice, contact [contact information for health insurance
issuer].”
(f ) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or coverage includes contraceptive or sterilization items, procedures, or services, or related patient education or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(g) Severability. Any provision of this section held
to be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so as
to continue to give maximum effect to the provision permitted by law, unless such holding shall be one of utter
invalidity or unenforceability, in which event the provision shall be severable from this section and shall not
affect the remainder thereof or the application of the
provision to persons not similarly situated or to dissimilar circumstances.

207a
6. 45 C.F.R. 147.131, as amended by 83 Fed. Reg.
57,589 (Nov. 15, 2018), provides in pertinent part:
Accommodations in connection with coverage of certain
preventive health services.

*

*

*

*

*

(c) * * *
(4) An eligible organization may revoke its use of
the accommodation process, and its issuer must provide
participants and beneficiaries written notice of such revocation, as specified herein.
(i) Transitional rule—If contraceptive coverage is
being offered on January 14, 2019, by an issuer through
the accommodation process, an eligible organization
may give 60-days notice pursuant to section 2715(d)(4)
of the PHS Act and § 147.200(b), if applicable, to revoke
its use of the accommodation process (to allow for the
provision of notice to plan participants in cases where
contraceptive benefits will no longer be provided). Alternatively, such eligible organization may revoke its
use of the accommodation process effective on the first
day of the first plan year that begins on or after 30 days
after the date of the revocation.
(ii) General rule—In plan years that begin after
January 14, 2019, if contraceptive coverage is being offered by an issuer through the accommodation process,
an eligible organization’s revocation of use of the accommodation process will be effective no sooner than the
first day of the first plan year that begins on or after
30 days after the date of the revocation.
*

*

*

*

*

208a
(f ) Reliance—(1) If an issuer relies reasonably and
in good faith on a representation by the eligible organization as to its eligibility for the accommodation in paragraph (d) of this section, and the representation is later
determined to be incorrect, the issuer is considered
to comply with any applicable requirement under
§ 147.130(a)(1)(iv) to provide contraceptive coverage if
the issuer complies with the obligations under this section applicable to such issuer.
(2) A group health plan is considered to comply with
any applicable requirement under § 147.130(a)(1)(iv) to
provide contraceptive coverage if the plan complies with
its obligations under paragraph (d) of this section, without regard to whether the issuer complies with the obligations under this section applicable to such issuer.
*
7.

*

*

*

*

45 C.F.R. 147.132 provides:

Religious exemptions in connection with coverage of certain preventive health services.

(a) Objecting entities. (1) Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and Services
Administration must not provide for or support the requirement of coverage or payments for contraceptive
services with respect to a group health plan established
or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting
organization, and thus the Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to the provision of contraceptive
services:

209a
(i) A group health plan and health insurance coverage provided in connection with a group health plan to
the extent the non-governmental plan sponsor objects as
specified in paragraph (a)(2) of this section. Such nongovernmental plan sponsors include, but are not limited
to, the following entities—
(A) A church, an integrated auxiliary of a church, a
convention or association of churches, or a religious order.
(B) A nonprofit organization.
(C) A closely held for-profit entity.
(D) A for-profit entity that is not closely held.
(E) Any other non-governmental employer.
(ii) An institution of higher education as defined in
20 U.S.C. 1002 in its arrangement of student health insurance coverage, to the extent that institution objects
as specified in paragraph (a)(2) of this section. In the
case of student health insurance coverage, this section
is applicable in a manner comparable to its applicability
to group health insurance coverage provided in connection with a group health plan established or maintained
by a plan sponsor that is an employer, and references to
“plan participants and beneficiaries” will be interpreted
as references to student enrollees and their covered dependents; and
(iii) A health insurance issuer offering group or individual insurance coverage to the extent the issuer objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group health
insurance coverage is exempt under this paragraph
(a)(1)(iii), the plan remains subject to any requirement

210a
to provide coverage for contraceptive services under
Guidelines issued under § 147.130(a)(1)(iv) unless it is
also exempt from that requirement.
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects to its establishing, maintaining,
providing, offering, or arranging (as applicable) coverage, payments, or a plan that provides coverage or payments for some or all contraceptive services, based on
its sincerely held religious beliefs.
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate benefit package option, or a separate policy, certificate or contract of insurance, to any individual
who objects to coverage or payments for some or all contraceptive services based on sincerely held religious
beliefs.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or coverage includes contraceptive or sterilization items, procedures, or services, or related patient education or
counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).

211a
(d) Severability. Any provision of this section held
to be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so as
to continue to give maximum effect to the provision permitted by law, unless such holding shall be one of utter
invalidity or unenforceability, in which event the provision shall be severable from this section and shall not
affect the remainder thereof or the application of the
provision to persons not similarly situated or to dissimilar circumstances.
8. 45 C.F.R. 147.132, as amended by 83 Fed. Reg.
57,590 (Nov. 15, 2018), provides in pertinent part:
Religious exemptions in connection with coverage of certain preventive health services.

(a) * * *
(1) Guidelines issued under § 147.130(a)(1)(iv) by
the Health Resources and Services Administration must
not provide for or support the requirement of coverage
or payments for contraceptive services with respect to a
group health plan established or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting organization, to the
extent of the objections specified below. Thus the
Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to
the provision of contraceptive services:
*

*

*

*

*

(ii) A group health plan, and health insurance coverage provided in connection with a group health plan,
where the plan or coverage is established or maintained

212a
by a church, an integrated auxiliary of a church, a convention or association of churches, a religious order, a
nonprofit organization, or other non-governmental organization or association, to the extent the plan sponsor
responsible for establishing and/or maintaining the plan
objects as specified in paragraph (a)(2) of this section.
The exemption in this paragraph applies to each employer, organization, or plan sponsor that adopts the
plan;
(iii) An institution of higher education as defined in
20 U.S.C. 1002, which is non-governmental, in its arrangement of student health insurance coverage, to the
extent that institution objects as specified in paragraph
(a)(2) of this section. In the case of student health insurance coverage, this section is applicable in a manner
comparable to its applicability to group health insurance
coverage provided in connection with a group health
plan established or maintained by a plan sponsor that is
an employer, and references to ‘‘plan participants and
beneficiaries’’ will be interpreted as references to student enrollees and their covered dependents; and
(iv) A health insurance issuer offering group or individual insurance coverage to the extent the issuer objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group health
insurance coverage is exempt under this subparagraph
(iv), the group health plan established or maintained by
the plan sponsor with which the health insurance issuer
contracts remains subject to any requirement to provide
coverage for contraceptive services under Guidelines issued under § 147.130(a)(1)(iv) unless it is also exempt
from that requirement.

213a
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects, based on its sincerely held religious beliefs, to its establishing, maintaining, providing,
offering, or arranging for (as applicable):
(i) Coverage or payments for some or all contraceptive services; or
(ii) A plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate policy, certificate or contract of insurance
or a separate group health plan or benefit package option, to any group health plan sponsor (with respect to
an individual) or individual, as applicable, who objects to
coverage or payments for some or all contraceptive services based on sincerely held religious beliefs. Under
this exemption, if an individual objects to some but not
all contraceptive services, but the issuer, and as applicable, plan sponsor, are willing to provide the plan sponsor
or individual, as applicable, with a separate policy, certificate or contract of insurance or a separate group
health plan or benefit package option that omits all con-

214a
traceptives, and the individual agrees, then the exemption applies as if the individual objects to all contraceptive services.
*
9.

*

*

*

*

45 C.F.R. 147.133 provides:

Moral exemptions in connection with coverage of certain
preventive health services.

(a) Objecting entities. (1) Guidelines issued under
§ 147.130(a)(1)(iv) by the Health Resources and Services
Administration must not provide for or support the requirement of coverage or payments for contraceptive
services with respect to a group health plan established
or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting
organization, and thus the Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to the provision of contraceptive
services:
(i) A group health plan and health insurance coverage provided in connection with a group health plan to
the extent one of the following non-governmental plan
sponsors object as specified in paragraph (a)(2) of this
section:
(A) A nonprofit organization; or
(B) A for-profit entity that has no publicly traded
ownership interests (for this purpose, a publicly traded
ownership interest is any class of common equity securities required to be registered under section 12 of the
Securities Exchange Act of 1934);

215a
(ii) An institution of higher education as defined in
20 U.S.C. 1002 in its arrangement of student health insurance coverage, to the extent that institution objects
as specified in paragraph (a)(2) of this section. In the
case of student health insurance coverage, this section
is applicable in a manner comparable to its applicability
to group health insurance coverage provided in connection with a group health plan established or maintained
by a plan sponsor that is an employer, and references to
“plan participants and beneficiaries” will be interpreted
as references to student enrollees and their covered dependents; and
(iii) A health insurance issuer offering group or individual insurance coverage to the extent the issuer objects as specified in paragraph (a)(2) of this section.
Where a health insurance issuer providing group health
insurance coverage is exempt under paragraph (a)(1)(iii)
of this section, the group health plan established or
maintained by the plan sponsor with which the health
insurance issuer contracts remains subject to any requirement to provide coverage for contraceptive services under Guidelines issued under § 147.130(a)(1)(iv)
unless it is also exempt from that requirement.
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects to its establishing, maintaining,
providing, offering, or arranging (as applicable) coverage or payments for some or all contraceptive services,
or for a plan, issuer, or third party administrator that
provides or arranges such coverage or payments, based
on its sincerely held moral convictions.

216a
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate policy, certificate or contract of insurance
or a separate group health plan or benefit package option, to any individual who objects to coverage or payments for some or all contraceptive services based on
sincerely held moral convictions.
(c) Definition. For the purposes of this section,
reference to “contraceptive” services, benefits, or coverage includes contraceptive or sterilization items, procedures, or services, or related patient education or counseling, to the extent specified for purposes of
§ 147.130(a)(1)(iv).
(d) Severability. Any provision of this section held
to be invalid or unenforceable by its terms, or as applied
to any person or circumstance, shall be construed so as
to continue to give maximum effect to the provision permitted by law, unless such holding shall be one of utter
invalidity or unenforceability, in which event the provision shall be severable from this section and shall not
affect the remainder thereof or the application of the
provision to persons not similarly situated or to dissimilar circumstances.

217a
10. 45 C.F.R. 147.133, as amended by 83 Fed. Reg.
57,630 (Nov. 15, 2018), provides in pertinent part:
Moral exemptions in connection with coverage of certain
preventive health services.

(a) * * *
(1) Guidelines issued under § 147.130(a)(1)(iv) by
the Health Resources and Services Administration must
not provide for or support the requirement of coverage
or payments for contraceptive services with respect to a
group health plan established or maintained by an objecting organization, or health insurance coverage offered or arranged by an objecting organization, to the
extent of the objections specified below. Thus the
Health Resources and Service Administration will exempt from any guidelines’ requirements that relate to
the provision of contraceptive services:
*

*

*

*

*

(ii) An institution of higher education as defined in
20 U.S.C. 1002, which is non-governmental, in its arrangement of student health insurance coverage, to the
extent that institution objects as specified in paragraph
(a)(2) of this section. In the case of student health insurance coverage, this section is applicable in a manner
comparable to its applicability to group health insurance
coverage provided in connection with a group health
plan established or maintained by a plan sponsor that is
an employer, and references to ‘‘plan participants and
beneficiaries’’ will be interpreted as references to student enrollees and their covered dependents; and
* * * * *

218a
(2) The exemption of this paragraph (a) will apply to
the extent that an entity described in paragraph (a)(1)
of this section objects, based on its sincerely held moral
convictions, to its establishing, maintaining, providing,
offering, or arranging for (as applicable):
(i) Coverage or payments for some or all contraceptive services; or
(ii) A plan, issuer, or third party administrator that
provides or arranges such coverage or payments.
(b) Objecting individuals. Guidelines issued under § 147.130(a)(1)(iv) by the Health Resources and
Services Administration must not provide for or support
the requirement of coverage or payments for contraceptive services with respect to individuals who object
as specified in this paragraph (b), and nothing in
§ 147.130(a)(1)(iv), 26 CFR 54.9815-2713(a)(1)(iv), or
29 CFR 2590.715-2713(a)(1)(iv) may be construed to prevent a willing health insurance issuer offering group or
individual health insurance coverage, and as applicable,
a willing plan sponsor of a group health plan, from offering a separate policy, certificate or contract of insurance
or a separate group health plan or benefit package option, to any group health plan sponsor (with respect to
an individual) or individual, as applicable, who objects to
coverage or payments for some or all contraceptive services based on sincerely held moral convictions. Under
this exemption, if an individual objects to some but not
all contraceptive services, but the issuer, and as applicable, plan sponsor, are willing to provide the plan sponsor

219a
or individual, as applicable, with a separate policy, certificate or contract of insurance or a separate group
health plan or benefit package option that omits all contraceptives, and the individual agrees, then the exemption applies as if the individual objects to all contraceptive services.
* * * * *

